<html>
<title> - BUILDING AMERICA'S COMPETITIVENESS: EXAMINING WHAT IS NEEDED TO COMPETE IN A GLOBAL ECONOMY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                  BUILDING AMERICA'S COMPETITIVENESS:
                      EXAMINING WHAT IS NEEDED TO
                      COMPETE IN A GLOBAL ECONOMY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             April 6, 2006

                               __________

                           Serial No. 109-34

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-978                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California,
    Chairman                           Ranking Minority Member
Michael N. Castle, Delaware          Dale E. Kildee, Michigan
Sam Johnson, Texas                   Major R. Owens, New York
Mark E. Souder, Indiana              Donald M. Payne, New Jersey
Charlie Norwood, Georgia             Robert E. Andrews, New Jersey
Vernon J. Ehlers, Michigan           Robert C. Scott, Virginia
Judy Biggert, Illinois               Lynn C. Woolsey, California
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Patrick J. Tiberi, Ohio              Carolyn McCarthy, New York
Ric Keller, Florida                  John F. Tierney, Massachusetts
Tom Osborne, Nebraska                Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Jon C. Porter, Nevada                David Wu, Oregon
John Kline, Minnesota                Rush D. Holt, New Jersey
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bob Inglis, South Carolina           Betty McCollum, Minnesota
Cathy McMorris, Washington           Danny K. Davis, Illinois
Kenny Marchant, Texas                Raul M. Grijalva, Arizona
Tom Price, Georgia                   Chris Van Hollen, Maryland
Luis G. Fortuno, Puerto Rico         Tim Ryan, Ohio
Bobby Jindal, Louisiana              Timothy H. Bishop, New York
Charles W. Boustany, Jr., Louisiana  [Vacancy]
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York
[Vacancy]

                       Vic Klatt, Staff Director
        Mark Zuckerman, Minority Staff Director, General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 6, 2006....................................     1

Statement of Members:
    McKeon, Hon. Howard P. ``Buck,'' Chairman, Committee on 
      Education and the Workforce................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, Ranking Minority Member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6
    Norwood, Hon. Charlie, a Representative in Congress From the 
      State of Georgia, prepared statement of....................    73

Statement of Witnesses:
    Chao, Hon. Elaine L., Secretary of Labor, U.S. Department of 
      Labor......................................................     8
        Prepared statement of....................................    10
    Jarrett, James, Vice President, Worldwide Government Affairs, 
      Intel Corp.................................................    46
        Prepared statement of....................................    48
    Jurey, Wes, President and CEO, Arlington, TX, Chamber of 
      Commerce...................................................    50
        Prepared statement of....................................    51
    Simons, James H., President, Renaissance Technologies Corp...    57
        Prepared statement of....................................    59
    Spellings, Hon. Margaret Spellings, Secretary of Education, 
      U.S. Department of Education...............................    15
        Prepared statement of....................................    18
        Responses to questions posed at the hearing..............    79

Additional Materials Supplied:
    McCollum, Hon. Betty, a Representative in Congress from the 
      State of Minnesota, various articles:
        ``MNSCU Puts Priority on Math and Science,'' from the St. 
          Paul Pioneer Press, March 9, 2006......................    73
        ``A Conversation; On Education in Minnesota; Competing 
          With the World,'' from the Minneapolis ``Star-
          Tribune,'' March 6, 2006...............................    74
        ``While We Are Sleeping,'' presentation to National 
          Association of Independent College and University State 
          Executives [NAICUSE], February 6, 2006.................    77


                  BUILDING AMERICA'S COMPETITIVENESS:
                      EXAMINING WHAT IS NEEDED TO
                      COMPETE IN A GLOBAL ECONOMY

                              ----------                              


                        Thursday, April 6, 2006

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:07 a.m., in room 
2175, Rayburn House Office Building, Hon. Howard McKeon 
[chairman of the committee] presiding.
    Present: Representatives McKeon, Petri, Castle, Norwood, 
Platts, Tiberi, Keller, Osborne, Wilson, Porter, Kline, Inglis, 
McMorris, Fortuno, Foxx, Drake, Kuhl, Miller, Kildee, Owens, 
Andrews, Scott, Woolsey, Hinojosa, McCarthy, Tierney, Kind, 
Kucinich, Wu, Holt, Davis of California, McCollum, Davis of 
Illinois, Van Hollen, Ryan, and Bishop.
    Staff present: James Bergeron, Counsel to the Chairman; 
Robert Borden, General Counsel; Steve Forde, Director of Media 
Relations; Ray Grangoff, Legislative Assistant; Richard Hoar, 
Professional Staff Member; Kimberly Ketchel, Communications 
Staff Assistant; Vic Klatt, Staff Director; Jim Paretti, 
Workforce Policy Counsel; Krisann Pearce, Deputy Director of 
Education and Human Resources Policy; Molly McLaughlin Salmi, 
Deputy Director of Workforce Policy; Deborah L. Emerson 
Samantar, Committee Clerk/Intern Coordinator; Rich Stombres, 
Assistant Director of Education and Human Resources Policy; 
Toyin Alli, Staff Assistant; Ellynne Bannon, Legislative 
Associate/Education; Alice Cain, Legislative Associate/
Education; Jody Calemine, Counsel, Employer and Employee 
Relations; Ruth Friedman, Legislative Associate/Education; 
Lauren Gibbs, Legislative Associate/Education; Lloyd Horwich, 
Legislative Associate/Education; Tom Kiley, Communications 
Director; Ricardo Martinez, Legislative Associate/Education; 
Joe Novotny, Legislative Assistant/Education; Marsha Renwanz, 
Legislative Associate/Labor; Michele Varnhagen, Labor Counsel/
Coordinator; and Mark Zuckerman, Staff Director/General 
Counsel.
    Chairman Mckeon [presiding]. A quorum being present, the 
Committee on Education and the Workforce will come to order.
    We are holding this hearing today to hear testimony on 
building America's competitiveness, examining what is needed to 
compete in a global economy.
    Under committee rule 12(b), opening statements are limited 
to the chairman and the ranking minority member of the 
committee. Therefore, if other members have statements, they 
will be included in the hearing record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow members' statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    Without objection, so ordered.
    Good morning, and thank you all for joining us at this 
hearing, which will focus on what our nation can do to improve 
our ability to compete in the rapidly changing global economy.
    I am pleased to welcome both of our panels today and extend 
a warm welcome back to Secretary of Labor Chao and Secretary of 
Education Spellings. Both of these Cabinet officials work 
closely with the Education and Workforce Committee, and it is 
always a pleasure to have them with us, particularly when we 
discuss a topic as important as today's.
    This marks my first full committee hearing as chairman of 
this panel, and I am especially pleased that building American 
competitiveness is our theme for the day. That is because I 
truly believe that building American competitiveness is a 
fundamental focus for our committee.
    The issues we deal with here each impact our nation's 
ability to compete in meaningful ways. We work to improve 
America's labor laws, expand access to quality health care, 
protect worker pensions, and strengthen our education and 
training systems from early childhood education to higher 
education, to workforce training programs. In short, we have a 
unique opportunity and responsibility to enhance U.S. 
competitiveness.
    As our country embarks on its third century, we are faced 
with the challenge of new realities. These realities include a 
global economy in which Americans are not only competing with 
each other for jobs but with workers in nations around the 
world. And these realities include an economy that requires 
technology, innovation and new ideas as engines of growth. In 
many ways, we have left the age of muscle and the machine and 
have definitively entered the age of the mind. And this 
committee is at the forefront in deciding what steps we must 
take next.
    Just a week ago today, the House took one of those steps by 
approving the College Access and Opportunity Act, which will 
enhance American competitiveness by expanding college access 
and by strengthening math, science and critical foreign 
language education at the college level.
    For example, within the existing Byrd Honors Scholarship 
Program, the bill offers a comprehensive approach to 
strengthening American competitiveness in math and science. It 
provides honors scholarships to students pursuing an 
undergraduate, masters or doctoral degree in science, math or 
engineering. It allows for up to $5,000 in student loan 
interest to be paid on behalf of individuals with degrees in 
science or math who serve as teachers or other professionals in 
those fields. And it establishes a framework to help states 
better coordinate and implement reforms that improve math and 
science education, as well as teacher recruitment and training.
    I would like to commend my committee colleagues, Mr. Ehlers 
and Mr. Holt, for their work to include these vital provisions 
in the bill.
    While we considered this bill on the floor last week, 
another committee colleague, Representative McMorris, 
introduced an amendment to make this bill even stronger in its 
aims to enhance American competitiveness.
    Incorporating key components of President Bush's American 
Competitiveness Initiative, which I am sure we will hear about 
today from Secretaries Chao and Spellings, the McMorris 
amendment will increase the number of teachers in advanced 
placement math, science and critical foreign language courses, 
particularly for low-income students.
    It also will aid our efforts to recruit well-qualified 
Americans to serve as adjunct teachers--similar to President 
Bush's proposed Adjunct Teacher Corps--in high school math, 
science and critical foreign language classes. And it will 
establish comprehensive teacher preparation programs to 
encourage students to advance from elementary school through 
college while achieving proficiency in critical foreign 
languages.
    This multi-pronged, fiscally responsible approach to 
strengthening American competitiveness is reflective of our 
committee's consistent commitment on this issue. We have done 
good work in the past, but our ultimate success in impacting 
American competitiveness will be determined by what we do next 
in the months and years to come. And that is why we are here 
today, to lay the groundwork for those next steps.
    I look forward to our discussion, and I am eager to hear 
thoughts from both of our panels.
    With that, I yield to my friend, Mr. Miller, for any 
opening statement he may have.
    [The prepared statement of Chairman McKeon follows:]

    Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Chairman, 
                Committee on Education and the Workforce

    Good morning, and thank you all for joining us at this hearing, 
which will focus on what our nation can do to improve our ability to 
compete in the rapidly-changing global economy. I'm pleased to welcome 
both of our panels today and extend a warm welcome back to Secretary of 
Labor Chao and Secretary of Education Spellings. Both of these Cabinet 
officials work closely with the Education & the Workforce Committee, 
and it is always a pleasure to have them with us, particularly when we 
discuss a topic as important as today's.
    This marks my first full committee hearing as Chairman of this 
panel, and I am especially pleased that ``building American 
competitiveness'' is our theme for the day. That's because I truly 
believe that building American competitiveness is a fundamental focus 
for our Committee. The issues we deal with here each impact our 
nation's ability to compete in meaningful ways. We work to improve 
America's labor laws, expand access to quality health care, protect 
worker pensions, and strengthen our education and training systems, 
from early childhood education to higher education to workforce 
training programs. In short, we have a unique opportunity--and 
responsibility--to enhance U.S. competitiveness.
    As our country embarks on its third century, we are faced with the 
challenge of new realities. These realities include a global economy in 
which Americans are not only competing with each other for jobs, but 
with workers in nations around the world. And these realities include 
an economy that requires technology, innovation, and new ideas as 
engines of growth. In many ways, we have left the age of muscle and the 
machine and have definitively entered the age of the mind. And this 
Committee is at the forefront in deciding what steps we must take next.
    Just a week ago today, the House took one of those steps by 
approving the College Access & Opportunity Act, which will enhance 
American competitiveness by expanding college access and by 
strengthening math, science, and critical foreign language education at 
the college level.
    For example, within the existing Byrd Honors Scholarship Program, 
the bill offers a comprehensive approach to strengthening American 
competitiveness in math and science. It provides Honors Scholarships to 
students pursuing an undergraduate, masters, or doctoral degree in 
science, math, or engineering. It allows for up to $5,000 in student 
loan interest to be paid on behalf of individuals with degrees in 
science or math who serve as teachers or other professionals in those 
fields. And it establishes a framework to help states better coordinate 
and implement reforms that improve math and science education, as well 
as teacher recruitment and training. I'd like to commend my Committee 
colleagues, Mr. Ehlers and Mr. Holt, for their work to include these 
vital provisions in the bill.
    While we considered this bill on the floor last week, another 
Committee colleague, Representative McMorris, introduced an amendment 
to make this bill even stronger in its aims to enhance American 
competitiveness.
    Incorporating key components of President Bush's American 
Competitiveness Initiative--which I am sure we will hear about today 
from Secretaries Chao and Spellings--the McMorris amendment will 
increase the number of teachers in advanced placement math, science, 
and critical foreign language courses, particularly for low-income 
students.
    It also will aid our efforts to recruit well-qualified Americans to 
serve as adjunct teachers--similar to President Bush's proposed Adjunct 
Teacher Corps--in high school math, science, and critical foreign 
language classes. And it will establish comprehensive teacher 
preparation programs to encourage students to advance from elementary 
school through college while achieving proficiency in critical foreign 
languages.
    This multi-pronged, fiscally-responsible approach to strengthening 
American competitiveness is reflective of our Committee's consistent 
commitment on this issue. We've done good work in the past, but our 
ultimate success in impacting American competitiveness will be 
determined by what we do next--in the months and years to come. And 
that is why we are here today: to lay the groundwork for those next 
steps.
    I look forward to our discussion, and I am eager to hear thoughts 
from both of our panels. And with that, I yield to my friend Mr. Miller 
for any opening statement he may have.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman. Again, congratulations 
on your chairmanship of this committee, and I and my members 
look forward to working with you on the agenda of the 
committee.
    And I welcome Secretary Chao and Secretary Spellings to the 
committee.
    And you are quite right, it is a good beginning to have 
this forum on America's competitiveness.
    Many of us in Congress now have been warned by so many from 
across the American economy and the American intellectual 
community of the deficits that we now have when we look at our 
position, vis-a-vis other nations of the world, whether it is 
the number of graduate students in engineering, math and 
sciences in China and Korea, in India and elsewhere in the 
world or the fact that we now rank 16th, down from 11th, in 
broadband penetration in this country, that our 12th-graders 
still languish at the bottom in math and science by 
international comparisons.
    I think what we have heard, and hopefully we will act on, 
is the fact that America really has no choice but to address 
this challenge to our number-one position in the world in 
innovation, in technology, in invention, in patents, in 
intellectual articles published on a yearly basis.
    The Democrats in September of last year proposed an 
innovation agenda as a challenge to the Congress and to the 
administration to make innovation science and technology once 
again America's top priority in economic growth and job 
creation.
    In order to retain our number-one position in global 
innovation and leadership, we believe that it was essential to 
graduate 100,000 new scientists, engineers and mathematicians 
over the next 4 years, doubling the funding for overall basis 
research and development in the Federal Government, making the 
miracle of broadband Internet technology affordable and 
accessible to all Americans within 5 years and to achieve real 
energy independence within 10 years and to support 
entrepreneurial small businesses.
    We believe only by making this renewed and, more important, 
a sustained commitment to innovation will our nation be able to 
maintain its global economic leadership, protect our national 
security and enjoy prosperity at home with good American jobs.
    But we must put this hearing today in context, because 
within the hour we will start debating the budget resolution 
for the House of Representatives that will be presented in the 
floor. And within that budget resolution, while we are here 
talking about improving the teaching profession, attracting new 
people in math and science to teach in our schools, that budget 
resolution will contain $45 billion in cuts in education over 
the next 5 years just to maintain the current purchasing power 
of the education dollars we have today.
    That budget will go backward on education to the disabled; 
it will be a $2.2 billion cut below 2006, which is the second 
year in a row in which we have those cuts.
    And the fact of the matter is that most of the changes that 
have been made have been made by eliminating one program for 
the sake of others, even in the case of where those programs 
are vital in case of vocational education where career 
academies and others are attracting young people to stay in 
school, to give them an idea of the world of the work and 
changing their ideas about dropping out, programs like UROP and 
TRIO, which expose young people to the opportunities of higher 
education, and of course the basic fundamental failure to 
invest in No Child Left Behind so that we can meet those 
mandates.
    When we did our innovation agenda, we met with CEOs of the 
high-tech companies, the biotech companies, with some of the 
leading venture capitalists in the world, and we met with them 
in Silicon Valley, we met with them in Austin, Texas, North 
Carolina, in El Paso, in Seattle.
    And in each and every case they reminded us that in the 
early 1960's when President Kennedy talked about sending a 
person to the moon and bringing that person back safely that 
not only was it about a moon shot, it was about creating the 
greatest public-private partnership in the history of the world 
where the Federal Government joined up with the private sector, 
with the academic centers in this country and created the 
legacy that we have been living off that led to the high-tech 
revolutions, to the biotech revolutions that this country has 
been the leader in.
    And they made it very clear that they were the inheritors 
of that when they started their companies in their garages or 
their small startups, that they were the inheritors to that 
infrastructure that had been built. And they also made it very 
clear that they wanted that public-private partnership renewed, 
and they felt that the public sector was flagging in keeping up 
with what the private sector needed if we were in fact going to 
continue to lead in innovation and technology in this country 
in the rest of the world.
    And so that is the challenge of this morning's hearing, is 
understanding that we are going to have multitask. We can't 
just concentrate on teachers, we can't just concentrate on 
research and development, we can't just concentrate on the 
deployment of broadband, we can't now double the physical 
sciences at the expenses of the life sciences, as we did when 
we doubled the life sciences over the last decade we basically 
took them from the physical sciences.
    What we have to do today is to multitask to maintain 
America as the number-one leader in the world, both in economic 
growth and in prosperity and in security and in, most 
importantly, what drives all of those things, in innovation, 
the hallmark of the American century.
    Thank you very much, Mr. Chairman. I look forward to 
hearing from the witnesses.
    [The prepared statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Ranking Minority Member, 
                Committee on Education and the Workforce

    Thank you, Mr. Chairman. Again, congratulations on your 
chairmanship of this committee, and Committee Democrats and I look 
forward to working with you on the agenda of the committee.
    And I welcome Secretary Chao and Secretary Spellings to the 
committee. And you are quite right, it is a good beginning to have this 
forum on America's competitiveness.
    Many of us in Congress now have been warned by so many from across 
the American economy and the American intellectual community of the 
deficits that we now have when we look at our position, vis-a-vis other 
nations of the world, whether it is the number of graduate students in 
engineering, math and sciences in China, Korea, India and elsewhere in 
the world or the fact that we now rank 16th, down from 11th, in 
broadband penetration in this country, and that our 12th-graders still 
languish at the bottom in math and science by international 
comparisons.
    I think what we have heard, and hopefully we will act on, is the 
fact that America really has no choice but to address this challenge to 
our number-one position in the world in innovation, in technology, in 
invention, in patents, in intellectual articles published on a yearly 
basis.
    In September of last year, Democrats proposed an innovation agenda 
as a challenge to the Congress and to the administration to make 
innovation science and technology once again America's top priority in 
economic growth and job creation. In order to retain our number-one 
position in global innovation and leadership, we believe that it was 
essential to graduate
    100,000 new scientists, engineers and mathematicians over the next 
4 years, doubling the funding for overall basis research and 
development in the Federal Government, making the miracle of broadband 
Internet technology affordable and accessible to all Americans within 5 
years and to achieve real energy independence within 10 years and to 
support entrepreneurial small businesses.
    We believe that only by making this renewed and, more important, a 
sustained commitment to innovation that our nation will be able to 
maintain its global economic leadership, protect our national security 
and enjoy prosperity at home with good American jobs.
    But we must put this hearing today in context, because within the 
hour we will start debating the budget resolution for the House of 
Representatives that will be presented in the floor. And within that 
budget resolution, while we are here talking about improving the 
teaching profession, attracting new people in math and science to teach 
in our schools, that budget resolution will contain $45 billion in cuts 
in education over the next 5 years just to maintain the current 
purchasing power of the education dollars we have today.
    That budget will go backward on education to the disabled; it will 
be a $2.2 billion cut below 2006, which is the second year in a row in 
which we have those cuts.
    And the fact of the matter is that most of the changes that have 
been made have been made by eliminating one program for the sake of 
others, even in the case of where those programs are vital in case of 
vocational education where career academies and others are attracting 
young people to stay in school, to give them an idea of the world of 
the work and changing their ideas about dropping out. Programs like 
UROP and TRIO, which expose young people to the opportunities of higher 
education, and of course the basic fundamental failure to invest in No 
Child Left Behind so that we can meet those mandates.
    When we did our innovation agenda, we met with CEOs of the high-
tech companies, the biotech companies, with some of the leading venture 
capitalists in the world, and we met with them in Silicon Valley. We 
met with them in Austin, Texas, North Carolina, in El Paso, in Seattle. 
And in each and every case they reminded us that in the early 1960's 
when President Kennedy talked about sending a person to the moon and 
bringing that person back safely that not only was it about a moon 
shot, but it was also about creating the greatest public-private 
partnership in the history of the world where the Federal Government 
joined up with the private sector, with the academic centers in this 
country and created the legacy that we have been living off that led to 
the high-tech revolutions, to the biotech revolutions that this country 
has been the leader in.
    And they made it very clear that when they started their companies 
in their garages or their small startups, that they became the 
inheritors to that infrastructure that had been built.
    And they also made it very clear that they wanted that public-
private partnership renewed, and they felt that the public sector was 
flagging in keeping up with what the private sector needed if we were 
in fact going to continue to lead in innovation and technology in this 
country in the rest of the world.
    And so that is the challenge of this morning's hearing: 
understanding that we are going to have to multitask. We can't just 
concentrate on teachers, we can't just concentrate on research and 
development, we can't just concentrate on the deployment of broadband, 
we can't now double the physical sciences at the expenses of the life 
sciences, as we did when we doubled the life sciences over the last 
decade when we basically took them from the physical sciences.
    What we have to do today is to multitask to maintain America as the 
number-one leader in the world, both in economic growth and in 
prosperity and in security. And, most importantly, in what drives all 
of those things, in innovation, the hallmark of the American century.
    Thank you very much, Mr. Chairman. I look forward to hearing from 
the witnesses.
                                 ______
                                 
    Chairman Mckeon. Thank you, Mr. Miller.
    We have two distinguished panels of witnesses today, and I 
would like to begin by welcoming Secretaries Chao and 
Spellings.
    The Honorable Elaine Chao was confirmed by the U.S. Senate 
on January 29, 2001, as the nation's 24th secretary of labor. 
Over the past 5 years, the main goal of the secretary has been 
to keep America's workforce competitive for the 21st century.
    Prior to her service as secretary, she was president and 
chief executive officer of United Way of America, director of 
the Peace Corps, deputy secretary at the U.S. Department of 
Transportation, chairman of the Federal Maritime Commission, 
deputy maritime administrator in the U.S. Department of 
Transportation and a White House fellow. She started very 
young.
    Her private-sector experience includes serving as vice 
president of syndications at Bank America, Capital Markets 
Group and as a banker with Citicorp.
    The Honorable Margaret Spellings was confirmed as our 
nation's eighth secretary of education on January 20, 2005. 
During President George W. Bush's first term, she served as the 
Assistant to the President for Domestic Policy where she helped 
craft education policies, including the No Child Left Behind 
Act.
    Prior to arriving in Washington, D.C., Secretary Spellings 
worked for 6 years as Governor George W. Bush's senior advisor 
with responsibility for developing and implementing the 
Governor's education policy. She also served as the associate 
executive director of the Texas Association of School Boards.
    We are honored to have both of you with us here today, and 
I look forward to hearing your testimony and the question and 
answer period.
    We will begin with Secretary Chao.

  STATEMENT OF HON. ELAINE L. CHAO, SECRETARY OF LABOR, U.S. 
                      DEPARTMENT OF LABOR

    Secretary Chao. Thank you, Mr. Chairman, and 
congratulations on assuming the responsibility and leadership 
of this committee.
    Chairman McKeon, Congressman Miller and members of the 
committee, I am pleased today to be here to talk about the 
President's competitiveness initiative. I am also pleased to be 
here with my colleague, Secretary Margaret Spellings.
    I want to especially commend the chairman for his vision in 
holding hearings on the very important issue of workforce 
competitiveness. The Department of Labor has a three-pronged 
strategy to addressing workforce competitiveness, which focuses 
on creating, No. 1, a demand-driven, flexible and efficient and 
effective publicly funded workforce system; second, by 
empowering workers by expanding individual choice and control 
over skills and job training; and, three, leveraging all 
existing public resources to foster a dynamic and skilled 
workforce.
    Our nation's economy is strong and growing stronger. More 
than 5 million net new jobs have been created in the last 2.5 
years, more than the number of jobs created by Europe and 
Japan, combined. The majority of the new jobs being created are 
in occupations that require higher skills, more education and 
thus, by definition, pay above average wages.
    As our country transitions to a knowledge-based economy, 
there is a growing mismatch, a skills gap, between the new jobs 
being created and the skills of our workforce. Demand is 
especially acute in the sciences. Over the next 10 years, for 
example, there will be more than 6 million new and replacement 
job openings in engineering, science, computers, health care 
and technical occupations that require strong math and science 
skills.
    The department has launched several initiatives to help 
close the skills gap. In 2002 and 2003, the department launched 
the President's High Growth Job Training and Community-Based 
Job Training Initiatives.
    The first initiative, the High Growth Job Training 
Initiative, identifies sectors of the economy that are growing 
rapidly and helps workers get the relevant skills that they 
need so that they can access these opportunities.
    The second initiative, the Community-Based Job Training 
Initiative, expands the capacity of community colleges to 
provide job training for skills in demand and invites them into 
the workforce investment system as partners.
    Over the course of the last 3 years, the department has 
awarded over $375 million and more than 200 grants under these 
two programs.
    Earlier this year, the department also announced the 
Workforce Innovation and Regional Economic Development Program, 
known as WIRED. This program basically brings all the 
stakeholders in a community, including education providers, 
employers, community-based organizations, labor organizations, 
workforce investment systems and others in a collaborative 
partnership to help revitalize ailing economies, and 13 grants 
have already been awarded under the WIRED initiative.
    In addition, the President's fiscal year 2007 budget 
proposes that innovative new initiatives to expand access to 
job training and they are called the Career Advancement 
Accounts. This proposal will build on the reforms that we have 
proposed in the workforce investment system.
    The Career Advancement Accounts would help the states 
achieve greater flexibility and empower local communities to 
address their specific workforce training needs, and our 
reforms have that as a goal as well.
    Under your leadership, Mr. Chairman, last year, this 
committee and the House passed legislation to reauthorize the 
Workforce Investment Act, and the administration supports H.R. 
27 because it contains many vital reforms, and we have urged 
the Senate to take action on this important bill.
    Now, Career Advancement Accounts would complement these 
reforms. They are modeled after the Pell grants. They would 
enable eligible workers to enroll in any eligible training or 
education program. They would provide eligible workers with up 
to $3,000 annually for up to 2 years to purchase or register in 
a skills course of their choice. Accounts will be available to 
the following: adults and out-of-school youth entering or 
reentering the workforce or transitioning between jobs and 
incumbent workers in need of new skills to remain employed or 
to move up the career ladder.
    Let me make it clear that our nation's 3,500 one-stop 
career centers would have a very important role to play in 
providing counseling, referrals and all other kinds of 
assistance that would help workers who need help in a very 
vulnerable period in their lifetime and also to know about the 
Career Advancement Accounts so that they can choose for 
themselves the kind of training courses that they would prefer.
    This administration looks forward to a continuing dialog 
with the committee, Congress, leaders in the workforce 
investment system, employers, community colleges and all 
stakeholders in this very important proposal. We believe that 
the Career Advancement Accounts are a way for the workforce 
investment system to expand access to relevant training 
providers.
    Now, each of the initiatives, the High Growth Job Training 
Initiative, the Community-Based Job Training Program, WIRED and 
Career Advancement Accounts, are designed to nurture the 
critical driver of a knowledge-based economy, which is human 
talent.
    We hope that we can work with the committee and the 
Congress on a bipartisan basis to help America's workers 
successfully meet the competitive challenges of the 21st 
century.
    Thank you for the opportunity to appear before you today.
    [The prepared statement of Secretary Chao follows:]

  Prepared Statement of Hon. Elaine L. Chao, Secretary of Labor, U.S. 
                          Department of Labor

Introduction
    Good morning Chairman McKeon, Ranking Member Miller and Members of 
the Committee. Thank you for the opportunity to appear before you today 
to present the U.S. Department of Labor's efforts in advancing the 
goals of the President's American Competitiveness Initiative.
    In his January 31st State of the Union Address, the President said 
that America is strong and getting stronger. The growth in U.S. 
productivity since 2000 has been approximately 3.4 percent annually, 
far above the historical average, and exceeds the productivity growth 
of other major industrialized countries. The President's Fiscal Year 
2007 Budget recognizes the importance of innovation for our economic 
future--fostering and encouraging all the components that make our 
economic engine the envy of the world. These components include a low 
tax and regulatory burden, openness to international commerce and 
investment an environment where entrepreneurial risk-taking and 
investment is rewarded and finally, flexible and competitive labor, 
financial and product markets. When workers have the necessary skills, 
they become flexible enough to move relatively freely from job to job 
and place to place following the rhythms of the marketplace, businesses 
have workers they need to do the job and workers have opportunities for 
career advancement. I am here to talk about those programs that the 
Department of Labor is pursuing that will increase the skills of 
Americans, build workforce development capacity and enable American 
workers and businesses to contribute to, and benefit from, increased 
innovation. In partnership with the private sector, state and local 
governments, and colleges and universities, the American 
Competitiveness Initiative will promote new levels of educational 
achievement and economic productivity. With the right policies, we will 
continue to increase productivity, create more jobs, improve the 
quality of life and standard of living for generations to come, and 
maintain American's competitive edge in the global economy.
    As part of the American Competitiveness Initiative, the Department 
of Labor is developing more streamlined and efficient ways for workers 
to access training and increase their skills. Aligning the workforce 
investment system with new economic realities facing the United States 
is among the critical factors in the success of the American 
Competitiveness Initiative. As part of this initiative, the President's 
2007 Budget calls for Career Advancement Accounts that American workers 
can use to obtain the education and training they need to compete in 
the 21st century economy. This initiative builds on our continued 
commitment to championing the transformation of the workforce 
investment system by making it demand-driven through the President's 
High Growth Job Training Initiative, Community-Based Job Training 
Grants, and the Workforce Innovation in Regional Economic Development 
(WIRED) hitiative, which is designed to transform and revitalize 
regional economies through a focus on talent development.
America's Workforce in the 21st Century Economy
    Today, our country finds itself in a situation unlike any we have 
experienced in our history. The world continues to become dramatically 
interconnected and competitive. The advances we have made in 
communications and technology allow for instant access to information 
from all parts of the globe and have effectively-diminished national 
borders as barriers to global commerce.
    One way to maintain our competitive advantage is by increasing the 
skill levels of American workers. The needs of the 21st century economy 
are very different than those we have encountered in the past. 
Industries such as manufacturing and retail now need workers who 
understand computers, robotics and supply chain management. Fields such 
as health care and construction need more technical and skilled labor 
than ever before. New industries utilizing new technologies, like 
biotechnology, geospatial technology and nanotechnology have emerged, 
and others on the horizon are just a gleam in the eye of an 
entrepreneur today.
    Many of the fastest growing jobs of the future will need to be 
filled by ``knowledge workers'' who have specialized skills and 
training. These are the jobs that will drive innovation in the world 
economy and increase living standards.
    The growing demand for highly skilled workers in such fields as 
health care, information technology, and advanced manufacturing, comes 
at a time when the labor pool as a whole is growing much more slowly as 
a result of the aging and retirement of the baby boom generation in 
combination with other demographic changes. As a result, the need for 
well-designed systems that can ensure a steady flow of trained workers 
to meet employer needs is greater than ever before.
    Educational achievement in high school and beyond is a key 
predictor of economic success. But it no longer stops there. Whether it 
is an 18-year old student entering a four-year university or a 50-year 
old displaced worker entering a community college to learn new skills, 
our citizens need access to the education and skills development that 
the global economy demands. Workers today must commit themselves to 
lifelong learning and to continually upgrading their skills.
    America finds itself at a crossroads. To maintain our productivity 
growth and to continue to grow our economy, we need a skilled workforce 
that has access to life-long training and development opportunities. To 
balance our shifting workforce demographics, we need a system that 
reaches out to every segment of the workforce and leaves no potential 
worker behind. Addressing these needs requires innovative new 
strategies and services to upgrade workers skills and connect workers 
with employment opportunities.
    One important aspect of the President's ambitious strategy to 
encourage American innovation and strengthen our ability to benefit 
from the growth in the global economy requires us to reform our 
workforce investment system. The legislation to reauthorize the 
Workforce Investment Act (WIA) that was passed by this Committee and 
the House last year (H.R. 27, the Job Training Improvement Act of 2005) 
incorporates many important reforms. The Administration also would like 
for the Senate to move on WIA reform and for reauthorization of WIA, 
with meaningful reform, to be enacted into law this year.
    The workforce investment system should recognize and strengthen 
workers' ownership of their careers, and provide more flexible 
resources and services designed to meet their changing needs. Studies 
have shown that workers make sound decisions about tapping resources to 
advance their careers when they
    have good information on available options. Workers need to be 
provided as many choices as possible to gain the right skills and 
secure the best career opportunities, and high quality workforce 
information needs to be available to enable them to make educated 
choices. This will help ensure flexible labor markets, a key element to 
a pro-growth economy that is capable of exploiting innovations and 
innovative opportunities.
High Growth Job Training Initiative
    An important part of supporting the American Competitiveness 
Initiative is developing the current workforce investment system into 
one that is relevant in the 21?? century economy. Over the past four 
years, the Department of Labor has been implementing the President's 
High Growth Job Training Initiative. This initiative is the cornerstone 
of the Department's efforts to create a workforce system that is 
demand-driven and balance the skills of America's workers with the 
demands of employers.
    Through the President's High Growth Job Training Initiative, we 
have invested over $250 million in 130 projects nationwide to model 
partnerships among employers, education programs, and the public 
workforce system? Each project targets the skill and talent needs of 
high growth, high workforce demand industries in our nation's economy 
and provides the resources necessary to develop the capacity to train 
workers in the skills demanded by the 21st Century economy. To date, 
ETA has worked with 14 of these industries and industry sectors: 
Advanced Manufacturing, Automotive Services; Aerospace; Biotechnology; 
Construction; Energy; Financial Services; Geospatial Technologies; 
Health Care; Homeland Security; Hospitality; Information Technology; 
Retail; and Transportation.
    Through the partnerships and project activities developed under the 
High Growth Job Training Initiative, communities are ensuring that the 
skills individuals acquire are in demand. By training workers with the 
skills employer want we expect that more workers will obtain quality 
jobs that pay higher wages7 while enabling employers to address their 
skill shortages and better compete in today's changing economy.
    We are already seeing tremendous successes under this model. As an 
example, let me share with you the exciting work going on in the 
automotive industry in Michigan. On June 30, 2004, ETA awarded a 
$5,000,000 grant to the Downniver Community Conference (DCC) for a 
proposal to develop innovative and responsive automotive manufacturing 
training models at the Auto Alliance International (AAI) plant in Flat 
Rock, Michigan This facility, a joint venture of Ford and Mazda, is the 
first in the world with the capacity to produce front and rear-wheel 
drive vehicles with four, six, or eight cylinder power trains, and 
automatic or manual transmissions on the same assembly line.
    The DCC project is a partnership-based model for helping automotive 
workers quickly and efficiently transition to new production processes. 
The grant provides advanced manufacturing training, education, and 
skills upgrades for new employees who are working to produce the Ford 
Mustang and Mazda 6. DCC uses the grant to track, analyze, and map 
transferable manufacturing skill sets and competencies required for the 
new positions. DCC and its business, training, educationaL and 
community partners then deploy industry-driven, competency-based 
training to all AAI employees. This training is continuously upgraded, 
and re-delivered as technology and skills requirements evolve. All 
training modules culminate in industry-recognized certifications. As a 
result of this High Growth grant approximately 2,500 participants have 
obtained job placements to date. The hourly wage received by these 
participants ranged between $18.75 and $26.00, and 94% of placed 
individuals have retained their jobs for nine months.
Cotmrnmity-Based Job Training Grants
    Our work under the High Growth Job Training Initiative revealed a 
critical shortcoming in the economic development capacity of many 
regions: many communities are not positioned to meet the training 
demands of our high growth industries because of limited training 
capacity and outdated curricula and training delivery systems.
    To address this need for expanded affordable, flexible education 
and training capacity in local communities across the country, 
President Bush established the Community College Initiative. The 
Initiative provides Community-Based Job Training Grants to help 
communities to better train workers for jobs in high growth sectors by 
utilizing the expertise of America's community colleges. Due to their 
close connection to local labor markets, community colleges are well 
positioned to understand the intricacies of local economies and better 
prepare workers for high demand occupations. As we begin to increase 
the skill level of America's workers and develop the talent needed to 
benefit from the growth in the global economy, community colleges will 
become an even more critical provider of training for workers wanting 
to develop, retool, refine, and broaden their skills. In the fall of 
2005, we announced the first installment of this initiative by 
investing $125 million in grants to 70 community colleges around the 
country. We expect to solicit grant applications for our second $124 
million investment in the summer of 2006.
The WIRED Initiative
    The Department of Labor is answering the call for competitiveness 
by fostering innovation through regional economic development.
    Though global competition is often seen as a national challenge, it 
is actually at the regional level where solutions must be developed and 
the challenges met. It is in regional economies where companies, 
workers, researchers, entrepreneurs and government come together to 
create competitive advantage and where new ideas and new knowledge are 
transformed into advanced, high-quality products or services--
facilitating the growth of a regional economy requires attention to 
three critical elements. The first is infrastructure. This includes not 
only the traditional factors such as highways, bridges, and buildings, 
but also 21st century factors like access to broadband and wireless 
networks. The second critical element is investment of capital, 
including the availability of risk capital and the conditions that 
encourage entrepreneurial risk-taking. And the third element is a 
flexible, talented labor force. A region may possess a strong 
infrastructure and the investment resources for success, but without 
the talented men and women to use those elements for economic growth, 
they are meaningless.
    This recognition of the importance of talent development is key to 
President Bush's Competitiveness Agenda and our Workforce Innovation in 
Regional Economic Development Initiative which is designed to transform 
and revitalize regional economies through a focus on talent 
development. Thirteen regions were awarded grants in February as a 
result of a competitive process. Through WIRED, we provide the 
financial and expert assistance needed for regions to make the leap to 
an innovation economy.
    The WIRED Initiative is focusing on labor market areas that are 
comprised of multiple jurisdictions within a state or across state 
borders. It seeks to help regions transform their workforce investment 
economic development and education systems to support overall regional 
economic growth and development by fostering collaborative partnerships 
among universities, businesses, government and workforce and economic 
development organizations. The regions selected have been affected by 
global trade, are dependent on a single industry, affected by BRAC 
closings, or are recovering from natural disasters.
    Ultimately, the WIRED Initiative supports innovative approaches to 
workforce and economic development that go beyond traditional 
strategies preparing workers to compete and succeed. Through WIRED 
projects, we intend to catalyze the creation of high-skill and high-
wage opportunities for American workers within the context of regional 
economies.
Career Advancement Accounts
    The High-Growth Job Training Initiative, the Community College 
Initiative and WIRED are all efforts to utilize the Department's 
discretionary dollars to fund cutting-edge state and local programs. 
These investments will serve as models for the entire public workforce 
system. Meanwhile, the Department's FY 2007 Budget is centered on a 
bold proposal designed to move the entire system in a direction that 
will better support our nation's competitiveness. The Career 
Advancement Accounts (CAAs) proposal is designed to give states and 
local communities more flexibility to design streamlined workforce 
systems that best fit the unique needs of their states and that better 
serve the needs of American workers and employers by making more money 
directly available for training. Under the proposal the four separate 
funding streams that are currently allotted for the WIA Adult 
Dislocated Worker, and Youth formula programs and the Wagner-Peyser Act 
program, respectively, would be streamlined into a single funding 
stream to be allotted to the States to carry out the Career Advancement 
Accounts proposal.
    The Career Advancement Accounts proposal continues the themes 
articulated by President Bush in his proposals for job training reform. 
These themes are:
    <bullet> Integrating programs to reduce duplication and overlap;
    <bullet> Reducing administrative overhead costs to direct more 
funds to training;
    <bullet> Providing workers with skills demanded by employers for 
high growth jobs and careers; and
    <bullet> Giving workers greater personal ownership of their job 
training and education investments.
    Career Advancement Accounts are sell-managed accounts that enable 
current and future workers to gain the skills needed to successfully 
enter, navigate and advance in the 21st century labor market. Accounts 
would be available to both adults and out-of-school youth entering or 
re-entering the workforce or transitioning between jobs, or incumbent 
workers in need of new skills to remain employed or to move up the 
career ladder. Additional eligibility criteria and service priorities 
would be established by states. States must determine priority of 
service consistent with the veterans' priority of service requirement 
under the Jobs for Veterans Act (PL 107-288).
    The maximum amount of an account would be $3,000 for one year. This 
is sufficient to finance approximately one year's study at a community 
college. The accounts may be renewed for one additional year, for a 
total two-year account of up to $6,000 per worker.
    Individuals would be able to apply for an account at a One-Stop 
Career Center or through other processes developed by individual 
states. Ideally, states would also establish an on-line application 
system. The account funds can be used for occupational skills training, 
to help the individual gain foundational workforce and academic skills, 
and for work-based experience through on-the-job training. CAAs can 
also be used by individuals to pay for books and fees associated with 
education and training.
    With lower administrative costs and the vast majority of funding 
used to finance the actual accounts, this proposal means that more 
individuals will be able to participate in job training and attain new 
and higher level job skills. In fact the number of individuals 
receiving Career Advancement Accounts will be more than triple the 
number of people completing job training in the workforce investment 
system today. It is projected that about 800,000 accounts would be 
available each year.
    The Department of Labor would be the Federal agency responsible for 
administering the Career Advancement Accounts program. Its 
responsibilities would include Federal oversight; providing technical 
assistance to states; providing states, employers, and job seekers with 
the best information on economic and employment trends, growth 
industries and their job skill requirements; supporting innovative 
workforce demonstration initiatives; research and evaluation; and 
national leadership.
    States would serve as the ``fund administrators'' for Career 
Advancement Accounts. States would have discretion to determine how 
individuals are approved for accounts and how to administer the 
accounts.
    Funding would be distributed to states under a single formula that 
reflects the factors used in allocating funds for the programs being 
replaced, such as unemployment and civilian labor force data. The 
intention is that under this new formula, states would receive 
approximately the combined amount of allocations under the funding 
streams being replaced.
    To receive funding for Career Advancement Accounts, states would be 
required to submit a State Plan, which covers a five-year period and is 
updated every two years. The State Plan would outline how the state 
administers Career Advancement Accounts and provides core employment 
services at One-Stop Career Centers.
    States will report on performance for three primary outcome 
measures: (1) entered employment; (2) retention in employment; and (3) 
earnings. Attainment of a degree or certificate, placement in 
education, and literacy/numeracy gains would also be tracked as 
secondary outcomes on the individual record.
    Instead of the prescriptive federal requirements for determining 
the eligibility of training providers under current law, States would 
describe in the State Plan their approach to ensuring the credibility 
and accountability of training and service providers receiving Federal 
funds (i.e., Career Advancement Accounts). States would also outline 
how they would ensure that account recipients have sufficient consumer 
information on the quality and outcomes of the education, training and 
other services provided by institutions and organizations where the 
accounts are used.
    As indicated above, One-Stop Career Centers would be retained to 
deliver core employment services such as job search assistance and 
labor market information, among other related activities, and provide 
access to Career Advancement Accounts. However, the One-Stop Career 
Center system, and the governance structure that supports that system, 
would be streamlined and strengthened by eliminating a ``one-size-fits-
all'' approach to the local delivery of services.
    Requirements related to the number and location of One-Stop Career 
Centers and the membership of workforce investment boards would be 
relaxed, allowing states and local areas to design a delivery system 
that best meets the needs of regional economies and labor markets.
    In addition to providing access to CAAs, the One Stop Centers will 
continue to provide workers and job seekers with basic employment 
services to assist their career development and ensure they have enough 
relevant information to make informed decisions about their future. At 
One-Stop Career Centers, job seekers would be able to receive core 
employment services, such as career and skills assessment job placement 
assistance, and basic career counseling. Additional services, such as 
diagnostic testing and short-term prevocational service, would be 
authorized. Services to employers would include postings of job 
openings and assistance in finding trained workers. Access to 
information and services of One-Stop partner programs also would be 
available at the One-Stop Career Centers. Supportive services, such as 
child care and transportation, would be made available and paid for 
through arrangements made by the state with other Federal, state and 
local supportive service programs, and states would be encouraged to 
provide information and access to these services at the One-Stop Career 
Centers.
    Career Advancement Accounts will complement the more than $80 
billion in Federal student aid that will be made available in 2007, 
which includes $12.7 billion in new funding for Federal Pell Grants. 
Since Career Advancement Accounts are targeted toward workers seeking 
to upgrade their skills, there is more flexibility in how these funds 
can be used. For instance, unlike Pell Grants and other Federal student 
aid, Career Advancement Accounts would be available to individuals 
pursuing short-term training, in courses that last 10 weeks or less. 
Career Advancement Accounts would be available to individuals enrolled 
in specific courses to upgrade their skills, but are not planning to 
complete a degree or certificate program. The Department of Labor is 
committed to working closely with the Department of Education to ensure 
that these accounts are well coordinated with the existing federal 
student aid programs.
Conclusion
    The Career Advancement Accounts proposal is part of the President's 
American Competitiveness Initiative, and the other initiatives I have 
discussed, the High Growth Job Training Initiative, the Community 
College Initiative, and WIRED, complement the ACI. These initiatives 
are meant to demonstrate how talent development can increase 
productivity and drive economic growth. They will help American workers 
benefit from the growth in the global economy.
    We believe that the American Competitiveness Initiative will 
provide our nation with the tools to better educate our children, to 
train our workforce, and to push the boundaries of our scientific and 
technological capabilities now and in the future.
    Chairman and members of the committee, this concludes my remarks. I 
am happy to answer any of your questions. Thank you.
                                 ______
                                 
    Chairman Mckeon. Thank you very much.
    Secretary Spellings?

 STATEMENT OF HON. MARGARET SPELLINGS, SECRETARY OF EDUCATION, 
                  U.S. DEPARTMENT OF EDUCATION

    Secretary Spellings. Thank you, Mr. Chairman, Congressman 
Miller and members of the committee. I very much appreciate the 
opportunity----
    Chairman Mckeon. Is your mike on?
    Secretary Spellings. Oh, I am sorry. Thank you, Mr. 
Chairman.
    I appreciate this opportunity to join my friend and 
colleague, Secretary Chao, in discussing the President's 
competitiveness agenda with you.
    I am especially honored to be here for the first full 
committee hearing led by you, Chairman McKeon. Under your 
leadership, this committee has already done important work to 
ensure America remains the world leader in innovation.
    Last week, as you noted, the full House of Representatives 
approved the College Access and Opportunity Act, which 
strengthens math, science and critical foreign language 
instruction for hundreds of thousands of students. In today's 
knowledge economy, these reforms are absolutely critical. You 
can't pick up a newspaper or magazine these days without 
reading about global competitiveness, especially in math and 
science. While we are asleep tonight, accountants in India will 
do our taxes, radiologists in Australia will read our CAT scans 
and technicians in China will build our computers.
    As other nations race to catch up, there is mounting 
evidence that American students are falling behind. I know you 
know the numbers, but they bear repeating. Currently, our 15-
year-olds rank 24th out of 29 developed nations in math, 
literacy and problem solving. Half of our 17-year-olds don't 
have the necessary math skills to work as a production 
associate in a modern auto plant.
    We saw this coming in the early 1980's when the National 
Commission on Educational Excellence released the Nation at 
Risk report. It warned that our educational system was being 
eroded by a tide of mediocrity and called for 3 years of math 
and science in every American high school. Today, more than 20 
years later, we are not even close to meeting that goal, and we 
have run out of time to wait.
    We know, as Secretary Chao said, that 90 percent of the 
fastest growing jobs require post-secondary education, and yet 
fewer than half of our students graduate from high school ready 
for college-level math and science. Every year, about a million 
students drop out of high school, nearly five out of 10 
African-American and Hispanic 9th-graders will not graduate 
from high school on time, and the Title I report we submitted 
to you all yesterday shows that graduation rate calculations 
vary widely across our country.
    When the state and Federal numbers don't match up, we must 
take a closer look at whether our high schools are graduating 
students on time and ready for the workforce or college.
    Wherever I go, like you, I hear from Governors, business 
people, educators and parents that our students are not 
prepared. I have heard the same from you.
    Last week, I testified before the House Science Committee 
and while that appearance was a little departure from my normal 
routine, it underscored the fact that innovation, 
competitiveness and education go hand in hand.
    If we are going to move in a new, positive direction, we 
must make our high schools more rigorous. We must encourage 
more students to take more advanced math and science classes. 
Employers today need workers with pocket protector skills, 
creative, problem solvers with strong math and science 
backgrounds.
    As Congressman Ehlers has said, ``If you aren't a geek 
yourself, you will probably end up working for one.''
    Congressman, you were country before country was cool, as 
we say in Texas, in math and science education, and I 
appreciate your work to champion reform.
    With No Child Left Behind, we have laid a solid foundation 
on student achievement. Scores are at an all-time high for 
African-American and Hispanic students, especially in the early 
grades where we have focused. Over the last 5 years, more 
reading progress has been made among 9-year-olds than in the 
previous 28 years combined. We are on the right track.
    I see it at Harlan Elementary in Wilmington, just one of 
the schools that has put Congressman Castle's home state of 
Delaware on track to have every child reading on grade level by 
2014, as required by No Child Left Behind.
    And I am sure that you, Mr. Chairman, Congressman Miller 
and all of you from California are proud of districts like 
Garden Grove where 75 percent of the students do not speak 
English, 60 percent are poor and all but two of their 67 
schools met or exceeded the goals of No Child Left Behind. This 
law is working. It is raising achievement nationwide by shining 
a bright light on schools and districts and on a lot of great 
stories.
    It is also shining a light on schools and districts that 
aren't doing right by the children and parents they serve. For 
example, the Title I report we released yesterday shows that 
1.4 million students were eligible for free tutoring that the 
law provides but only 17 percent of them got these services. 
More than half of school districts don't even tell parents that 
their children are eligible for these options until after the 
school year has already started, making it virtually impossible 
for students to transfer schools without disrupting their 
education. And that is unacceptable.
    We at the Department of Education will take necessary steps 
to ensure states comply with these provisions of the law.
    Without No Child Left Behind, we wouldn't which schools are 
falling short of standards, we wouldn't necessarily know which 
children need extra help, and we wouldn't be able to hold 
ourselves accountable when we don't deliver that help. In other 
words, this law is forcing all of us to live up to our 
responsibilities and its increasing options for families. Now, 
we must work together to increase academic rigor across the 
board.
    The President's American Competitiveness Initiative would 
devote $380 million to strengthen K-12 math and science 
education. Overall, the Department of Education will increase 
funding for our programs in these critical areas by 51 percent. 
The President has called for the formation of a National Math 
Panel, a group of experts to help us identify the best research 
on proven strategies to teach math, just as we did in reading. 
And his budget also includes $250 million for a new Math Now 
Initiative that will give elementary and middle school students 
that academic foundation necessary to succeed in rigorous math 
classes in high school, such as advanced placement.
    Our challenge today is that nearly 40 percent of our high 
schools offer no AP classes, and that must change, especially 
when we know that just taking one or two AP courses increases a 
student's chance of graduating from college on time. The 
President has called for $122 million to prepare 70,000 
teachers to lead AP and International Baccalaureate classes in 
math, science and critical foreign languages.
    And to ease the shortage of teachers with strong subject 
matter knowledge, the President's budget includes $25 million 
to help recruit 30,000 math and science professionals to become 
adjunct teachers in these critical subject areas.
    With the College Access and Opportunity Act, we have 
started the process of taking our education system to the next 
level.
    And I would like to offer a special thanks to you, 
Representative McMorris, and everyone who worked with you on 
the amendment to move that agenda forward.
    This is urgent work, and we only have time to do what 
works. As policymakers, we must focus on results. We have 
looked at data to see what policies are most effective for 
students and use taxpayers' most effectively. We must operate 
more efficiently by eliminating or consolidating programs that 
aren't getting results for students.
    According to the GAO, 13 different government agencies 
spend about $2.8 billion on 207 different programs for math and 
science education. Almost half of them receive $1 million or 
less. These programs are in their own silos with little or no 
coordination between them and no linkage with No Child Left 
Behind goals of raising student achievement for all students. 
It is 1,000 flowers blooming and maybe even a few weeds 
throughout our government.
    Particularly during these tight budget times, we must ask 
ourselves whether we are spending each and every dollar wisely 
and well on our most pressing needs. Are we focusing our 
efforts on teachers who already possess a strong science or 
math knowledge base? For example, one program I heard about at 
the Science Committee hearing I mentioned spent Federal dollars 
on sending teachers to Antarctica. Is that the best way to get 
the most out of our money or should we reach out to the 
teachers who need more training and make sure they are teaching 
in the schools who need them most.
    Our curriculum products, developed by many, many agencies 
with Federal dollars, align to state standards and assessments, 
as required by No Child Left Behind. Do we want these programs 
to produce an educated workforce, more Nobel Prize winners or 
both? And at the end of the day, are we raising student 
achievement? Are we helping schools and states meet the goals 
of No Child Left Behind?
    Congress recently created the American Competitiveness 
Council, which I chair, to ensure that we align our efforts 
around shared, strategic goals. At the beginning of March, the 
President and I led the first meeting to begin the process of 
evaluating how well these math and science programs are working 
at improved coordination between them. And I have to tell you, 
we have much work to do.
    So I am asking all of you to join Chairman McKeon in 
reaching out to the different congressional committees that 
govern these programs. We must build consensus around common 
goals, like providing high-quality programs that are accessible 
to every child, not just the lucky ones. And we must align our 
efforts with the principles of No Child Left Behind by 
continuing to hold schools accountable for getting all students 
to grade level in reading and math by 2014 and to give local 
policymakers and educators resources, authority and the 
research base to do what is best for students.
    As leaders, as policymakers and as parents, it is our job 
to look down the road and make sure our kids are prepared for 
the future. As the President said in the State of the Union 
address, ``If we ensure that America's children succeed in 
life, they will ensure that America succeeds in the world.''
    Thank you, Mr. Chairman. I would be happy to answer any 
questions.
    [The prepared statement of Secretary Spellings follows:]

Prepared Statement of Hon. Margaret Spellings, Secretary of Education, 
                      U.S. Department of Education

    Mr. Chairman, Congressman Miller and members of the committee, 
thank you for inviting me today. I appreciate this opportunity to join 
my colleague, Secretary Chao, in discussing the President's 
Competitiveness agenda with you, and I'm especially honored to be here 
for the first full Committee hearing led by Chairman McKeon. Under your 
leadership, this committee has already done important work to ensure 
America remains the world's leader in innovation.
The Challenge: To Innovate Education
    America has long been innovation's home. When faced with a 
challenge, we invent the answer: from the first telephone to global 
satellite communications; from the first computer to the World Wide 
Web; from the Wright Brothers to Neil Armstrong. To Americans, 
innovation means much more than the latest gadget. It means creating a 
more productive, prosperous, mobile and healthy society. Innovation 
fuels our way of life and improves our quality of life. And its 
wellspring is education.
    Throughout his Administration, President Bush has made innovation 
and education top priorities. The President worked with you and your 
colleagues in the Senate, to pass the most far-reaching education 
reform in decades, the No Child Left Behind Act (NCLB). NCLB has 
brought high standards and accountability to public schools and sparked 
a mathematics and reading revival in the early grades.
    While the United States is leading the world in science and 
technology and making strong reforms to its education system, the rest 
of the world is not standing still. America no longer holds the sole 
patent on innovation. Inspired by our example, countries such as China, 
India and South Korea have invested heavily in education, technology, 
and research and development. America now has billions of competitors 
throughout the world, challenging us to set our sights even higher.
    Our educational leadership has been challenged as well, with many 
developed nations' students outperforming ours in international tests, 
particularly in math and science, an ominous sign for many American 
schools. These test scores are linked to a lack of challenging 
coursework. According to some estimates, America's share of the world's 
science and engineering doctorates is predicted to fall to15 percent by 
2010.
    This global challenge requires bold action and leadership. America 
has done it before. Following the Soviet Union's 1957 launch of 
Sputnik, the world's first satellite, Congress passed and President 
Eisenhower signed into law the National Defense Education Act of 1958 
(NDEA). NDEA encouraged more college and university students to pursue 
degrees in engineering and it brought the public and private sectors 
together as partners to capture the interest, imagination and 
dedication of American students. And it worked. Within a decade, the 
number of science and engineering doctorates awarded in the United 
States annually had tripled, accounting for more than half the world's 
total by 1970.
    Today, America faces challenges more difficult and complex than a 
single satellite. The spread of freedom is spurring technological 
innovation and global competition at a pace never before seen. This 
trend makes it increasingly important that our economy be more flexible 
and responsive, to make sure that we continue to lead in innovation and 
technological development and to make sure we have a workforce that has 
the skill sets necessary to do so.
    Education is the gateway to opportunity and the foundation of a 
knowledge-based, innovation-driven economy. Employers are increasingly 
looking for workers who have analytical, technical and problem-solving 
skills.
    We have to run to keep up. A high school diploma, once desirable, 
is now essential, and, increasingly, insufficient. About 90 percent of 
the fastest-growing occupations of the future will generally require 
some post-secondary education. It is therefore unacceptable that among 
all ninth-graders in public schools, about three in ten do not graduate 
on time; or that for black and Hispanic students the figure is about 
five in ten. If current trends continue, by 2012, over 40 percent of 
factory jobs will require post-secondary education, according to the 
National Association of Manufacturers. And yet, almost half of our 17-
year-olds do not have the basic understanding of math needed to qualify 
for a production associate's job at a modern auto plant.
    Improving education is critical not only to America's economic 
security, but also to our national security. Today, not one but 3,000 
satellites circle the earth. U.S. soldiers use the latest 
communications and surveillance technology to fight the global war on 
terrorism. Advanced math skills are used to identify and undermine 
terrorist networks. Government and the private sector engineer new ways 
to protect lives and infrastructure from harm. And the effort to spread 
freedom to other nations and cultures demands speakers fluent in 
languages such as Arabic, Farsi, Chinese, and Russian. Addressing these 
challenges will advance opportunity and entrepreneurship at home and 
promote democracy and understanding abroad.
    Rigorous instruction, high standards and accountability are helping 
to raise achievement levels among American students, particularly in 
the early grades. As all students work to achieve proficiency in math 
and reading by 2014, an innovative education reform effort is needed.
    America's civic, political and business leaders agree: To sustain 
our quality and way of life, we must act now. And President Bush is 
leading the charge by proposing investments and reforms through a 
number of key initiatives that I would like to outline today.
The Answer: President Bush's Education Agenda
    President Bush's answer to America's challenge begins with the 
American Competitiveness Initiative. This multi-agency Initiative will 
commit $5.9 billion in FY 2007, and more than $137 billion over the 
next 10 years, to strengthen education, promote research and 
development and encourage entrepreneurship. In the research arena, it 
will increase our investment in physical science and engineering 
research, the results of which will fuel technological innovation for 
decades to come. In the education arena, the initiative will bring 
together leaders from the public sector, private sector and education 
community to better prepare our students for the 21st century. The 
initiative will place a greater emphasis on math instruction from the 
earliest grade levels. It will ensure that high schools offer more 
rigorous coursework, including Advanced Placement and International 
Baccalaureate courses in math, science and critical-need foreign 
languages. It will inform teachers of the most effective, research-
based approaches to teaching math. It will encourage professionals in 
those fields to become teachers themselves, and it will evaluate all 
federally funded math and science education programs to ensure the most 
effective use of the taxpayers' dollars.
    The President's High School Reform initiative will help ensure that 
a diploma becomes a ticket to success for all graduates, whether they 
enter the workforce or go on to higher education. It will bring high 
standards and accountability to high schools by aligning their academic 
goals and performance with the No Child Left Behind Act. Through 
assessments and targeted interventions, it will help educators raise 
achievement levels and close the achievement gap. It will also help 
alleviate the dropout problem by focusing more attention on at-risk 
students struggling to reach grade level in reading or math.
    Finally, the President's National Security Language Initiative, 
announced on Jan. 5, 2006, will help more American students master 
critical-need foreign languages to advance global competitiveness and 
national security. This joint project, in collaboration with the 
Department of State, Department of Defense and the Director of National 
Intelligence, will train teachers and aid students in those fields.
The Challenge: Knowledge of Math and Science
    In this changed world, knowledge of math and science is paramount. 
In the words of BusinessWeek, ``It's a magnificent time to know math.'' 
``Math entrepreneurs'' are translating the world into numbers-which 
translates into big salaries. According to the Bureau of Labor 
Statistics, new and replacement job openings requiring science, 
engineering or technical training will increase by more than 24 
percent, to 6.3 million, between 2004 and 2014.
    Of all of the recommendations contained in the National Academies' 
report, Rising Above the Gathering Storm, the highest priority is to 
vastly improve K-12 math and science education. Schools must help 
students develop the skills they will need to compete and succeed in 
higher education and the workforce, which are increasingly connected in 
this changed world. All Americans must be technically adept and 
numerically literate--regardless of their chosen occupation--so that 
they can make informed decisions and enjoy advancement in their 
careers. And this technically and numerically literate population must 
also yield additional practitioners of math, science, and engineering 
to meet the needs of academia and industry well into the future. 
Industry must do its part to ensure that career opportunities provided 
to those with training in math, science and engineering are as stable 
and financially rewarding as other jobs, such as medicine, law and 
finance.
    We clearly have a long way to go. High school test scores in math 
have barely budged since the early 1970s. And less than half of high 
school graduates in 2005 were ready for college-level math and science 
coursework, according to ACT.
    In 1983, the landmark A Nation at Risk report recommended that high 
school students be required to take a minimum of three years of math 
and three years of science to graduate. Yet today, only 22 states and 
the District of Columbia require at least this amount to graduate in 
the class of 2006. Even fewer require high school exit exams (which are 
often administered in 10th or 11th grade, leading many employers and 
universities to discount the results). Just one state-Alabama-calls for 
current students to take four years of both science and math to 
graduate.
    A major part of the answer is teacher training. When we compare the 
U.S. education system with that of the top performing countries, we 
find several significant differences, most notably that a much lower 
proportion of U.S. math and science teachers actually have a degree in 
the area in which they are teaching. Because our elementary schools 
employ generalist teachers who are required to teach all academic 
subjects, most have degrees in education and have completed little or 
no coursework in math or science. Three out of four fourth-grade math 
and science teachers in the U.S. do not have a specialization in those 
subjects. And students from low-income communities are far less likely 
than their more affluent peers to have teachers certified in the 
subject they teach. With two-thirds of our math and science teachers 
expected to retire by 2010, we have a challenge to produce new teachers 
to fill that gap, but we also have an opportunity to change the way in 
which new teachers are trained so that future teachers will have 
greater content knowledge in math and science.
    Strengthening math and science standards is an economic imperative, 
for the nation and for individual citizens. According to Department 
statistics, students who take advanced math courses in high school 
(such as trigonometry, precalculus and calculus) are far more likely to 
earn a bachelor's degree. Additionally, students from low-income 
families who acquire strong math skills by the eighth grade are 10 
times more likely to finish college than peers of the same 
socioeconomic background who do not.
    Still, old attitudes about math die hard. A recent survey 
commissioned by the Raytheon Company found that 84 percent of middle 
school students would rather clean their rooms, take out the garbage or 
go to the dentist than do their math homework. According to the 
Business Roundtable, just 5 percent of parents say they would ``try to 
persuade their child toward careers in science, technology, mathematics 
or engineering.'' Many people still view math and science as ``nerdy'' 
subjects with little relevance to the ``real world.'' Like it or not, 
that world has changed forever.
The Answer: American Competitiveness Initiative
    President Bush's American Competitiveness Initiative seeks to 
improve learning and instruction in mathematics and science.
    The Department of Education's proposals within this Initiative are 
as follows:
    <bullet> National Math Panel: Based on the influential National 
Reading Panel, the National Math Panel would convene experts to 
evaluate empirically the effectiveness of various approaches to 
teaching math, creating a research base to improve instructional 
methods for teachers. It would lay the groundwork for the Math Now 
program for grades K-7 to prepare every student to take and pass 
algebra;
    <bullet> Math Now for Elementary School Students: Like the 
successful and popular Reading First program, Math Now for Elementary 
School Students would promote promising, research-based practices in 
mathematics instruction and prepare students for more rigorous math 
coursework in middle and high school;
    <bullet> Math Now for Middle School Students: Similar to the 
current Striving Readers Initiative, Math Now for Middle School 
Students would diagnose students' deficiencies in math proficiency and 
provide intensive and systematic instruction to enable them to take and 
pass algebra;
    <bullet> Advanced Placement-International Baccalaureate (AP-IB) 
Incentive Program: The AP-IB Incentive Program would train 70,000 
additional teachers to lead AP-IB math and science courses. It would 
increase the number of students taking AP-IB tests to 1.5 million over 
the next five years with the goal of tripling the number of passing 
test-takers to approximately 700,000;
    <bullet> Adjunct Teacher Corps: The Adjunct Teacher Corps would 
provide funding to match contributions from States and the private 
sector to train 30,000 qualified math and science professionals to 
become adjunct high school teachers by 2015; and
    <bullet> Including Science Assessments in NCLB: NCLB requires every 
State to develop and administer science assessments once in each of 
three grade spans by the 2007-08 school year, and including these 
assessments in the accountability system will ensure students are 
learning the necessary content and skills to be successful in the 21st 
century workforce.
Other Math and Science Initiatives
    <bullet> Academic Competitiveness Grants and SMART Grant Program: 
This higher education grant program was a key component of the Higher 
Education Reconciliation Act.
    <bullet> This program will build on the success of the Pell Grant 
program and benefit more than 500,000 students in need.
    <bullet> Academic Competitiveness grants will provide increased 
funds for low-income students who take a rigorous academic curriculum 
in high school. Grants in the amount of $750 will be awarded to 
qualified first-year college students who completed a rigorous high 
school program; grants in the amount of $1,300 will be awarded to 
second-year students who completed a rigorous program and who maintain 
a 3.0 average in college.
    <bullet> SMART grants will go to college juniors and seniors 
studying math, science or critical-need foreign languages who also 
maintain a 3.0 GPA. This will encourage more students to go into fields 
that improve America's security and competitiveness.
    <bullet> Mathematics and Science Partnerships: This program 
supports the American Competitiveness Initiative by providing state 
formula grants to help improve students' academic achievement in 
rigorous math and science courses. It also assists teachers by 
integrating proven, research-based teaching methods into the curricula.
    <bullet> Expanded Teacher Loan Forgiveness: This popular program 
offers up to $17,500 (up from $5,000) in loan forgiveness for highly 
qualified math, science and special education teachers serving 
challenging, low-income schools and communities.
Academic Competitiveness Council
    The Deficit Reduction Act of 2005, signed into law by the President 
on February 8, 2006, created an Academic Competitiveness Council (ACC) 
chaired by the Secretary of Education, and consisting of Federal 
Government agencies with education programs in science, technology, 
engineering, and mathematics (STEM). Its mission under law is to 
identify all Federal education programs with a math or science focus, 
determine the effectiveness of each program, identify areas of overlap, 
and recommend ways to efficiently integrate and coordinate in the 
future. The Council will also ensure that these programs, which focus 
on elementary and secondary education and teacher training, are aligned 
with the principles of No Child Left Behind, as appropriate.
    The first ACC meeting took place on March 6, 2006, at the White 
House with the President and the respective Secretaries and directors 
of the agencies with STEM education programs. The Department of 
Education is now working with the Office of Management and Budget to 
form a working group with the appropriate senior staff from each of 
these agencies to begin taking inventory of their various STEM 
education programs. A report to Congress is due February 2007.
The Challenge: Accelerating Our Schools' Progress
    Innovating and improving America's schools will not occur 
overnight. It took time for eight other developed nations to surpass 
America's high school graduation rate among adults aged 25 to 34; and 
it will take time for the United States to regain its leadership. We 
must start by accelerating our progress.
    A comprehensive problem demands a comprehensive solution, extending 
from kindergarten through high school graduation. The good news is that 
educators and policymakers are learning more and more about what works. 
A half-century ago, the United States turned the threat of Soviet 
competition into proof of our ability to improve our schools and 
quality of life. Just four years ago, the United States turned a 
growing achievement gap into the bipartisan No Child Left Behind Act.
    The law set a course for proficiency for all students in the core 
subjects of reading and math by the year 2014. Students in grades 3 
through 8 are now learning under high standards. Teachers are using 
proven instructional methods in reading. Schools are being held 
accountable for results. Parents have more information and choices. And 
states have more flexibility to spend federal K-12 education resources, 
which have increased by 41 percent since 2001.
    The early results are in. Across the country, academic achievement 
has risen significantly in the earliest grades, with math scores at 
all-time highs, including among African American and Hispanic students. 
In the last two years, the number of fourth-graders who learned their 
fundamental math skills increased by 127,000 according to Department 
data. Long-term trends show that more reading progress was made among 
9-year-olds between 1999-2004 than in the previous 28 years combined. 
Meanwhile, according to the Nation's Report Card, the achievement gaps 
in reading and math between white and African American nine-year-olds 
and between white and Hispanic nine-year-olds are at all-time lows. 
Educators use terms like ``amazing,'' ``stunning'' and ``remarkable'' 
to describe the progress on long-term NAEP.
    No Child Left Behind has set the goal of every child achieving, but 
the states and schools themselves have done the heavy lifting to 
implement curriculum standards and assessment protocols that they will 
use to meet these standards. For the first time, all 50 states have 
unique accountability plans in place, with real consequences attached. 
The results can be seen in schools like Maryland's North Glen 
Elementary. In 2003, just 57 percent of North Glen's students were 
proficient in reading, while 46 percent were proficient in math. Those 
numbers have skyrocketed to 82 percent and 84 percent, respectively.
    Another example is Charles L. Gideons Elementary School in Atlanta. 
The number of its students meeting Georgia's standards in reading has 
increased by 23 percentage points since 2003. For math the news is even 
better: a 34 percentage-point improvement during the same period. The 
National Math Panel will examine schools like this one that have made 
significant progress to determine ``what worked'' in improving 
mathematics education and performance. If we better understand what 
worked at these model schools, we can then use programs like the new 
Math Now program to disseminate these principles and practices to 
teachers across the country.
    A districtwide success occurred in Garden Grove, California. Three-
fourths of the Garden Grove Unified School District's students do not 
speak English. Nearly 60 percent are from low-income families. 
Nevertheless, all but two of the district's 67 schools met or exceeded 
their Adequate Yearly Progress goals under the law.
    The No Child Left Behind Act was designed to improve achievement. 
But it has also shown us what is achievable as a nation. Educators, 
administrators and public officials are working together, united behind 
a worthy goal. Now it's time to apply the Act's successful principles 
to our nation's high schools.
    There is not a moment to waste. Governors and business leaders are 
united in calling for urgent reform. Every year approximately one 
million students drop out of high school, costing the nation more than 
$260 billion dollars in lost wages, taxes and productivity over the 
students' lifetimes. A high school graduate can expect to earn about 
$275,000 more over the course of his or her lifetime than a student who 
doesn't finish high school; a college graduate with a bachelor's degree 
can expect to earn about $1 million more. Dropouts are also three-and-
a-half times more likely to be arrested, according to reports. A key 
goal of the President's High School Reform Initiative is to address the 
academic needs of at-risk students so that they stay in school, 
improving their quality of life and that of their fellow Americans.
The Answer: The President's High School Reform Initiative
    The President's High School Reform Initiative would hold high 
schools accountable for providing high-quality education to all 
students. And it would help educators implement strategies to meet the 
needs of at-risk high school students. The proposed program would make 
formula grants to states to support:
    <bullet> The development, implementation and evaluation of targeted 
interventions designed to improve the academic performance of students 
most at risk of failing to meet state academic standards; and
    <bullet> Expanded high school assessments that would assist 
educators in increasing accountability and meeting the needs of at-risk 
students.
    Interventions would be designed to increase the achievement of high 
school students; eliminate achievement gaps between students from 
different ethnic and racial groups and income levels; and help ensure 
that students graduate with the education, skills and knowledge 
necessary to succeed in post-secondary education and in the technology-
based global economy.
    A key strategy would be the development of individual performance 
plans for students entering high school, using eighth-grade assessment 
data in consultation with parents, teachers and counselors. Specific 
interventions could include programs that combine rigorous academic 
courses with vocational and technical training, research-based dropout 
prevention activities, and the use of technology-based assessment 
systems to closely monitor student progress. In addition, programs that 
identify at-risk middle school students for assistance would help 
prepare them to succeed in high school and enter postsecondary 
education. This includes college preparation and awareness activities 
for students from low-income families.
    The President's proposal also would require states to develop and 
implement reading and mathematics assessments in two additional grade 
levels in high school, building on the current NCLB requirement for 
testing once in grades 10-12. The new assessments would inform 
strategies to strengthen school accountability and meet the needs of 
at-risk students.
Additional Support
    <bullet> Striving Readers: First funded in 2005, this program would 
be expanded significantly to reach more secondary students reading 
below grade level, which puts them at risk of dropping out. Students 
would benefit from research-based interventions coupled with rigorous 
evaluations. Schools would benefit from activities and programs 
designed to improve the overall quality of literacy instruction across 
the entire curriculum.
The Challenge: Promoting Freedom and Understanding
    America faces a severe shortage of people who speak languages that 
are critical to its national security and global competitiveness:
    <bullet> According to the Center for Applied Linguistics, less than 
one-fourth of public elementary schools report teaching foreign 
languages, even though a child's early years are the best years in 
which to learn a new language.
    <bullet> Less than 1 percent of American high school students study 
Arabic, Chinese, Farsi, Japanese, Korean, Russian or Urdu-combined.
    <bullet> Less than 8 percent of undergraduates in American 
universities take foreign language courses, and less than 2 percent 
study abroad in any given year.
    While only 44 percent of U.S. high school students were studying a 
foreign language in 2002, learning a second or even a third foreign 
language is compulsory for students in the European Union, China, 
Thailand and elsewhere.
    More than 200 million children in China study English. By 
comparison, only about 24,000 elementary and secondary school children 
in the United States study Chinese. Many students in other nations 
begin learning another language before they're even 10 years old. They 
will have an edge over monolingual Americans and others in developing 
new relationships and business connections in countries other than 
their own.
The Answer: The President's National Security Language Initiative
    Critical-need foreign language skills are necessary to advance the 
twin goals of national security and global competitiveness. Together 
with the Department of State, Department of Defense and the Director of 
National Intelligence, the Department of Education proposes to offer 
grants and training for teachers under President Bush's National 
Security Language Initiative.
    The Initiative would increase the number of Americans who speak and 
teach foreign languages, with an emphasis on critical-need languages. 
It will strengthen and refocus the Foreign Language Assistance Program, 
and will initially enable 24 school districts across the country to 
create partnerships with colleges and universities to develop critical-
need language programs. Among the critical-need languages targeted 
under the initiative are Arabic, Chinese, Korean, Japanese, and 
Russian, as well as languages in the Indic, Iranian and Turkic 
families.
    The National Security Language Initiative will also provide funding 
to create a Language Teacher Corps, with the goal of having 1,000 new 
critical foreign language teachers in U.S. schools by the end of the 
decade. And it will enable the creation of an ``e-Learning Language 
Clearinghouse'' and expanded Teacher-to-Teacher seminars to assist 
foreign language teachers anytime, anywhere.
Conclusion
    Finally, I want to thank this Committee for your work on the 
College Access and Opportunity Act approved by the House approved last 
week, which will strengthen math, science and critical foreign language 
instruction for hundreds of thousands of students. I especially want 
acknowledge the work of Congresswoman Cathy McMorris for her amendment 
to the legislation. Her American Competitiveness Amendment makes 
progress on key elements on the President's proposals on Advanced 
Placement, Adjunct Teacher Corps and critical foreign languages. I look 
forward to working with you and the Members of the Senate to move this 
important bill forward.
    Our schools helped make the 20th century the ``American Century.'' 
The 21st century remains to be claimed. But Americans have never backed 
down from a challenge. This changing world offers another opportunity 
for Americans to shine, and the President's American Competitiveness 
Initiative and the rest of his education agenda will help set the 
course.
    America's schools have made great progress in improving academic 
achievement in the early grades. But like athletes or musicians, 
children of all ages must work hard each and every day if they wish to 
compete, perform and succeed, and their schools must show them the way. 
The President's education agenda will help prepare the students of 
today to become the successful leaders-the pioneers, discoverers and 
Nobel Prize winners-of the next American Century.
    I look forward to working with Congress on implementing these bold 
initiatives.
    Thank you for the opportunity to testify this morning. I am happy 
to answer any questions you have.
                                 ______
                                 
    Chairman Mckeon. Thank you very much.
    I would like to remind the members that we will have the 5-
minute limit on all questions.
    I would also like to remind the members of the committee 
that the topic of today's hearing is building America's 
competitiveness and in recognition of the secretaries' limited 
time with us, encourage members to keep their questions focused 
on the competitiveness issue.
    Secretary Chao, as you know, there are a number of 
legislative proposals that have been introduced in both the 
House and Senate that address American competitiveness.
    Other than the President's American Competitive Initiative 
and keeping in mind our current budgetary restrictions, what 
are one or two things that Congress should do to help ensure we 
maintain our competitive edge in the 21st century? Instead of 
using a shotgun approach, one or two items that we could really 
focus on and get something done.
    Secretary Chao. First of all, I want to thank the House for 
having passed the WIA Reform Program. The Workforce Development 
System is a wonderful system. It is a publicly funded workforce 
training system, career system that helps people who are going 
through a very vulnerable period in their lifetime.
    Currently, there are 17 different funding streams that go 
through these 3,500 one-stop career centers. Now, some of them 
are not full service, but, generally speaking. The silo effect 
that Secretary Spellings mentioned in education exists as well 
in the workforce development system. It is extremely hard for a 
person who is out of work to understand the various government 
programs that are available to them, because each of these 17 
different funding streams are in silos of their own.
    So one almost needs an advanced degree to be able to access 
the various programs. And these various programs have very 
strict criteria, so sometimes the very people that these 
programs purport to help are not able to access these programs 
because of overly restrictive and confusing and sometimes 
contradictory eligibility criteria.
    So the House has certainly gone the first step in 
reauthorizing the Workforce Investment Act to consolidate four 
of the funding streams. That will be very important in allowing 
Governors, not the Federal Government, the Governors and people 
within the state much greater flexibility in helping 
communities and districts and municipalities to ensure that 
workers who need them will be able to get the money.
    Second of all, the President has introduced the Career 
Advancement Accounts. There is a tremendous amount of money 
that we spend on the workforce development system. We spend 
billions of dollars every year. A lot of that goes to the brick 
and mortars of this publicly funded workforce development 
system. The professionals who work in the system are doing a 
great job, but they too feel frustrated that there are not more 
available to help workers.
    Right now, the workforce development system refers about 
200,000 people to training opportunities. We must do better 
with the billions and billions of dollars that we spend on this 
program. So the new goal is to help unemployed workers, 
dislocated workers access more programs and to increase the 
number of workers who can access training to about 800,000.
    And we believe that the President's Career Advancement 
Accounts would empower individual workers to enable them to 
choose what they would like to learn, to retrain and reskill 
themselves so that the President's proposal basically empowers 
workers, and it will be a more effective way to help workers, 
again, access the training that they want and give them better 
control and a more effective way for them to access training.
    Thank you.
    Chairman Mckeon. Thank you very much.
    Secretary Spellings, in your testimony, you noted--and last 
month when you convened the Academic Competitive Council you 
also talked about--the vast number of programs and so many of 
them funded at such a low level.
    Do you have suggestions, ideas on combining these programs 
to make them more effective and be able to focus, again, with 
the rifle shots instead of the shotgun approach to try to 
really focus in on moving competitiveness forward?
    Secretary Spellings. Yes, sir. The Academic Competitiveness 
Council, the assignment I have given them is to first inventory 
their programs: Who is their client, who are they serving, what 
are the measurements of effectiveness and the like?
    And we have given them a quick timeline to bring forward 
some of that information to the full group by the early part of 
May. So I am hopeful that as we work together that I will be 
able to provide some of this information to you.
    I think these programs have grown up over time, and I don't 
think that we have had a clear understanding of our strategy of 
what is the problem we are trying to solve. Are we most worried 
about kids who are going to be Ph.D.s, engineers and scientists 
or are we most worried about the people who need to be in these 
jobs that are going to require more skills, both, and what is 
the spectrum between those two things?
    And so we don't know enough yet, and I hope to bring that 
to you.
    I do think what I have observed, at least initially, is 
that there are a lot of programs. You talked about the $1 
million or less, kind of, threshold that are basically pilot 
programs. And I think our charge is because of the vast order 
of magnitude of the problem is that we need to get some 
scalable models that can work fast and effectively. That is why 
the President has called for expanding advanced placement and 
intentional baccalaureate programs.
    Those programs work, they are already embraced in many of 
your states, but when I talk about the rationing of 
opportunity, the example in my own local community, at Fairfax 
County, Langley High School in McLean has 22, 24 AP classes; 
inner city, Ballou High School, three or four classes.
    And I think those are the sorts of things that we need to 
bring to you so we can figure out, first, what are we trying to 
solve, and then what are the most strategic investments we can 
make around the problem.
    Chairman Mckeon. I want to work very closely with you on 
that. I have asked our staff to put together a list of all the 
programs under our jurisdiction on the committee, and my goal 
is by the time I am no longer chairman of the committee we have 
been able to decrease the number of programs, make the programs 
that we have more effective. So it sounds like we are working 
on the same objectives, and we can work closely on that.
    Thank you very much.
    Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman.
    And thank you both for your testimony.
    Secretary Spellings, you mentioned on page five of your 
statement including science assessments in No Child Left 
Behind, and there has been some discussion of that in the 
educational press.
    Can you tell us what you envision happening here, and will 
the students be ready for the assessments, I guess, will be the 
question, whether or not there is comfort that the states will 
have a curriculum that is in place for those assessments?
    I noticed that in one of the discussions about people's 
wish lists for the No Child Left Behind, one of the top ideas 
was that people wanted to expand into science and social 
studies, they wanted to put an emphasis there. Are they going 
to be in a position to do this in 2007?
    Secretary Spellings. Mr. Chairman, as you know, No Child 
Left Behind requires that states develop science assessments 
once at each grade span, once in elementary, middle and high 
school, by 2007-2008, and states are on course to do that. Many 
states have already adopted those standards and those 
assessments into their accountability system.
    As you know, I am a firm believer in the ``what gets 
measured gets done'' kind of notion, and I think when we put 
that focus and we put those measurements in the accountability 
system, that builds an appetite for focus, for change and for 
reform.
    And so I think if we care about it--and this is actually a 
conversation that Representative Holt and I had earlier in this 
committee--is that if it is important to us, we ought to 
measure it, we ought to hold states and localities accountable 
for it, and we ought to move the ball forward on behalf of 
kids.
    Now, are kids ready to meet those standards? I think that 
remains to be seen. We have focused, as you know and 
understand, and rightly, on math and reading, and we can't 
study science effectively or social studies without getting 
some of these baseline reading and ciphering skills. And so I 
think now 5 years or so into No Child Left Behind, with the 
phase-in, with the 2007-2008 deadline before us, we are ready 
to take those next steps.
    Mr. Miller. What is your sense of the--I am trying to ask 
this diplomatically--what is your sense of the rigor of the 
assessments that the states have put in place?
    I mean, they now know they are going to be measured by 
this, and, as we know, states are concerned that they have set 
the bar too high or should set it lower so that they come out 
OK in these comparisons.
    What is your sense of the states that have this in place, 
the rigor of the assessments?
    Secretary Spellings. Well, I think they vary widely, as 
state standards tend to. As you know, one of the, I think, very 
genius parts of No Child Left Behind is having the NAEP 
yardstick, kind of, check the quality of state systems in a way 
that shines the spotlight on that issue. So I think that 
remains to be seen.
    States have not developed those science standards 
necessarily with an eye toward inclusion in the accountability 
system. It isn't required yet as part of No Child Left Behind. 
But I think, just like No Child Left Behind, we had to 
recognize and start where we are, and the only way to lift the 
tide is for us to begin and start to ratchet up and raise 
standards and raise focus over time.
    Mr. Miller. One follow-on: There is a discussion--never 
mind, never mind. We will go there some other time.
    I am just trying to think, you know, we sit here with a 
sense of urgency, all of us, about what is going to be 
necessary for this coming generation of students to compete out 
there in the world, and I just worry about as we start into a 
new standard the rigor of that standard to make sure that they 
will have the tools they need to go out and have knowledge of 
science that is necessary. But we can discuss that later.
    Secretary Spellings. I would like to quickly add that that 
is another compelling thing about advanced placement in 
International Baccalaureate programs. They are high standards. 
They do represent a contribution toward the college 
affordability. They help us with articulation between high 
schools and higher ed institutions. And they are rigorous, 
accountable sorts of programs. They are doable, school people 
understand how to implement those, and I think that is a model 
that we know can work and meets the objectives, particularly 
the rigor, the standards.
    And I have been to lots of classrooms, I know you have too, 
where we see so-called at-risk kids thriving and being 
successful in more challenging, more interesting and more 
relevant coursework.
    Mr. Miller. All right. Thank you.
    Thank you, Mr. Chairman.
    Chairman Mckeon. Thank you.
    Mr. Castle?
    Mr. Castle. Thank you, Mr. Chairman.
    I thank you both for being here today.
    I would like to hopefully get a question in to both of you, 
and let me start with you, Secretary Spellings. You mentioned 
in your opening testimony that you and I were at Harlan 
Elementary School in Wilmington. I think we are both rather 
impressed with the school. I have been there before, and, 
clearly, they have made a lot of changes that I thought were 
very positive.
    And I can't remember the exact details, so you can probably 
correct me on about three things I am going to say here, but as 
I recall, I think it was a 6th-grade class who went into it 
with a math instructor. That math instructor was just that, he 
was a math instructor. I think he came in alternatively to 
teaching. He came from industry and was teaching these kids how 
to measure the area of a circle. We sat there and watched him 
for 10 minutes. I thought it was an amazing 10 minutes. Either 
they rehearsed that for about 2 months or he is really good. My 
impression is, he is really good at what he was doing.
    And then we went over to a science class and watched kids 
deal with rocks and those kinds of issues as well, and, again, 
it was very impressive.
    But my question relates to the age aspect of that. I mean, 
these were elementary school students, and they were being 
exposed to, I thought, really good teaching, because you had 
dedicated people. They didn't have just a classroom teacher 
teaching that, they had a dedicated math teacher, a dedicated 
science teacher in that particular school starting at an early 
age.
    I am of a strong belief that we are never going to have 
mathematicians and scientists if we don't get to these kids 
early. And, boy, this is hard to handle. There is so much 
coming at us right now from the President and all these 
programs, it is hard for me to assimilate all that we are 
doing.
    But one thing that keeps standing out to me is if we don't 
get to these kids early, to me, math and science need to be 
grasped at a relatively early age, and if we don't succeed in 
that, my suspicion is that we are going to have a lot of 
trouble converting kids in 10th or 11th grade or whatever it 
may be.
    Do you agree with that? And if so, are we thinking 
programmatically about how to make absolutely sure that we are 
starting at an age proper to get these kids interested in it 
rather than waiting until they are in college or graduate 
school or whatever it may be?
    Secretary Spellings. I completely agree with you, and I 
think we need to do both of these things. That is why the 
President has called for this Math Now effort that is around 
elementary and middle school.
    This is somewhat of a generalization, but, as you know, our 
curriculum in this country is a mile wide and an inch deep. We 
tend to do a lot of arithmetic, kids do, in the early 
elementary, kind of, K-4, sort of, range of, kind of, 
repetitive calculation type curriculum.
    We are not feeding enough higher order thinking--fractions, 
decimals--the kinds of things that we saw in the school that we 
visited, Mr. Castle, and so kids fall off a cliff when you get 
to high school, because they have not had the embedding of this 
higher order of thinking, these more, kind of, pre-algebra type 
skills, the number line and so forth that really set the table, 
not only for interest but for success.
    I don't know about you but I like to do things I am good 
at, and I think that is true of kids as well.
    We saw, obviously, a very challenging curriculum and a very 
able and content-oriented teacher, and I think those are the 
two things that we must do in our elementary and middle 
schools.
    Unlike reading, where we lack an understanding, educators 
lack an understanding about what are the core principles of 
effectiveness. In reading, we know there is the alphabetic 
principle, there is phonemic awareness, their vocabulary, their 
comprehension, all of those things. We don't necessarily have 
that understanding in mathematics. And I think part of our 
responsibility at the Federal level is to help states and 
school districts understand what those most effective 
strategies can be.
    Mr. Castle. Thank you, Secretary.
    Secretary Chao, this question is going to be really 
general. I apologize in advance for that. But we have a panel 
right after this, and we haven't heard them, obviously, but I 
have had a chance to pre-read their testimony, which I think is 
really quite excellent and they are doing some wonderful 
things.
    But I worry a great deal about--and I have worried about 
this for 21-some years in this business--I don't want to say 
inability, but the diverse programs that the business community 
brings to the table, be it a Chamber of Commerce or various 
businesses or whatever. And they are sometimes very scattered, 
and sometimes, frankly, I don't think they are that effective 
because of that.
    And I worry that we are not getting the attention of the 
kids or the best focus or the money that these companies are 
willing to put into to really help in terms of what we are 
doing, the coordination aspect of it, if you will. I don't mean 
to be critical, because they really mean well and some of these 
programs are excellent, but sometimes I don't think they are 
quite as productive as they might be.
    In terms of our competitiveness structure, are we going to 
try to coordinate all that better, awaken what we are doing and 
perhaps have a unified effort in terms of the education of our 
young people?
    Secretary Chao. Congressman, you make an excellent point. 
It used to be that the workforce investment system did not 
include anybody from the employer community. This seemed to us 
to be a severe and serious flaw. Employers, after all, 
understand what jobs they are probably likely to have open in 
the coming year, and so they know what skill sets they will 
need as they plan their human resource needs. And to exclude 
them from the workforce investment boards, for example, or from 
any community collaborative effort to determine what skills are 
needed within the community seems to be very shortsighted.
    So under the Workforce Investment Act of 1998 and also in 
the reauthorization, we have had to try to address that issue 
and also encourage the workforce investment system to include 
more employers as they plan what the human resource and 
training needs are within the community.
    Mr. Castle. Thank you, both.
    I yield back, Mr. Chairman.
    Chairman Mckeon. Thank you.
    Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Secretary Spellings, I appreciate really the very practical 
and sensitive flexibility you have given within No Child Left 
Behind. I think that it has been received well, and it keeps 
the spirit and the law of No Child Left Behind but a nice 
sensitivity.
    But I am disappointed in looking at the budget this year 
the freeze in Title I. In Genesee County, Michigan, which is 
the largest county in my district, where Flint is located, 
where Delphi is located, and they are closing all their plants 
in Flint, we look at the MEAP scores, the Michigan Education 
Assessment Program, look at their scores, and you find in 
almost all the school districts a direct relationship between 
the socioeconomic culture of the school district and their MEAP 
scores, with some exceptions.
    You will find some who have a very high socioeconomic 
standard and not doing well in the MEAP tests and a few who are 
rather lower socioeconomic and are doing very well. One is the 
Kearsley School District, adjacent to the school district where 
I used to teach. And I was out there looking at the schools and 
I asked the superintendent, Jeffrey Morgan, why they were doing 
well, and this has been documented that they are really way up. 
He said, ``One reason: Title I dollars, Title I.''
    And maybe they are using their Title I dollars better than 
others. Maybe we should send someone out there to see how it--
because they really have done an outstanding job there.
    But, as I said, I am disappointed that we are not 
increasing the money for Title I, because it really does work, 
most places, some better than others, as I mentioned.
    Now, while I do commend you, and I have commended you 
before, both privately and publicly, on what you have done with 
No Child Left Behind, I urge you that within the 
administration, in the budget process, that you will try to 
move the bean counters to really try to do more with Title I.
    And I think that is one of the roles of the secretary, 
whether it be Labor or Education, is to be the number-one 
advocate within the administration.
    I have been in Congress for 30 years now, and I can recall 
when Dave Stockman was head of OMB, budget director, and Cap 
Weinberg would slap him around, saying, ``Listen, don't tell me 
how much to ask for. This is how much we need.'' Of course, Cap 
was very aggressive and he went to his reward just recently, 
but he was very successful in being a great advocate.
    And I think, not just you, but I think every secretary 
should become an even stronger advocate. I am not saying they 
are not an advocate but an even a stronger advocate with the 
OMB to try to get more for those programs that are working like 
Title I.
    How do you deal with OMB? Do you tell them what you need or 
listen to what they tell you?
    Secretary Spellings. Well, yes, sir. Obviously, the budget 
development process begins actually at this time of year. We 
are already starting to look at the 2008 budget and what is 
needed going forward next year, what is most effective. We work 
with them on a process that they have developed called, PART, 
which is basically a performance-based, kind of, scoring system 
that talks about the effectiveness of programs.
    I personally think, and that is what the Competitiveness 
Council is about, we need to go beyond that and look more 
deeply in the effectiveness of some programs. Obviously, we 
champion for additional resources. It is obviously done in a 
framework of lots of competing sources and competing agencies 
and departments, priorities of the President and the like, and 
at the end of the day, the bottom line is the bottom line.
    I believe in this budget that to the extent that we have 
additional resources that we have focused them on our most 
strategic needs: On competitiveness and on, in Title I's case, 
an additional $200 million for school improvement. As No Child 
Left Behind has matured, we see the need for more intensive, 
kind of, state intervention, restructuring-type initiatives.
    And so I pledge to you I will advocate for resources with 
OMB. I think if you called Josh Bolten, you would find that I 
do. And I think to the extent that we are in a challenging time 
with limited resources, we need to make sure that they are 
spent very effectively and very strategically.
    Mr. Kildee. I appreciate that.
    Within Genesee County, the Buick factory where my dad 
worked is now literally a Brownfield. I was called by the vice 
president of Delphi Thursday morning, at 9 o'clock to tell me 
that all the Delphi plants in my district are closing. So in 
this competitiveness, we really need a good educated and 
trained workforce.
    Thank you very much, Madam Secretary.
    Chairman Mckeon. Thank you.
    Mr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman.
    I very much appreciate the testimony. The two of you have 
the responsibility for solving one of our major problems in 
this country, and that is remaining competitive in the future. 
I want to also add that I deeply appreciate the President's 
competitiveness initiative. It was badly needed, and I am just 
delighted he has instituted that, and I am working very hard to 
make certain that it is fully funded in this congressional 
circle.
    We have the two proper people here, Mr. Chairman, because 
as far as I can see the issues are having a properly trained 
workforce and having the new ideas, the research, the approach 
you need so that we can get product development and 
intellectual property rights protected.
    But to me the key factor in all of this is getting teachers 
the proper training they need. And that boils down both pre-
service and post-service. People are constantly criticizing the 
teachers. I have never done that. I don't knock them, because I 
have worked with them in the classroom, and the teachers I have 
worked with earnestly want to teach math and science properly. 
They have never learned it themselves. And, furthermore, they 
have never been taught how to teach it properly.
    And so I have spent hours in the classroom, in my classroom 
and in theirs, trying to convey this. But it is a national 
problem, and we really have to address it because that is the 
core.
    A couple of questions for you, Madam Secretary Spellings. 
Just getting at this question, first of all, you are promoting 
the Math Now approach of the Math Panel, both of which I think 
are very good ideas. As you know, under No Child Left Behind, 
next year we are supposed to start doing the science.
    Are you going to propose, or have you begun working on a 
Science Now program and a Science Panel to match what you are 
doing in the mathematics?
    Secretary Spellings. Yes, sir. We intend, after Math Now, 
to do science next and to convene the same sort of expertise 
around the field of science. You have raised some of the issues 
about the sequencing of science and how we teach it and some of 
the things that are, I think, vexing to school people out there 
as well.
    One of the things we know, as a math and science guy 
yourself, is that math undergirds science so strongly that it 
did make sense to start with math and then move quickly into 
science, but we do intend to do that.
    Mr. Ehlers. The side benefit, of course, of incorporating 
that is the science helps students understand the math. 
Furthermore, there is interesting research that students taught 
science, even beginning in preschool, the simple classification 
skills and so forth, learn to read much more rapidly. So, 
actually, math, science and reading all come together if you do 
it right.
    Another question about the math-science partnership 
programs. At the Science Committee hearing, both you and Dr. 
Bernent from NSF said the two math and science partnership 
programs complemented each other, and they go hand-in-glove. 
But yet the funding is going to your program and not to his. I 
think both are essential. They are different but complementary.
    What do you propose we could do to help solve this problem, 
to keep the research effort going in his shop and keep the 
implementation effort going in your shop?
    Secretary Spellings. Well, as I said, NSF largely deals in, 
sort of, the pilot program arena, and I think what we need to 
do is gain from them a better understanding of what are the 
most likely effective and most scalable of those pilot programs 
that they operate. And so they will continue to do those sorts 
of things.
    The reason the President has called for resources for my 
department is to bring that scalability, if you will. You know, 
you have heard me talk about the numbers. Half of our students, 
our minority students, do not get out of high school on time. 
Even kids who graduate are not prepared for college-level math 
or science and they lack the skills to be effective in the 
workplace.
    So it seems to me that the raging fire is the necessary 
scalability of effective programs that can be brought up and 
stood up very quickly, as opposed to these, kind of, one-at-a-
time-type programs that we are doing a lot of in the government 
already.
    Mr. Ehlers. I just want to point out the importance of 
keeping their program going as well. And we will talk about 
that further, but it is absolutely essential.
    One last quick point, and I hate to correct witnesses, but 
since you quoted me, I should say the correct statement is, 
``If you are not a nerd, you will end up working for a nerd.''
    [Laughter.]
    Secretary Spellings. Pardon me. I stand corrected.
    Mr. Ehlers. Most people don't understand the difference 
between nerds and geeks.
    [Laughter.]
    But I consider myself a nerd and not a geek.
    Secretary Spellings. All right.
    Mr. Ehlers. So I wear the plastic pocket protector, but I 
don't carry 13 different colored pens.
    [Laughter.]
    Thank you, Mr. Chairman.
    Chairman Mckeon. Thank you.
    Ms. McMorris--excuse me, I am looking at Ms. McCollum? 
Excuse me.
    Ms. McCollum of Minnesota. Thank you, Mr. Chair, and 
congratulations on your first meeting.
    This is on competitiveness and we have been talking about 
Leave No Child Behind quite a bit, because the correlation is a 
good foundation to move up on. I represent Minnesota, and our 
business community, our college system, our political leaders, 
our non-profits, they have been engaged in trying to bring all 
children up to their best capability for years and moving 
forward on standards.
    I am going to quote one of three articles I am going to 
submit for the record, Mr. Chair. Our competition isn't North 
Dakota and South Dakota, yet the way that we are measuring 
success in Leave No Child Behind, we are not measuring American 
children in their totality. And I appreciate the fact that 
term, ``silo,'' was used quite a bit. We have 50 silos for 
Leave No Child Behind, because we have 50 different standards.
    So we don't know how all America's children are really 
doing because there is not one standard to which American 
children and their parents know that they are being held 
accountable to. There isn't one standard for the business 
community, there isn't one standard for the colleges when they 
look at Leave No Child Behind school measurements.
    So I think we get a failing grade in our accountability, in 
our responsibility of making sure that we know the direction we 
are moving forward in a country for accountability and 
standards for our children.
    With 50 different measurements out there, to compare 
Minnesota, Arkansas, Florida and California and really know how 
the children from just those states are doing, we don't have a 
measurement.
    Yes, there is a national measurement as an instrument that 
some states use, some states don't use. Private schools, quite 
often, use a different measurement.
    So I think we collectively, if we are really going to have 
accountability, we need to get to one measurement, especially 
in a society that is so mobile.
    I appreciate also about advanced placement opportunities 
for students--marvelous. I know many young adults who have been 
able to take advantage of that. But my school districts right 
now are cutting those very programs because of lack of funding 
for special education and because of all the underfunding and 
the testing requirements of Leave No Child Behind.
    So what are we on the road for from this department to get 
to a measurement in which we really know how our nation's 
children are doing? There is room for improvement in Minnesota. 
We said that long before Leave No Child Behind, but what are we 
doing as a nation to truly measure this?
    And then, Secretary Chao, I got a mixed message from you, 
and so I want to give you a chance to clear it up. I heard in 
your earlier testimony how excited you were that there was all 
this wonderful individuality and I can choose what I want to 
take my training dollars and move forward on.
    Then when answering a question earlier, you said--one 
statement which I would like to clarify for the record: In 
Minnesota, we do have our business community as part of our 
workforce development; they are at the table. But you also said 
that we need to focus our workforce in those job areas where we 
know that there are jobs and get people plugged into there.
    So how do you take the individual, ``I am going to take my 
dollars and do what feels good for me this week for training,'' 
and put that square with what you also said we needed to do and 
that is make sure that we are training people for the good 
paying, livable wage jobs that are out there in the community?
    Secretary Chao. Margaret, should I answer that first?
    Secretary Spellings. Yes, go ahead.
    Secretary Chao. I don't find those two statements in 
contradiction at all. After all, we live in a democracy. People 
have a right to decide what they want to study, what they want 
to work in. What we are saying is that there are these areas in 
which there is a dearth of workers, so we hope, but we can't 
compel nor force, people to get training in a job that they 
don't want to get. This is America; it is a pure democracy.
    What we want is to allow greater control by individual 
workers. Right now, we are like an HMO system. First of all, 
let me make it very clear: The workforce development system 
doesn't train anybody. The workforce development system is more 
like a referral system, career counseling. They contract out in 
some communities with skills providers. So a lot of times it 
is, again, like an HMO system. The person coming in looking for 
training is referred to a set and preexisting contract that may 
or may not have direct links into the employer community.
    Your community, I am glad to hear, has links with the 
employer community. I think more and more workforce investment 
systems are going in that direction, but we need to include 
employers, because they, after all, provide the jobs and know 
the skill sets that they require. So, again, there is no 
conflict at all.
    And there is also a very important role for the workforce, 
one-stop centers, because there will be people who will come in 
who don't know what they want, will need career counseling and 
resume writing or some assistance in knowing how to search the 
Net and get on some of the job sites, like Monster.Com or 
America's Job Bank or Career Planners. So there is a referral 
assistance program that the one-stop provides, which is very 
important. So those aren't really in conflict at all.
    Secretary Spellings. Representative McCollum, first, let me 
say that No Child Left Behind does require each and every state 
to participate in the National Education Report Card. That was 
new with that law, the National Assessment of Educational 
Progress. So we do have a better understanding nationally about 
the quality of standards.
    One of the things, as you know, in education, we, at the 
Federal level, of course, are a minority investor and always 
have been and always will be. And so with states and localities 
paying for 90 percent of the cost of education, we believe that 
it is certainly right and righteous for states to set standards 
and curriculum for local control so we would not prescribe here 
to classroom teachers or to state school boards or anyone else 
about curriculum matters, which are within local jurisdiction.
    I do think that if you are a fan of standardization and 
understanding or clearness of the quality of our education 
system, programs like advanced placement and International 
Baccalaureate that are acceptable, understood--everybody knows 
that a 3 on an AP calculus class means X--an understanding of 
this body of knowledge and so forth. People in the higher ed 
community understand that, parents understand that, and the 
school system understands that.
    And so I think it is the right balance between local 
control and state prerogatives and state understandings on 
curriculums and as well ratcheting up the skills around 
excellence, standards and measurement through advanced 
placement and programs like that.
    Ms. McCollum of Minnesota. To share a point of personal 
privilege with you, please, for a second, I think this 
committee needs to find out how our states and our schools are 
measuring up to the standard to which the secretary just 
mentioned, because right now schools are measured within a 
state for meeting adequate yearly progress, and I believe that 
this committee should find out how our schools are meeting 
adequate yearly progress at the national evaluation instrument 
that is available to us. And I would respectfully request you 
entertain perhaps having a hearing on that.
    Chairman Mckeon. Thank you.
    Mr. Norwood?
    Mr. Norwood. Thank you very much, Mr. Chairman.
    We certainly welcome both of you. It is an honor that you 
can spend so much time with our committee, and I personally 
thank you for the work both of you are trying to do.
    Let me start by telling you that your statements I have 
read carefully and thought about a lot. And you will have to 
forgive me for being a little cynical. I haven't been here 
quite as long as my learned friend that teaches Latin over 
there, but I have heard these statements for 12 years, just 
change the names of the programs. Same statements, same thing, 
every year.
    No thinking person, in my opinion, could disagree with what 
either one of you said in your statement. Clearly, our goals, 
as you set them out, are right. Clearly, our problems, as you 
set them out, are right. And, clearly, we are not getting it 
done.
    So allow me a little cynicism here, because I really would 
like for us to get it done, just as I know you would too.
    The programs that we have obviously have failed our 
children, though every year we have some other new program 
that, oh, gosh, we have just got to fund that this year. If we 
will just do that, we will get better in math and science. So 
we get another program.
    How many programs do you have in the Labor Department and 
in the Department of Education that are attempting to do what 
we are trying to do through these new initiatives? Do you have 
any idea how many? Each of you, please.
    Secretary Chao. The Department of Labor has a budget of 
about $60 billion, the majority of which is devoted to 
fulfilling the needs of unemployed workers. So about $9.5 
billion of that is for training.
    Mr. Norwood. And could you tell me numbers of different 
programs? You speak of these little million-dollar programs all 
over the place, which is nothing but passing money around. All 
of us know that. It doesn't get the job done. If it got the job 
done, you wouldn't be here having this initiative.
    So, Secretary Spellings, how about you?
    Secretary Spellings. Yes, sir. We spend $221 million. Our 
programs, through the math-science partnership, largely, are, 
like Title I, formula-driven programs, and they go on a per 
capita basis or to states. So they are not competitive grant 
programs. They flow, like Title I, as a matter of formula. We 
do have some other bits and pieces of programs.
    That compares to $998 million spent at NIH, $997 million 
spent at NSF, NASA spends about $10 million more than we do, 
and then within each one of those there are either specific 
programs, like the million-dollar ones we talked about, or more 
competitive or block grant programs. We, at the Department of 
Education, largely through the math-science partnership, have a 
block grant type style of program distributed on a formula.
    Mr. Norwood. So, basically, you are saying that you are 
here because those programs aren't working, and you want 
different programs, you want different initiatives, you want 
reform, and you want more money, and if we will just do that, 
then we are going to solve this problem?
    Secretary Spellings. I am here saying that we need to 
figure out what problem we are trying to solve. We need to hold 
ourselves accountable for some results. Four years ago, through 
No Child Left Behind, we said we wanted every child reading and 
doing math on grade level. The President has called to include 
science as those measurements.
    And I am simply suggesting, and this is certainly what is 
at issue in the Academic Competitiveness Council, that we take 
a careful and thoughtful look at those programs and see, are 
they aligned to what we have said we are going to do as a 
country? Do we have measurement systems that suggest that? 
Those things are complementary, and I don't think we know that, 
I don't think we have done an analysis of it.
    The chairman talked about programs that were in this 
jurisdiction, and, certainly, Secretary Chao's and my are, but 
many programs exist that are not in the jurisdiction of this 
committee.
    Mr. Norwood. Well, madam, should we do that first before we 
spend this gigantic amount of money that is going to solve the 
problem?
    Secretary Spellings. Well, sir, I think we can do both of 
those things, because I think we do know some scalable----
    Mr. Norwood. We haven't done it in the 12 years I have been 
here.
    Secretary Spellings. When we support scalable models that 
are already accepted in schools and districts, like advanced 
placement, where we have high standards, accountability and 
measurement, and when we take those to a greater scale, I think 
we can do those things now, kind of, what Oprah says, ``What we 
know for sure,'' we can do that.
    But you are right, we need to take a look at what we are 
already doing and figure out what works and what doesn't.
    Mr. Norwood. Can you get rid of them as the secretary or 
does it take an act of Congress to get rid of wasteful programs 
that obviously don't help in math and science but spend 
millions and billions?
    Secretary Spellings. There are 207 programs, 13 different 
agencies. Obviously, I would think there would be some 
latitude, I would think minimal latitude within the 
jurisdiction of those agencies. But I would suspect that it 
takes an act of Congress to get a handle on these.
    Mr. Norwood. That is scary.
    Secretary Spellings. Yes, sir. No comment.
    Mr. Norwood. The act of Congress has not done very well in 
getting rid of programs.
    Ms. Chao, you wanted to respond?
    Secretary Chao. I just wanted to clarify one thing. The 
workforce investment system is very devolved, it is a very 
decentralized system as well. So, basically, as Secretary 
Spellings mentioned, it is on a formula basis as well.
    Basically, Washington, D.C. keeps less than 5 percent, on 
average, with all of these different programs, and then it goes 
to the state. The Governor keeps about 15 to 35. It varies 
according to the different programs. And the majority of the 
funds goes down to the communities. So it is a very 
decentralized, a very devolved system.
    Mr. Norwood. Well, thank you, Mr. Chairman.
    Let me just say about my nerd friend that left, I wish he 
was still here, who pointed out we need to keep all those 
programs. That is a fast way for this not to get funded. I 
suggest you get in there and get rid of these wasteful programs 
that don't work. And people like me are going to take the 
assumption you are right about what you are doing and your 
efforts are correct and we will want to fund it. But you are 
going to have to get rid of the waste in there before you are 
going to, I think, get the act of Congress you need.
    Thank you, Mr. Chairman.
    Secretary Spellings. Congressman, we have four of the 207 
programs at the Department of Education. You asked for a 
specific number; it is four.
    Mr. Norwood. Thank you for that.
    Chairman Mckeon. That is one of the problems we looked at 
years ago, that the vast majority of the education programs 
come under 39 other bureaucracies, not the Department of 
Education. So while we talk about education like it is all 
within the scope of this committee, most of the programs are 
outside the scope, and that really makes it tough. But we can 
focus on the ones we have and make them better, and that is 
what we are going to do.
    Mr. Davis?
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman, 
and let me congratulate you on having the responsibility for 
helping move America toward solutions to some of what I 
consider to be its most serious and severe challenges.
    Let me thank both of you for coming.
    And, Secretary Spellings, it was good to see you in Chicago 
a couple of weeks ago. I want to personally thank you for all 
that you have done to assist the Chicago public schools and 
especially with our efforts to improve reading. And so we thank 
you so much.
    As I was listening to the testimony, and as I have listened 
to the questions, I am concerned that there still exists a 
tremendous amount of disparity between different population 
groups relative to the ability to help become a part of the 
competitiveness that we need to have. And especially am I 
concerned about the fact that African-American males are 
seriously behind many other population groups relative to 
preparation in math and science, relative to achieving high 
education.
    Is there anything in the initiative that would specifically 
seek to help address that issue?
    Secretary Spellings. Well, I agree with you completely, and 
I think that that data, the underperformance of that population 
is being unmasked because of No Child Left Behind all around 
the country. And so I think the first priority is to get out of 
denial about the fact that that exists.
    You heard me talk about the rationing of opportunity that 
we see in many of our high schools. The 40 percent of the high 
schools that don't offer advanced placement, I bet you could 
probably predict what high schools in Chicago those are.
    And so I think that is the first place we go as we start to 
get teachers, existing teachers who are, in many cases, not at 
their preference or election, teaching out of field. They are a 
biology teacher teaching math or vice versa, or a social 
studies teacher teaching math. And we need to upgrade those 
skills strategically in the places that need to have those core 
competencies most.
    I think as part of the Highly Qualified Teacher Initiative, 
the first place I am going to look in my discussions with 
states about enforcing that provision is, do you have your most 
effective people in your most challenging environments or vice 
versa? As you know, it frequently works just the opposite. And 
so I think there are some policy tools that we have at No Child 
Left Behind, and I intend to use them around that issue.
    Mr. Davis of Illinois. Let me just appreciate that and also 
say that I am absolutely convinced that one of the reasons that 
we see such high dropout rates among minority males is that 
many of them, during the early stages of their development, 
don't see or come into contact with a single individual that 
they consider to be the same as they; that is, they don't see 
any male teachers in early childhood education who are African-
Americans or in many instances Latino. And so by the time they 
get to 3rd or 4th grade, I think many of them have already 
decided that education is not really for them, that it is a 
female, girl kind of thing.
    And I would especially like for us to take a look and put 
some focus in that area to see whether or not there may be some 
weight to change that situation.
    And, Secretary Chao, one population group that I am 
concerned about is the 700,000 or so people who return home 
from jails and prisons each year. I think there is a lot of 
talent in that group. Are there any specific things that we are 
doing or can do that can help make use of some of all this 
talent that oftentimes is going wasted?
    Secretary Chao. This is an issue that we have been 
concerned about; we share your concern about that. We have been 
addressing this issue through the Faith-Based and Community 
Organizations Initiative. We were among the very first of any 
other departments to understand that for former incarcerated 
individuals, when they return to the community, they recidivism 
rate is much lower if the community adopted a holistic 
approach.
    And so we partnered through Ready for Work Initiative with 
other community organizations that can provide the support and 
that formed a partnership with the training infrastructure 
within a community to ensure that, again, the focus of the 
programs is on the individual and that the individual doesn't 
have to go to so many different agencies and try to find out 
what programs are available.
    But that the individual remains a focus. The services are 
arrayed around the individual and that there are also social 
support systems including important community institutions, 
like the church, in some instances, to help the individual. 
That is a program that holds, we think, at this point, good 
promise. We are still in the process of assessing the 
performance measurements, but we are very concerned about that 
as well.
    Mr. Davis of Illinois. Thank you very much.
    And thank you, Mr. Chairman.
    Chairman Mckeon. Thank you.
    Mr. Keller?
    Mr. Keller. Thank you, Mr. Chairman.
    My first question is for Secretary Chao about the Career 
Advancement Accounts. I agree with so much of what you said, 
this is America, and it is great to have the flexibility of 
people to use the $3,000 to be trained in what they want to do. 
That only makes sense. You are going to be better at something 
you want to do as well.
    I like the idea that states have some flexibility too.
    I have two caveats and concerns that I want to share with 
you, and that is, one, I think part of that $3,000 should be 
held back as an incentive to give to whatever vendor does the 
training to place the person into a job that they stay. The 
other caveat is I think there needs to be a need demonstrated 
for those particular jobs.
    This is one of those rare instances where I actually have a 
little experience in this issue. Twenty years ago, my first job 
out of college before I went to law school was working for a 
vendor that trained people to be photocopier technicians just 
outside New York City. And you remember the old Job Training 
Partnership Act. And the way it worked in this particular 
company is we would train someone in a 6-week program to be a 
photocopier technician, and then we would place them with a 
company like IBM or Canon or Xerox, and we would get $1,500 for 
training the person but we wouldn't get the remaining $1,500 
until they were placed in a job for 30 days.
    And that was my job, to make sure they were placed. And it 
was a powerful incentive to make sure all those people were 
placed. So we had a training program in New York City. I could 
get all 20 kids in my class placed right away. I supervise one 
in a small town of Kentucky called, Elizabethtown where they 
had pretty high unemployment, but much to my chagrin after all 
these 20 people were graduated, only two people could be hired 
in Elizabethtown because there just wasn't a need.
    So because they have that incentive of $1,500 getting 
placed, I called every single company in Lexington and 
Louisville and got all those people jobs. If we didn't have 
that financial inventive, I don't know that those calls would 
have been. And so I think it is worthwhile making sure that 
there is a placement incentive and that there is a need in 
terms of the flexibility that you give to folks.
    And I just want to hear your thoughts about those concepts, 
as you develop your criteria for who gets the $3,000 and how it 
could be spent.
    Secretary Chao. Well, the $3,000 will be available to 
eligible workers. That would include dislocated, unemployed and 
potential incumbent workers as well. This initiative now will 
not have that financial incentive at the end, but it will be 
extendable for 2 years.
    We want to let the worker have just a greater choice and 
greater control over their own training, because what we have 
found is in an HMO system we are dictating what courses are 
available, and sometimes the workers may not appreciate that.
    Mr. Keller. I appreciate your frank answer. So there won't 
be a financial incentive for placement. If you don't have that, 
the next best thing is to make whoever is providing the 
training give you some sort of evidence that those jobs are 
actually needed.
    For example, if you were to have a program in Orlando, 
Florida training people to be photocopier technicians, we could 
place them all pretty easily. It is a rapidly growing area, it 
is a service industry. If, however, some creative vendor 
developed a program to train people how to repair snow skis, I 
guarantee you we wouldn't be able to place any. And so I think 
there needs to be some sort of common sense criteria that a job 
is needed, wouldn't you agree?
    Secretary Chao. Yes. And we do have performance 
evaluations, but your words are another reminder to us that we 
really need to measure performance.
    Mr. Keller. Right.
    Secretary Chao. But we do measure on placement, on 
retention and on income.
    Mr. Keller. OK.
    Secretary Chao. So your words are, again, a good reminder 
to us all.
    Mr. Keller. Well, thank you, Secretary Chao.
    Secretary Spellings, I just want to ask you about the SMART 
Grant Program that we have now authorized and funded. My 
question is about the criteria. Can you give us a sense--and I 
know you are still working on it--for example, roughly, what a 
high school student would need? Would you need 3 years of math? 
Would you need to pass an AP calculus class? What is it looking 
like in terms of the eligibility?
    Secretary Spellings. We are looking at exploring all those 
things. As you know, that passed fairly recently. We are 
putting the finishing touches on our discussions about that 
internally, because, obviously, we want to make sure that 
students have access to this aid.
    As you are well aware, only about half of the states have 
designated what they consider to be a college-ready, rigorous 
type curriculum, and only 14 states participate in the State 
Scholars Program that is 4 years of math, 4 years of science, 2 
years of foreign language and the like.
    And so we have a disconnect between the need for financial 
aid and what is currently being offered in our schools. 
Coursework, obviously, will be one of them, but we are looking 
at advanced placement scores and other indicators that might be 
available for students as well as not just students in public 
school systems but students who are in private schools or home 
schooled, who don't particularly have access to a state-
prescribed type curriculum. Those students are currently 
eligible for Pell aid, and we want to keep it that way.
    Mr. Keller. Would you expect the students this fall would 
have the criteria by then to be able to get some of the money?
    Secretary Spellings. Yes, sir; I do.
    Mr. Keller. Thank you.
    Mr. Chairman, I yield back.
    Chairman Mckeon. Thank you very much.
    Mrs. McCarthy?
    Mrs. McCarthy. Thank you, Mr. Chairman, and, again, it is a 
pleasure to be working with you as the new chairman of our 
committee.
    Thank you, Secretary Chao and Secretary Spellings. It has 
been, actually, really, I think, a good hearing for all of us.
    I guess where I want to go is obviously the achievement 
gap. From Kindergarten through college, we know that we are 
seeing with our young people that too many of our young people 
are beginning life with a disadvantage and they are. We have 
made progress, and I have seen that in my own schools, and I am 
happy to report on that.
    But research and our progress so far show that people can 
and must achieve at a higher level. So I support a lot of the 
things that we have been doing.
    You know, we talk about global economy and we talk about 
how global economy is shipping jobs offshore. Well, the 
chairman and I went to China and what we saw there through the 
educational system, where China, I believe, has 1.3 billion 
people, so they can take the best of the best and make sure 
they are educated, but they are also now going into the 
outskirts to making sure that those children even in the 
outskirts are getting the best education.
    So from reports that we have looked at, by the year 2020, 
if we don't keep up with the global educational system, 14 
million jobs are going to go unwanted here in this country 
because we are not going to have skilled workers.
    In New York, last November, we knew the critical shortages 
that we were going to be facing, so, basically, they pulled 
together a Board of Regions and had an educational summit. And 
just by a little bit of research we saw that going back about 
16 years ago President Bush I had an educational summit, and it 
actually ended up being a great success. The only thing is that 
back then it included Governors, educators. In New York, we 
brought the business community in, which I think is extremely 
important.
    And when you talk about the Academic Competitiveness 
Council, which I think is a terrific idea, I notice that those 
that are taking part in it there are no business people in it. 
And if we are going to be competitive, the business people have 
to be part of the whole program.
    So I guess, basically, on the background of the New York 
summit, they concluded that they had to focus on three areas: 
Early childhood education, redesigning high school model and 
higher education, obviously. And I think it is something that 
we should talk about, and I didn't know whether I would get a 
chance to get ask you the question, but would you be interested 
in trying to pull together--and I happen to think Department of 
Labor and Education have to work together on trying to bring 
this up to the President that we should be looking at education 
as a global fight that we are going to have to have for our 
young people, certainly.
    And I also think when looking at remodeling our high 
schools and how we teach, to keep our young people in school is 
more important. Schools, basically--basically--have not changed 
since I went to school. Yes, you have got some computers in 
there, but as far as the teaching methods and everything else, 
that hasn't changed a lot.
    And I think when we see our young people on computers, from 
my 5-year-old granddaughter who is a whiz at it, we need to 
look at that and how we can incorporate that.
    So I am actually hoping that you might be looking to see if 
we could have an academic summit. But, again, the business 
people have to be in on it, because we have found in Long 
Island that if we don't bring the business people in when we 
are looking at changing courses, the jobs our young people are 
being trained for, there weren't any jobs. So we have to look 
at that.
    With that, I will say one more thing: health care. We still 
have a tremendous shortage of people in the health care world. 
We have done a better job bringing nurses but now we are seeing 
a real shortage of professors to be able to teach young people 
that want to go into nursing or those that are looking at 
career changes to go into nursing. So we need to really look 
into that very seriously, because now we actually have more 
applicants going into nursing and other health care fields and 
not enough professors.
    So with that, I will leave it, and listen to your answer.
    Secretary Chao. Congresswoman, thank you so much for your 
words.
    You are absolutely right about health care. Health care is 
one of the high-growth sectors, and it is a focus of the High-
Growth Job Training Initiative. We need about 3.4 million 
health care workers in the next 8 years, and we need about a 
million nurses in the next 8 years. I know that you were 
involved in the Nurses Reinvestment Act. We continue to be very 
focused on that.
    We have been working with institutions to ensure that there 
are innovative and creative ways to increase the supply of 
nurses and the capacity constraint, the bottleneck, in teaching 
facilities. It is one that we are trying to adjust through 
community colleges, which is why the second initiative, the 
Community College Training Initiative, is important, because we 
are trying to increase the capacity of community colleges to 
help and be part of the workforce development system for 
training because community colleges do a great job.
    The third point about including employers, we realize that 
shortfall in our system, and we are trying to make a more 
demand-driven system so that the training that we are advising 
people to get will be more reflective of the skills that are 
needed in the community.
    Thank you.
    Secretary Spellings. Congresswoman, let me just add quickly 
that the Academic Competitiveness Council was created by statue 
as part of the Deficit Reduction Act with the sole charge of 
inventorying Federal programs and describing the nature of 
them, the effectiveness of them.
    Having said that, of course I completely agree with you, 
the ``Rising Above the Gathering Storm'' report that included 
Norm Augustine, Craig Barrett, the National Governors 
Association last year made this the focus of their meeting, 
Bill Gates, I participated. And so where I go around the 
country the places that are on the move in education reform and 
closing the achievement gap are the places that have very 
strategically involved their business communities.
    And we can and should do more of that at the Federal level, 
but I evangelize about that all the time in states as well, 
because they the consumers and they are the drivers of smart 
policy and good reform.
    Mrs. McCarthy. I thank you, and I hope that you would look 
into having a summit, because I think it is something that can 
be done, and I think you see an awful lot of people out there 
would want to be involved in it, because it is basically the 
business community that is going to suffer in the end.
    Chairman Mckeon. Thank you. We have been called to vote, 
and I think we have about 8 minutes left.
    I would like to ask Mr. Osborne to take his questions now, 
and I know the secretaries need to leave at noon and we do have 
two votes. So what we will do after Mr. Osborne's questions, we 
will thank the first panel and secretaries and then we will 
adjourn until the end of the second vote.
    Mr. Osborne?
    Mr. Osborne. Thank you, Mr. Chairman.
    Thank you both for being here today. It is a pleasure to 
listen to you. There has been quite a bit of reaction to the 
comments regarding silos, areas within the department that 
sometimes are not very adequately funded, maybe some 
duplication, and I just want to call attention to the fact that 
we did pass a bill in the House called, the Federal Youth 
Coordination Act, and it currently has not been able to move in 
the Senate to this point.
    What we have done is we have identified 150, 200 programs, 
much as you said, spread over 13 agencies, and the problem we 
are running into is that each agency says, ``Well, we are doing 
a good job,'' but the problem is that there is no across-agency 
communication.
    And so what this legislation does it requires members of 
each of the 13 agencies to have one or two representatives to 
meet on a Youth Coordinating Council, meet four times a year 
and do three things: No. 1, to make sure that each program is 
accomplishing its mission; in other words, there is something 
called mission creep where there is authorizing legislation and 
oftentimes the program is strayed far afield from what it was 
intended to do.
    No. 2, is there duplication? Is the program in Labor or 
Justice replicating and duplicating something in Education?
    And then, No. 3, are there measurable, quantifiable goals? 
Because what we find so often in government programs is there 
is really no way of assessing whether this really is working or 
not. And so we think this is really a good piece of legislation 
and this involves billions of dollars.
    And it is not just a matter of saving money, it is a matter 
of more effectively reaching young people. And some of these 
are programs that have to do with mentoring, some have to do 
with education, some have to do with foster care. And this is 
endorsed by almost every youth-serving agency in the country 
have endorsed this legislation.
    But we are having a little bit of trouble getting push from 
the administration, because every department is saying, ``We 
are doing a good job,'' but we need coordination across 
departments.
    That is more of a speech than a question, but I would 
appreciate any reaction that you might have, whether you think 
something like this would be workable. Because we think unless 
we have an overarching coordinating committee that we are not 
going to really get the results that we need.
    Secretary Spellings. Let me just quickly add that I think 
those three things that you named are certainly laudable goals. 
One thing that seems to me that is missing is I don't think we 
have a clear understanding, because these programs have grown 
up over time, of what is the problem we are trying to solve.
    Let's just use this competitiveness in education thing. Are 
we more concerned about the half of the minority students who 
don't get out of high school and don't have the necessary 
skills to be either employed or successful in college or are we 
more concerned about those Ph.D. fellows in nanotechnology who 
may or may not flee this country, go back home, whatever?
    And I think those are all worthy programs and goals, but 
among the things, have we set our resources around our 
priorities or have we described them to each other as to what 
is most critical?
    Mr. Osborne. That is a good point.
    Secretary Chao, do you have any comment or reflection?
    Secretary Chao. It is always a challenge to ensure that 
there is no duplicative services within the Federal Government, 
but it is certainly something that we try to keep in mind and a 
goal that we try to achieve.
    Mr. Osborne. Thank you. The only reason I bring it up is 
you both have authority and you have influence, and anything 
you can do within the administration to maybe give this a push, 
I think many youth-serving organizations would really 
appreciate it, and I think it would be a good model that would 
be workable.
    I yield back, Mr. Chairman.
    Chairman Mckeon. Thank you. We just have a couple minutes 
left on the vote, so I am going to thank the secretaries for 
being here; really appreciate it. It is just this is a thing we 
live with. And we will recess until 12:30, so the next panel, 
you have time to grab a sandwich or something because it will 
probably be a long afternoon.
    But thank you very much. And Mr. Holt does want to ask you 
a question and then he will submit it for the record.
    We will now stand in recess till 12:30.
    [Recess.]
    Mr. Kline [presiding]. We invite our next panel of 
witnesses to take their seats. And I would like now to 
introduce our distinguished panel.
    First is Mr. James W. Jarrett, vice president of Legal and 
Government Affairs and director of Worldwide Government Affairs 
for the Intel Corporation. Prior to his current position, Mr. 
Jarrett was president of Intel China. He joined Intel in 1979 
as the company's first manage of Corporate Communications and 
was named a vice president in 1987. Prior to Intel, he worked 
for two New York-based communications counseling firms and 
served with the U.S. Army at the U.S. Military Academy.
    Mr. Wes Jurey was appointed president and CEO of the 
Arlington Chamber of Commerce, October 1, 2001, having 
previously served as president and CEO of the Greater El Paso 
Chamber of Commerce since 1990. He is active in the U.S. 
Chamber of Commerce, serving as chairman of the Board of the 
Center for Workforce Preparation and serves on the U.S. 
Chambers Education, Employment and Training Committee.
    His career in non-profit management began in 1968 and 
includes the Methodist Church, the Oklahoma Department of 
Institutions, the YMCA, the Boy Scouts of America and Chambers 
of Commerce.
    And I think you wanted to--I would like to yield now to Mr. 
Bishop to introduce the third member of our panel.
    Mr. Bishop. Thank you, Mr. Chairman.
    I am honored to introduce one of my constituents, one of 
the brightest minds in this country and one of the most 
enlightened and committed and generous members of our 
community, Dr. James Simons. Dr. Simons is the president of 
Renaissance Technology, which is a highly successful investment 
firm.
    And prior to founding that firm, Dr. Simons served as the 
chairman of the mathematics department at Stony Brook 
University and taught math at both Massachusetts Institute of 
Technology and at Harvard University. He is the founder and 
chairman of Math for America, a non-profit organization that 
seeks to improve math education in American schools. And Dr. 
Simons also manages the Simons Foundation, a charity devoted to 
promoting scientific research.
    And if I may just point out one example of Dr. Simons' 
commitment to scientific research. We have in our district a 
Federal Department of Energy Lab, Brookhaven National 
Laboratory, which has a cutting-edge piece of analytical 
equipment called, the RHIC, the Relativistic Heavy Ion 
Collider. The fiscal 2006 budget for the lab did not provide 
funds for it to operate. This is approximately a billion dollar 
piece of apparatus that would have lie dormant for a year 
because we didn't have operational funds for it.
    And Jim and several of his business associates donated and 
raised the $13 million necessary for it to operate this year. 
So that very important scientific research will go forward 
thanks to the generosity of Dr. Simons.
    So I am pleased to introduce him, and I am looking forward 
to his testimony.
    Mr. Kline. I thank the gentleman for his introduction and 
for all of our witnesses today for their presence.
    Before we begin with your talks, I would like to say that 
any of your prepared remarks will, without objection, be 
entered into the record. Feel free to summarize as you see fit. 
We would like to, if you can, try to limit your remarks to 
around 5 minutes or so, and then when my colleagues and I begin 
questions, we will adhere to the 5-minute clock.
    And with that, I guess, Mr. Jarrett, are you first up? You 
have the floor, sir.

     STATEMENT OF JAMES JARRETT, VICE PRESIDENT, WORLDWIDE 
                GOVERNMENT AFFAIRS, INTEL CORP.

    Mr. Jarrett. Thank you for inviting me to testify today.
    The issue you are addressing is a multifaceted one. It 
deals with a lot of different policy areas, but what I want to 
focus on is two topics: education and immigration.
    And starting with education, if we are looking at education 
reform, it really has to begin with one basic thing and that is 
to improve the math and science foundation for our students in 
the United States. Math and science are really the 
indispensable building blocks for having a competitive society 
in the 21st century.
    Unfortunately, as I think you are all very aware, when we 
compare ourselves to other developed nations, the results are 
not real good. U.S. secondary school students ranked 19th in 
math achievement and 18th in science achievement, according to 
one poll. And there are other statistics that are just as 
disturbing.
    If you look at it just from a quantitative standpoint, in 
the year 2000, just 11 percent of American bachelor's degrees 
were in physical sciences or engineering, and that simply 
really isn't competitive when you compare it with the world 
average, which is 23 percent, and if you look at China, it is 
50 percent.
    So it shouldn't be a surprise that about half of the 
advanced engineering degrees granted in the United States are 
going to foreign nationals because they are there and can fill 
those slots.
    So there is really no way to remedy this situation without 
seriously rethinking and dramatically improving our math and 
science education. And we have to do this from the earliest 
grades up.
    We think we need to be pretty bold in our prescriptions. We 
are going to need much better training for math and science 
teachers and that has to be an immediate program and long-term 
commitment. And we will need to pay teachers competitive 
salaries to attract the most gifted educators.
    We need to get rid of the bureaucratic and other 
impediments that keep qualified people who want to teach as a 
second career out of education.
    In that regard, we are excited about the proposals from the 
administration on adjunct teachers and the Math Now Programs. 
These two programs will really help to get more qualified math 
teachers in the classroom, both in the short term and the long 
term.
    Most important, we think we need to stop tolerating 
mediocrity. We have schools that have consistently demonstrated 
how to raise math and science standards, and we ought to learn 
from them and then figure out how to replicate that across the 
country.
    In addition, there are some initiatives that are 
demonstrating success with both teacher content and student 
achievement. For example, the Vermont Mathematics Initiative 
focuses on building the mathematical content knowledge of 
elementary and middle school teachers throughout the state of 
Vermont.
    Intel is funding the development of an 80-hour curriculum 
for teacher professional development that builds on the VMI 
experience. It is our intent to make this curriculum available 
to teachers throughout the United States.
    None of what we are looking at doing is going to be easy. 
It requires reexamining a lot of entrenched notions about 
public education. Unless we start restructuring public 
education around better math and science, we think America's 
competitiveness is going to falter.
    Immigration policy is the second issue I want to raise with 
you. Border security and illegal immigration rightly concern 
all Americans and it has been very much headline news these 
last few weeks.
    There is another side to the problem that has gotten lost 
in the current debate. We really desperately need more 
immigrants, more legal immigrants or talented students from 
other countries. We need them to fill our graduate schools of 
engineering and then to keep those students here to work and 
build after they graduate.
    But our immigration policies really do nothing to encourage 
the best talent to come and stay. We have far too few H1B 
visas; 65,000 cap just isn't sufficient on an annual basis. At 
Intel, for example, we have had to place qualified foreign 
nationals abroad. Just recently, Intel hired a key systems 
engineer for a position in the United States, and since there 
were no visas available, we had to place that person in an 
offshore laboratory that is owned by Intel.
    So, Mr. Chairman, polices such as these just don't make 
sense. Why should we encourage U.S. companies to send jobs 
overseas?
    In the meantime, we have an enormous backlog of those 
seeking permanent resident status. That backlog constitutes a 
real deterrent to foreign graduates considering whether to 
remain here, particularly now that they have a lot of really 
superb opportunities at home. No country that wants to be the 
greatest competitor in the world can afford to close its doors 
to the world's most promising talent, yet that is precisely 
what we are doing. It makes no sense to invite foreign students 
to study at our universities, subsidize their education and 
then tell them to go home.
    There are, of course, a lot of other drivers in 
competitiveness. There is investing in technology and 
infrastructure, tax policies that encourage research and 
manufacturing, a rational patent system, but I want to urge you 
not to lose sight of the centrality of improving math and 
science education and reforming our immigration system.
    These are urgent needs, and I am pleased, Mr. Chairman, 
that you and your committee have recognized their vital 
contribution to American competitiveness. Thank you.
    [The prepared statement of Mr. Jarrett follows:]

    Prepared Statement of James Jarrett, Vice President, Worldwide 
                    Government Affairs, Intel Corp.

    Mr. Chairman, Members of the Committee, thank you for inviting me 
to testify today. My name is Jim Jarrett and I am Vice President for 
Worldwide Government Affairs at Intel Corp.
    As all of you know, the issues surrounding U.S. competitiveness are 
not entirely new. But today we see them in a remarkable context. In the 
past 15 years, half the world's population--about 3 billion people from 
China, India, Russia and Eastern Europe--has entered the world 
marketplace. This is a change in the global economic landscape without 
precedent. It represents immense opportunities for American companies. 
New markets like this simply don't open every day.
    But it is also clear that these new markets represent a threat--a 
threat to our country's economic and technological leadership. While it 
is true that American companies have faced foreign competition in the 
past, we are now seeing the rise of ambitious, innovative, and 
extremely competitive businesses, especially in Asia. And they have 
these huge, increasingly prosperous populations right on their 
doorstep.
    So how can the United States respond? That is the fundamental 
question at the heart of these hearings, Mr. Chairman. It was also the 
question posed to the Committee on Prospering in the Global Economy of 
the 21st Century, the National Academy of Sciences and National Academy 
of Engineering panel on which our chairman, Craig Barrett, served. The 
Committee offered a number of provocative proposals in its report, 
``Rising Above The Gathering Storm.'' Today I will focus on what I 
believe are the two most urgent needs the report identifies: education 
and immigration reform.
Education
    Let's start with education. It's a huge topic, and I'm sure you 
will be consulting with many experts. But when it comes to 
competitiveness, education reform has to begin with one thing: a 
massive improvement in the math and science foundation we give American 
students.
    Math and science are the indispensable building blocks in a world 
that increasingly depends on innovation, discovery, engineering 
technology, communication, and ideas. That is why every developed 
country is vigorously pursuing math and science education. 
Unfortunately, when compared to other developed countries, U.S. 
secondary school students ranked 19th in math achievement and 18th in 
science achievement.
    Other statistics are even more disturbing: In 2000, just 11 percent 
of American bachelor's degrees were in physical science or engineering. 
That simply isn't competitive. In fact, it is far below the world 
average of 23 percent or China's 50 percent. And consider that 
approximately half of advanced engineering degrees granted in the U.S. 
go to foreign nationals.
    There is no way to remedy this situation without seriously 
rethinking and dramatically improving our math and science education. 
We have to do this from the earliest grades on up.
    I'm not saying anything you haven't heard before. This has been a 
long-standing concern of many of the members of this Committee and 
everyone who has been engaged in promoting greater American 
competitiveness. But the transformation in the global economy has made 
this more pressing than ever.
    We need to be bold in our prescriptions. Math and science teachers 
will need far better training than they receive now. This has to be 
both an immediate program and long-term commitment. We will need to pay 
teachers competitive salaries that attract the most gifted educators. 
We need to get rid of bureaucratic and other barriers to qualified 
people who want to teach as a ``second career.'' In that regard, we are 
excited about the proposals from the Administration on adjunct teachers 
and the Math Now. These two programs will help to get more qualified 
math teachers in the classroom both in the short term and long term.
    Most important, we will need to stop tolerating mediocrity. We 
have, in this country, schools that have consistently demonstrated how 
to raise math and science standards. We ought to learn from them--and 
then figure out how to replicate their success across the country. 
These schools have some very clear identifiable characteristics like 
dedicated qualified teachers, consistent school leadership and high 
expectation for all students. In addition, there are also some 
initiatives that are demonstrating success with both teacher content 
and student achievement such as that of the Education Development 
Center (EDC) as well as the Vermont Mathematics Initiative (VMI). EDC's 
national program provides professional development for teachers and 
school leadership in math for enhancing content and pedagogical 
knowledge. VMI's program focuses on building the mathematical content 
knowledge of elementary and middle school teachers throughout the State 
of Vermont. Intel is funding the development of an 80-hour curriculum 
for teacher professional development building on the VMI experience. It 
is our intent to make this curriculum available to teachers throughout 
the US--giving them a solid grounding in mathematics themselves, which 
current data demonstrate translates into greater confidence, enthusiasm 
and learning for their students.
    None of this is easy. It requires re-examining a lot of entrenched 
notions about public education. But unless we start restructuring 
public education around better math and science, America's 
competitiveness is going to falter.
Immigration
    Unfortunately, our problems with competitiveness in education are 
aggravated by our immigration policies--the second issue I want to 
raise with you. Border security and illegal immigration rightly concern 
all Americans. But there is another side to the problem that has gotten 
lost in the current debate.: we desperately need more immigrants * * * 
immigrants who are talented students from other countries. We need them 
to fill our graduate schools of engineering--and then to keep those 
students here to work and build after they graduate.
    Yet our immigration policies do nothing to encourage the best 
talent to come and to stay. To begin with, we offer far too few H1B 
visas to meet our needs. The current cap of 65,000 foreign engineers 
and scientists who may enter and work in the U.S. each year is hardly 
sufficient. In fact, it undermines our competitiveness.
    In the meantime, we have an enormous backlog of those seeking 
permanent resident alien status. That backlog constitutes a real 
deterrent to foreign graduates considering whether to remain here--
particularly now that superb opportunities await them back home.
    No country that wants to be the greatest competitor in the world 
can afford to close its doors to the world's most promising talent. Yet 
that is precisely what we are doing. Intel's Chairman, Craig Barrett 
has often said--only half in jest--that we should staple a green card 
to the diploma of every foreign student who graduates from an advanced 
technical degree program. It makes no sense to invite foreign students 
to study at our universities, to subsidize their educations, and then 
tell them to take the jobs we have trained them to create--and go home.
    There are, of course, other drivers of competitiveness: investing 
in technology and infrastructure; tax policies that encourage research 
and manufacturing; and a more rational, well-financed patent system. 
But I want to urge you not to lose sight of the centrality of improving 
math and science education and reforming our immigration system. These 
are urgent needs and I'm pleased, Mr. Chairman, that you have 
recognized their vital contribution to American competitiveness.
    Thank you.
                                 ______
                                 
    Mr. Kline. Thank you, sir.
    Mr. Jurey?

   STATEMENT OF WES JUREY, PRESIDENT AND CEO, ARLINGTON, TX, 
                      CHAMBER OF COMMERCE

    Mr. Jurey. Mr. Chairman and members of the committee and my 
distinguished panel, thank you for the opportunity to testify 
before the committee on this important issue. I am Wes Jurey, 
president and CEO of the Arlington, Texas Chamber of Commerce, 
here representing the U.S. Chamber in my capacity as chairman 
of the Board of Directors of the Center for Workforce 
Preparation.
    At the outset, we want to recognize the importance of a 
skilled workforce, the demand for knowledge workers, the 
expectation of lifelong learning and certainly echo the 
thoughts that math and science are critical, leading to the 
engineering and technology backgrounds that we are going to 
need. It is one of the reasons we have supported tapping 
America's potential to double science, engineering, math and 
technology graduates by 2015.
    It is also why we generally support America's 
Competitiveness Initiative because we recognize the shortage of 
workers, the aging baby boomers and the declining demographics 
demand that we think very creatively and innovatively. And that 
is why we have entered into a partnership with the AARP to 
focus more on how we retain our aging but knowledgeable 
workers.
    We do support the premise the Department of Labor has taken 
that we really do need and employer-responsive, employer-led, 
demand-driven, publicly funded system, and that comes from a 
partnership between business, education, the publicly funded 
system.
    I am currently personally engaged with the Department of 
Education and the Department of Labor as they role out their 
new institute in which they are engaged in communities across 
America in supporting the creation of those kinds of strategic 
partnerships, and I think that program has merit.
    I think we have got to recognize that we won the cold war 
and in the process and in the process created 3 billion new 
competitors for the world's resources and markets, and that is 
not been true in my lifetime until recently. In a document 
embracing the global demographic transformation, the late 
George Kozmetsky made note of the fact that 12 percent of the 
world's population controls and lives on 88 percent of the 
world's wealth, and those are all people in countries with 
projected declining populations through 2050.
    That also means that 88 percent of the world's people are 
subsisting on 12 percent of the world's wealth, and they are 
all in those countries that we are now competing with, and they 
are all projected to have significant population increases 
through 2050.
    If we recognize that most of the world's natural resources 
are abroad and most of the world's people are abroad, we still 
have the technology and capital and have to focus on how that 
market niche can be improved. Because in coming decades, and it 
is already nearly here, the majority of the consumer population 
will live somewhere else, and our challenge will be a workforce 
that can become both trading partners and friendly competitors 
to those other countries.
    What are we doing about it? Well, the Center for Workforce 
Preparation is deeply engaged in looking at those kinds of 
models that can lead to systemic change based on strategic 
partnerships, while the Business Education Network is involving 
the corporate philanthropy community in ways in which they can 
directly and individually impact student performance.
    Our experience to date underscores the need for knowledge 
workers who can think strategically, solve problems, be 
innovative and at the leading edge of the commercialization of 
technology discoveries, and that demands a focus on our 
education and workforce systems, inclusive of public education, 
higher education and the public funded system.
    Let me quickly bring it to the local level. We recognize in 
Arlington, Texas that our University Workforce Board, community 
college and ISD collectively spend $1 billion a year training 
our future workforce. That is $1 billion in one community in 
America.
    And we quickly became focused around working with those 
organizations and industry clusters that were relevant to that 
region, and our goal was very simplistic: That as a partner to 
those institutions, we could help shape the way those dollars 
were spent in ways that would be impactful, both to the worker 
population and to the community.
    But I would remind you again that demands strategic 
partnerships, and I applaud the Department of Labor for 
recently incentivizing that. When they announced $250 million 
that would go to community colleges, they also stipulated that 
to apply those colleges had to demonstrate they were part of a 
partnership that engaged business in a meaningful way as well 
as other higher education partners. And as you begin to frame 
the public policy debate around this set of initiatives, I 
would encourage you to think about the things you can do at the 
Federal level that really engender the business community's 
engagement at many levels.
    If you think about the system we have created, there is an 
organizational presence for everybody but the business 
community. They are the only people we recruit one business at 
a time, and we have not thought deeply about the organizations 
that represent them and the role they can play in bringing the 
business community to the table to form those partnerships.
    Thank you, and I look forward to answering any questions 
you may have.
    [The prepared statement of Mr. Jurey follows:]

  Prepared Statement of Wes Jurey, President and CEO, Arlington, TX, 
                          Chamber of Commerce

    Mr. Chairman and members of the Committee, good morning. Thank you 
for the opportunity to testify today before the Committee on the 
subject of ``Building America's Competitiveness'' and its importance to 
our global economy. I am Wes Jurey, President and CEO of the Arlington, 
Texas, Chamber of Commerce. I was previously President and CEO of the 
Greater El Paso Chamber of Commerce.
    I am here today to testify on behalf of the U.S. Chamber of 
Commerce, the world's largest business federation, representing more 
than 3 million businesses and organizations of every size, sector and 
region. The Chamber represents 2,800 state and local chambers of 
commerce and trade associations with membership in all 50 states.
    More than 96 percent of the Chamber's members are small businesses 
with 100 or fewer employees, 71 percent of which have 10 or fewer 
employees. And, virtually all of the nation's largest companies are 
also active members.
    I currently serve as Chairman of the Board of the Center for 
Workforce Preparation, a 501(c)(3) affiliate of the U.S. Chamber of 
Commerce. I am also chair of Workforce Development for the U.S. 
Chamber's Chamber of Commerce Committee of 100 and serve on the U.S. 
Chamber's Education, Employment and Training Policy Committee.
    The U.S. Chamber of Commerce has long recognized the important role 
of quality education and workforce investment in keeping business 
successful and the American economy competitive. We need to ensure that 
all students have a strong academic foundation to meet the workforce 
needs being demanded by employers today and in the future. We must not 
be complacent when all the indicators clearly tell us that our 
education system is not producing enough individuals with the skills 
needed to succeed in the workforce.
    Unless we face our economic competitors and respond dramatically to 
the statistics that say China is graduating more than eight times as 
many engineers as the United States, or that only 51% of our high 
school graduates are ready to handle the reading requirements of a 
typical first-year college course,\1\ then we will be failing our 
students and our workforce now and in the future.
---------------------------------------------------------------------------
    \1\ American College Testing, ``Reading Between the Lines'', March 
2006.
---------------------------------------------------------------------------
    With 80 percent of the fastest-growing occupations of the future 
generally requiring some post-secondary education, the Chamber believes 
our nation's goal must be to prepare our high school graduates to be 
``college ready and workforce ready.'' Many new jobs will require more 
technical skills and a greater understanding of math and science--
subjects in which American students fail to show a suitable level of 
competence or even interest. Several months ago, in response to this 
challenge, the U.S. Chamber, along with other business organizations, 
began an initiative called Tapping America's Potential, which calls for 
the doubling of America's science, technology, engineering and math 
graduates by 2015.
    The Chamber shares a strong commitment to fostering human talent 
and creativity in the U.S. and commends the administration for 
introduction of the American Competitiveness Initiative in the State of 
the Union Address. As we invest in current programs, we must also 
invest in the future by providing greater opportunities for math and 
science education and promising programs that enhance the productivity, 
effectiveness and efficiency of teachers and principals that will 
contribute to the academic achievement of our students. It is crucial 
that our government provide pro-growth and pro-opportunity policies to 
ensure that we maintain our competitive edge.
    At the same time, our economy is facing an ever-increasing shortage 
of workers as the baby boom generation begins to retire. The American 
workforce is aging with no new growth of workers between the ages of 25 
and 54 expected to replace them between now and 2020. In order to defy 
this compelling math of America's changing demographics, we must work 
harder to overcome the stereotypes that older workers face, finding 
ways to retain these valued employees, and providing educational 
opportunities to help them adapt to changing technologies and skill 
demands. Older workers can benefit, in particular, from non-traditional 
post-secondary educational opportunities offered by proprietary higher 
education schools. These schools are one of the most effective ways for 
working adults to pursue lifelong learning, improve their skills, and 
continue to be valuable contributors to economic growth. According to a 
recent analysis by BusinessWeek, the increased productivity of older 
Americans and higher labor-force participation could add 9% to our 
gross domestic product by 2045. This 9% increase in gross domestic 
product would add more than $3 trillion a year, in today's dollar, to 
our economic output.\2\
---------------------------------------------------------------------------
    \2\ BusinessWeek, June 2005.
---------------------------------------------------------------------------
    The U.S. Chamber is already committed to educating employers on 
ways to hire and retain workers age 50 and older. Through its Center 
for Workforce Preparation and in partnership with AARP, it will conduct 
four regional, one-day employer training workshops, to be held at metro 
and regional chambers across the country to provide solutions to assist 
employers in this endeavor.
    In the knowledge-based, global economy of the 21st century, the 
U.S. Chamber believes that, working together, educators, business, and 
government at all levels can do better. The U.S. Chamber's 2006 
education and workforce agenda is built around creating a more 
competitive American economy. It begins with recognition that America's 
place in the world is not a birthright. It was earned through the hard 
work, sacrifice, risk taking and innovation of our people and our 
businesses. Only by fully tapping these great American qualities and 
through policies that expand the workforce and restore excellence in 
education and science will our global competitiveness continue in the 
21st century and beyond.
    The U.S. Chamber is currently involved in a number of specific 
education and workforce-related efforts to ensure that businesses have 
access to a highly skilled and qualified labor pool. The U.S. Chamber 
of Commerce's Center for Workforce Preparation (CWP)-in partnerships 
with local chambers, businesses, government, other workforce 
development organizations-has been instrumental in defining and 
demonstrating the unique role of local chambers in workforce 
development and education. CWP's goals include building replicable and 
sustainable workforce development models; conducting and supporting 
research to develop more diverse and productive workplaces; and, 
developing and showcasing effective workforce and education 
initiatives.
    The U.S. Chamber also is using its resources to spur local action. 
We organized the Business Education Network (BEN) whose goal is to 
build business and education partnerships that improve competitiveness 
and academic achievement. Through BEN, the latest developments in the 
areas of math and science and other curriculum content, educator 
development and partnership effectiveness and accountability are shared 
with the business and education community.
    The U.S. Chamber of Commerce's network of state and local chambers 
and our corporate members can be the vehicle through which community 
solutions to the education and workforce challenge may be developed and 
shared. We will attempt to bridge the needs of local employers with 
educational institutions, including community colleges, schools using 
the latest in on-line technology, and various state and federal 
government-funded workforce programs. Our efforts will take place in 
many arenas and will utilize many techniques in order to create the 
momentum to make education reform and workforce readiness a national 
priority. The U.S. Chamber of Commerce's federation of state and local 
chambers and associations along with our member companies can be the 
``voice of business'' through which solutions to the education and 
workforce challenge can be implemented and shared.
    A Local Solution--The Arlington, TX, Chamber Workforce Model
    Now, I'd like to highlight how Arlington, TX, through the 
leadership of the Arlington Chamber of Commerce, is positioning our 
community to be globally competitive through 4-5 general areas in which 
we have been active. While interrelated, I'd like to discuss these 
separately.
    For the past 60 years, the Arlington Chamber has represented the 
interests of local businesses, including the more than 1,300 current 
members who employ 60,000 individuals in Arlington. The chamber serves 
as the primary catalyst for Arlington's economic development, fostering 
a positive business environment through the enhancement and 
diversification of the community's economic base, representing business 
on public policy and community issues that impact the ability of 
Arlington citizens and businesses to reach their full economic 
potential.
    For the Arlington Chamber, the acquisition, development and 
retention of a quality workforce remains the number one issue for our 
local businesses. Education and workforce development provides the 
infrastructure for all of our efforts to serve the business community 
with its human capital issues. Other examples of the Arlington Chamber 
working in partnership with the community are worth noting. For 
example:
    <bullet> We created the Education & Workforce Development Council. 
The mission of the Council is to ``Build a quality employer's workforce 
by linking together resources that meet workforce acquisition, 
development and retention requirements.''
    <bullet> We created Team Arlington(tm) which is a Chamber-led 
coalition that advocates for resources in support of our economic 
issues. Partners include the City of Arlington, University of Texas at 
Arlington, Tarrant County, Tarrant County Community College Southeast, 
Arlington Independent School District, Tarrant County Workforce 
Development Board, and the Arlington Chamber of Commerce; and, City of 
Arlington, and local businesses.
    <bullet> We established the Arlington Technology Incubator, the 
Center for Continuing Education and Workforce Development, the adoption 
of Triple Freeport tax exemption, and the Central Arlington Housing 
Development Corporation.
    As the Arlington Chamber has demonstrated, the business community 
cannot make the changes alone and therefore communities must focus on 
the need to develop and sustain public-private partnerships. 
Relationships must be built at all levels-from the CEO to the frontline 
workers. There must be integration of employers with the K--12 
education, higher education, adult education, publicly-funded 
workforce, and technical education systems to develop systemic change.
    A local chamber of commerce is uniquely positioned to bring 
together workforce development, economic development, and education 
organizations. By working together communities can create new jobs in 
emerging industries while simultaneously tapping into a local workforce 
that is prepared to fill these jobs-ultimately positioning the 
community to compete in the knowledge economy.
    The Arlington Chamber of Commerce was also selected by the U.S. 
Chamber of Commerce's Center for Workforce Preparation for 
participation in the Workforce Innovation Networks (WINs) demonstration 
project. Funding for this project came from the U.S. Department of 
Labor. Workforce Innovation Networks (WINs) is a national multi-year 
initiative that helps chambers of commerce make their local public 
workforce development systems more market-driven and responsive to the 
needs of both employers and workers. The purpose was to demonstrate the 
value of a local chamber of commerce as an effective business 
intermediary for workforce and education services. Employer 
organizations provide a structured, organized framework for employer 
engagement and involvement. Our communities, states and the nation are 
far more competitive when we include business as a full-fledged partner 
in the education, training, and workforce development systems.
    Research by the Arlington (Texas) Chamber of Commerce in 2001 
revealed that approximately $1 billion in public funds is spent each 
year on programs to create, mold, and shape the local workforce. In 
developing a four-year strategic plan, the chamber's employer members 
agreed that influencing how this money would be used was their top 
priority for workforce development. In a community where the 
unemployment rate is historically lower than the national average, 
employers indicated a clear interest in influencing the programs that 
could ultimately help them access qualified workers.
    Representing area employers, the chamber wanted to determine its 
role in developing the local workforce and expanding the area's 
intellectual capital using already-funded programs. The key, the 
chamber decided, was to act as a broker of services by developing 
strategic partnerships with the public workforce system. The impact of 
this work has been considerable, from implementation of an industry 
cluster strategy to addressing the needs of critical-need industries, 
to the creation of the Center for Continuing Education and Workforce 
Development (CCEWD), a collaborative that allows businesses to access a 
range of workforce development services in a single location.
An Industry Cluster Approach
    Fostering the development of industry clusters as a means of 
increasing the region's competitive advantage is a key component of the 
chamber's approach. The industry cluster concept was popularized by 
Harvard Business School professor Michael Porter. Simply put, it refers 
to a concentration of industries that benefit from co-location. The 
chamber works to align a range of factors that support a cluster's 
development including infrastructure, access to capital and technology, 
public policy, and the local workforce. The WINs grant provided the 
chamber with an opportunity to develop a critical-need industry cluster 
that aligned the needs of the workforce system, the educational system, 
and the business community within a sustainable and replicable model.
    Like many cities, one critical-need industry in Arlington is health 
care. Some estimates indicate RN vacancy rates in the region are above 
10 percent. Under the WINs grant, the Arlington Chamber leveraged their 
membership to form the Health Care Industry Cluster which consists of 
health care provider CEOs, health care deans of nearby colleges, local 
school district officials, and the Workforce Development Board. WINs 
funded a series of studies to assess the nursing shortage in Tarrant 
County and increase the capacity of educational programs needed to 
train a future health care workforce.
    The Health Care Industry Cluster agreed on a three-pronged approach 
to address the nursing shortage. First, they focused on increasing 
nurses at the instructional level. Audit data revealed that 
instructional nursing staff are in highest demand, and the top 
contributing factor is lack of funds to pay Master's level nurses to 
become instructors. The cluster engaged students from the University of 
Texas at Arlington (UTA) Graduate Business School to develop a business 
plan highlighting the need and the benefit of having the private sector 
fund additional instructors. Over a dozen hospitals were involved with 
the development of the plan. Work in this area has highlighted the need 
for specific legislative change in how nursing instructors' pay is 
allocated--an issue the chamber is currently working to address.
    The second area of focus for the cluster was to establish 
articulation agreements among educational institutions to better enable 
the nursing educational system to promote workforce development. One 
innovative effort has focused on a pre-RN track at the high school 
level. Backed by support from the mayors of Arlington and Fort Worth, 
the presidents of the Fort Worth and Arlington chambers, three hospital 
CEOs, and the Superintendent of the Arlington Independent School 
District (AISD), the cluster submitted a proposal to Tarrant County 
College (TCC) and the AISD. Officials agreed to develop a Licensed 
Vocational Nursing (LVN) program that would allow Arlington's high 
school juniors and seniors, who are ready to pursue college level 
curricula, to earn dual credit LVN coursework in high school, sit for 
the LVN state exam at the end of their senior year, and then transition 
into the TCC Registered Nursing program. The program is scheduled to 
begin in the fall of 2006.
    The third aspect of the Health Care Industry Cluster's strategy is 
a nursing mentoring program focused on increasing the retention rate of 
nursing students. Graduate students at the UTA Social Work Department 
interviewed deans from nearby colleges and universities and conducted 
student focus-groups to identify the issues associated with the dropout 
rates. From this, a proactive counseling program was created for 
students to discuss their issues and challenges and to intervene before 
the student drops out of a nursing program.
Strategic Partnerships to Benefit Business
    The chamber realized that the local Workforce Investment Board 
(WIB), known as Workforce Solutions, had access to resources that could 
make Arlington's workforce (and therefore, its businesses) more 
competitive. They also knew that local businesses were in the best 
position to effectively shape Workforce Solutions' strategies in 
support of economic growth. However, they faced a challenge in that 
local employers weren't using the publicly-funded system. Employers 
don't care about the public policy of a system they don't use.
    We decided that the best way to engage employers was to act as a 
liaison between chamber members and Workforce Solutions. They had to 
create buy-in among employers and sell the idea of Workforce Solutions' 
services. With funding from WINs, the two organizations developed a 
strategic partnership under which the chamber would implement employer 
outreach and help make the WIB demand driven. We needed to first focus 
on demand so that the supply side had a place to go.
    Under the terms of the partnership agreement, Workforce Solutions 
committed to provide all necessary information about the resources the 
workforce system has available, as well as staff support to the 
chamber. The WIB also strengthened its participation in chamber 
activities by volunteering for chamber board and committee 
appointments. For its part, the chamber was able to leverage its 
marketing channels (e.g., newsletters, Web site, media relations) and 
credibility to facilitate buy-in among employers.
Center for Continuing Education and Workforce Development
            A Singular Resource for Employers
    An important outgrowth of the chamber-Workforce Solutions 
partnership was the development of the Center for Continuing Education 
and Workforce Development (CCEWD). The center is a collaborative 
partnership housing fifteen workforce service providers--including the 
office of the Arlington Chamber of Commerce's Workforce Development 
staff--that now operate as a single unit focused on meeting employer 
and employee needs.
    The chamber's Education and Workforce Development Council 
spearheaded development of the Center for Continuing Education and 
Workforce Development, working in partnership with Workforce Solutions 
and the University of Texas at Arlington (UTA). Built on the UTA 
campus, the facility integrates higher education, the publicly funded 
system, and employers into an integrated model. The chamber's Education 
and Workforce Development Council employer members meet on a monthly 
basis to provide center administration with feedback and information 
related to the needs of the employer community. A valuable by-product 
of this approach is that by increasing awareness of workforce 
development issues and resources, council members have become effective 
advocates of the ``employer-driven'' workforce development system for 
the employer community. The combined impact of these efforts should not 
go unnoticed: Between September 2004 and September 2005, the center's 
market share nearly doubled (from 6.96% to 13.5%).
    Because of its success in engaging employer users, the Arlington 
Chamber received a grant from Workforce Solutions to serve businesses 
by using WorkInTexas.com, a Web-based job matching service, and local 
one-stop career centers. The grant enables the chamber to offer the 
resources of a streamlined workforce system to its employer members. 
The chamber's work will also include a special emphasis on small and 
medium-sized businesses.
    Through the agreement, the chamber aims to register 600 employers 
with WorkInTexas.com. The program focuses directly on integrating 
employers with the Center for Continuing Education and Workforce 
Development while keeping the specific workforce needs of the employer 
in mind. Employers were asked to register with WorkInTexas.com and post 
one job opening and provide feedback on their experience. From there, 
staff registered employers and provided information on the resources 
and services offered at the center.
    The chamber's efforts have been met with great success.
Replicating Success
    The Arlington Chamber of Commerce is confident that other chambers 
can respond to members' workforce development needs and position 
themselves as powerful intermediaries for workforce and education 
systems. Following are a few keys to success:
    Leverage Credibility: As an effective intermediary, the Arlington 
Chamber's focus is on brokering the services and resources provided by 
the public workforce system. The chamber, with its existing business 
relationships and access to information, is in an excellent overall 
position to broker the services and resources on behalf of the public 
workforce development system. Employer members have already developed a 
level of trust with the chamber and are therefore more likely to get 
involved with a system the chamber recommends.
    Focus on Local Needs: In Arlington, the data clearly showed that 
health care was an immediate and pressing need. Thus, it became the 
first area of focus in the industry cluster approach and a range of 
solutions are being implemented. Importantly, it also provided a 
replicable model for additional industry clusters formed around 
advanced manufacturing, hospitality and tourism, and emerging 
technologies.
    Be Demand Driven: The Arlington Chamber believes that any effective 
``employer-driven'' workforce delivery system must fully engage local 
business representatives and capitalize on their leadership and 
expertise. For example, to engage businesses to use WorkInTexas.com, an 
introductory letter signed by the presidents of the Arlington and Fort 
Worth Chambers was sent to over 3,500 employer members asking them to 
participate in the pilot program.
    Keep the Lines of Communication Open: Staff from the Arlington 
Chamber regularly provide feedback to representatives from the public 
workforce system. In addition to the chamber's Education and Workforce 
Development Council monthly meetings, bi-weekly meetings between 
chamber and Center for Continuing Education and Workforce Development 
staff members present an opportunity to discuss workforce issues and 
review the needs of new employers registered with WorkInTexas.com.
    Create Opportunities for Employers to Access the Workforce System: 
Chambers have unparalleled access to employers and systems in place to 
create networking and informational opportunities. The Arlington 
Chamber workforce staff host monthly ``Jobs Now'' forums that give 
chamber members an opportunity to present their employment needs to 
Center for Continuing Education and Workforce Development partner 
organizations.
Conclusion
    Through the media and other sources the business community hears 
the mantra-train U.S. workers; invest in the domestic workforce. We at 
the Arlington Chamber and my fellow members at the U.S. Chamber do just 
this and more. For example in Arlington, you'll find training centers 
at our manufacturing facilities-designed to improve technical 
manufacturing skills to meet our employees' personal needs. We 
collaborate with community colleges and vocational technical schools to 
provide certificate and college degree programs. We offer tuition 
reimbursement programs for employees pursuing bachelor's and advanced 
degrees. We provide corporate on-site training programs and encourage 
cultural exchanges from facilities abroad to enhance diversity and 
awareness.
    American business and the U.S. economy have faced challenges before 
and always overcome them. Innovation has been the key to our success in 
the past and can be again. We are encouraged that the Committee is 
exploring the competitive issues in a global economy and I hope that 
constructive solutions can be identified.
    As you consider the Committee's program of work for 2006 and begin 
to address the many educational and workforce problems of this country 
and the American competitiveness agenda, we would like to take this 
opportunity to offer you the assistance of the U.S. Chamber of Commerce 
and that of the Arlington Chamber of Commerce.
    Thank you again for allowing me to testify. I look forward to 
answering any questions that you might have.
                                 ______
                                 
    Mr. Kline. Thank you, sir.
    Dr. Simons, the floor is yours.

     STATEMENT OF JAMES H. SIMONS, PRESIDENT, RENAISSANCE 
                       TECHNOLOGIES CORP.

    Mr. Simons. Like everyone else, I thank you all for 
inviting me, and I am happy to be here.
    The problem that has been raised over and over again and 
the problem that we are particularly concerned with is that we 
need our kids in America to learn math and science and they are 
not doing it very well. So that is a problem that has been 
increasing. And at the same time, the economy into which they 
will enter is more and more dependent. So we have two things 
going in opposite directions: An economy that is depending more 
and more on people who are technologically based and an 
educational system which is turning out fewer and fewer such 
people.
    Sounds like a contradiction but it isn't. Why would that be 
happening? How come these two trends are going in opposite 
directions? We need more, they give us less? What is going on?
    Well, what is going on is extremely simple. At the heart of 
the education system are teachers, and teachers have to know 
the subject that they are teaching. If they don't know the 
subject that they are teaching, they are not going to impart 
that subject very well, in some cases, not at all.
    So what is happening? How come our teachers don't know 
these subjects anymore? Why not? Because they are being pulled 
into this very economy that is stimulating the demand for more 
and more technically oriented people.
    You know, when I was a kid we had some pretty good math and 
science teachers. The market for people who knew, let's say, 
mathematics outside the classroom was there, you could become 
an engineer or one thing or another, but it was a modest part 
of the economy. There were no computers, no demand for computer 
programmers. There was no high-tech biology. It was a different 
world.
    And so young men who had a predilection for, let's say, 
mathematics might well become a teacher. For women, it was even 
more so, because for a women who knew mathematics, let's say, 
she couldn't even become an engineer, they wouldn't let her. So 
if she wanted to work, school teaching was a perfectly good 
job. So the economy wasn't pulling these folks out, and to some 
extent it was actually keeping them out in the case of women.
    So there was a reasonable supply of people, and I went 
through public school and was appropriately stimulated to learn 
math and science. I had some very good teachers, and I went on. 
Now, I graduated high school in 1955, so it is 50 years later 
and a lot has changed.
    So now we have an economy that really needs these kind of 
folks, and teaching is not an especially attractive profession, 
at least it is not as attractive as it might be.
    So we need teachers of math and science who know the 
subject. It is indisputable and undebatable, but we are not 
getting them.
    Now, in any other organization, in any other part of our 
economy, if you have jobs that are going begging, if you have a 
need for a certain type of person and you are not getting them, 
you have to look and say, ``What can I do to make this job more 
attractive so that I will get the kind of people coming into 
the field that I need?'' You can change the working hours, you 
can raise the salaries. You do what you need to do in order to 
attract these folks and to keep them there.
    You don't bribe them. You don't say, ``Oh, I will give you 
$10,000 if you come work for me right off the bat.'' Well, that 
maybe will run someone to the door, but he or she is not going 
to stay very long, because it is the job, it is not some 
impetus. You can give a kid a scholarship and say, ``You have 
got a nice 4-year scholarship and then you will agree to teach 
for the next 5 years.'' Well, maybe they will and maybe they 
won't. But if a teaching job is really not very attractive, 
they are going to leave as fast as they can.
    And we need to do the obvious thing: We need to make 
teaching math and science and particularly at the high school 
level but it is an even more difficult challenge at the 
elementary base, we need to make those jobs attractive enough 
to bring in people who know the subject. And there is no 
question that today we are not getting them.
    So what do you do? Well, when I was younger, we discovered 
that we had a big lack of college professors of science and 
engineering. Sputnik had just gone up. Everyone was worried. I 
got my Ph.D. in 1961. I was one of 300 mathematics Ph.D.s in 
the United States. Ten years later, there were 1,500.
    So the government created a program called, National 
Defense Education Act to address this challenge. By a fluke, I 
was the first person in America to get his degree under this 
act, I was the first Ph.D. under the National Defense Education 
Act. I got a letter from Abe Ribicoff, the secretary of Health, 
Education and Welfare at that time congratulating me.
    But that program stimulated a lot of kids besides me. It 
worked, and we filled those jobs. At the same time, the jobs 
got better. When I graduated from Berkeley with a Ph.D., I was 
offered a teaching job at MIT. They wrote me a letter, they 
said, ``We are going to pay you $7,500 per academic year.'' 
That seemed fine to me compared to what I was getting. Before I 
got there, a month later, they wrote and said, ``No, you know 
what? We are going to pay you $9,000.'' I was even happier.
    But that escalation in academic salaries was extremely 
strong in the next 10 years. So not only was the government 
giving a push but the colleges were giving a pull. And an awful 
lot of people were attracted into the field and stayed there.
    Now, sort of inspired by that experience, I had always 
wanted--well, not always but over the last several years wanted 
to see something similar done for, let's say, high school math 
and science teachers where now we have the biggest need.
    And as an experiment, and hopefully to do a service for the 
city of New York and also to act as a pilot, we started 
something called, Math for America and we built a fellowship 
program in New York City, and the scholarship program had two 
components. One component was attracting young fellows and 
girls and the other, rewarding existing teachers who know the 
subject.
    It has been an enormous success. We screen kids, we take in 
40 to 45 kids a year. We screen them, we give them a test. If 
they pass the test, they go through an interview. One of our 
young fellows is here today, Alan Chang, who is sitting right 
there, a graduate of Dartmouth and MIT. They come in, they are 
plunged into 1 year of intensive pedagogy, because none of 
these kids have had any pedagogy, and then they go and teach 
for 4 years. They get stipends all along. So by the end of the 
4 years they are getting $20,000 a year on top of their teacher 
salary.
    That has attracted an incredibly good quality of kid, and 
as an investment, it is a good one. And what we hoped--I know I 
am running over my time--what we hoped, and do hope, is to use 
this pilot program to demonstrate that a national program can 
make sense.
    And there is a bill now that has dropped called the MSTC 
Corps, Math Science Training Corps, which mimics, it copies, to 
a large extent, what we have done in math in New York City to 
do nationally. It creates a corps of people, a corps of 
trained, enthusiastic and well-paid people to educate our kids.
    If one in five high school teachers was well-qualified in 
terms of subject knowledge and in this corps, it would make a 
revolutionary difference in the education in the United States 
and stimulate others to come into the field, stimulate school 
districts to pay more, and the extra pay that these folks would 
get, according to this bill, which would be $20,000 a year, is 
accepted by the NEA.
    We met with the NEA. They are going to write a letter in 
support of this bill. They understand, everyone understands 
that we have to do something to make math and science teaching 
a more attractive profession or we are not going to solve the 
problem that we are all here to discuss.
    Thank you very much.
    [The prepared statement of Mr. Simons follows:]

           Prepared Statement of James H. Simons, President,
                     Renaissance Technologies Corp.

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today. I am a private citizen who is 
deeply concerned about our nation's ability to maintain its leadership 
in an increasingly competitive world--a world in which technical 
knowledge largely determines the chances of success for individuals, 
companies and nations.
    Having spent fifteen years as an academic mathematical researcher I 
am now the President of Renaissance Technologies, a private investment 
firm that uses exclusively mathematical methods to manage roughly $12 
billion. My philanthropic interests, expressed through our family 
foundation, are primarily devoted to supporting scientific research, 
with a recent focus on the causes of (and possible cures for) autism. 
Three years ago, alarmed by the growing shortage of knowledgeable 
mathematics teachers in our public schools, we founded Math for 
America, a nonprofit organization that operates a program in New York 
City to attract, train and retain outstanding math teachers in public 
secondary schools. In doing so we hoped not only to benefit the City of 
New York but to create a program that could serve as a model for a 
federally funded effort of national scope.
    In 1961 I was the first person in the United States to receive his 
PhD under the auspices of the National Defense Education Act. Shaken by 
the Soviet Union's launch of Sputnik, and concerned by a shortage of 
scientists and mathematicians teaching at our universities, Congress 
responded by enacting this program. It was an outstanding success. I 
may have been the first, but a great many followed, and in less than a 
decade, whatever shortage may have existed was surely eliminated. Based 
on that foundation, our military preparedness went from strength to 
strength, culminating in the complete eclipse of the Soviet Union as a 
military threat. The challenge we face today is just as real and 
perhaps even more urgent--to see that our nation is properly equipped 
to economically compete in the twenty first century.
    Our competitors are not standing still. China, India and other 
countries are investing in economic infrastructure, particularly 
education and technology. They believe that these investments are the 
roadmap to prosperity because they are the very pillars on which our 
own economy was built over the last fifty years. To effectively compete 
we must respond, and a vigorous and imaginative federal policy must be 
a key part of this response. The House Democratic Innovation Agenda, 
championed by Ms. Pelosi and Mr. Miller, outlines such a policy. Though 
the Agenda calls for policy changes in five areas, I will focus on 
three in which I have personal interest and experience: Research and 
Development, Alternative Energy, and Education. I will speak briefly to 
the first two and at greater length on the third, the most fundamental.
Research and Development
    I don't need to convince this panel that Research and Development 
has and will continue to contribute significantly to our nation's 
economy and to our quality of life through scientific advances, 
technological discoveries and the development of new industries. As a 
former professor and chairman of the Stony Brook University Mathematics 
Department, I have been deeply involved in scientific discovery 
directly, through my own work, and indirectly, through the work of my 
colleagues, students, and, in recent years, through the work of the 
various research universities and institutions on whose board I sit and 
whose work our foundation supports. These include MIT, Rockefeller 
University, The Institute for Advanced Study, and Brookhaven National 
Laboratory. Institutions like these are at the pinnacle of our nation's 
(and our world's) research infrastructure, and their continued vibrancy 
is crucial if the United States is to maintain its leading position. 
All are highly dependent on federal research funding, most notably from 
the Department of Energy, the NSF and the NIH. A short anecdote 
illustrates the precarious position in which we may find ourselves 
unless our government is rededicated to world scientific leadership:
    Brookhaven National Laboratory is our nation's leading research 
center in nuclear physics. Although budgets had been steadily shaved 
over the past ten years, spirits at the Lab remained reasonably high 
because the Relativistic Heavy Ion Collidor (RHIC) had been running for 
the past two years and had produced spectacular results. RHIC is the 
world's most energetic accelerator, cost well over $1 billion, and had 
been many years in the planning and construction. In particular, its 
recent results included the discovery that the state of matter in the 
initial moments after the ``big bang'' was what is known as a perfect 
fluid, and not the plasma that had theretofore been conjectured. This 
created shock waves throughout the world's physics community and was 
generally considered the best result of (at least) the decade in 
experimental physics. Groups from all over the country and the world 
had participated in the planning of these experiments and celebrated 
the outcome. The plan for the current year was to run experiments in an 
attempt to finally understand the mysterious cause of proton spin, a 
key aspect of the fundamental structure of matter. These studies were 
to be made in conjunction with groups in Europe and Japan, who had 
spent more than $60 million over the past several years in preparing 
for the effort. Then something amazing happened. Due to a budgetary 
shortfall the DOE was unable to provide the $13 million necessary to 
actually run RHIC this year. This billion dollar machine, the hottest 
property in the experimental physics constellation, was to be shut down 
for twelve months, many of its personnel let go, and, while it would in 
theory be restarted the following year, the research on proton spin, 
not being part of the following year's schedule, would never be done.
    The political efforts to get the federal government to change its 
mind were heroic but fruitless. The DOE science budget was simply too 
tight, and try as one might the money could not be loosened up. This 
was not the fault of those running DOE, whom I greatly respect, but 
stemmed from an overarching setting of priorities at the highest levels 
of government. These must change if we are to move forward.
    I must say that the story actually has a happy ending. My company, 
Renaissance, stepped in at the last minute and put up the money. This 
brought joy to the Lab and to our friends overseas, both of which 
groups had felt left in the lurch. Moreover, DOE has promised more 
generous treatment of Brookhaven and other National Laboratories in FY 
07. This promise must be kept if we are to remain the richest and most 
powerful nation in the world.
Clean and Independent Energy
    There is little I can add to the welter of discussion on the issues 
of clean energy and energy independence except to stress its importance 
and to express some personal views. These should be regarded with some 
skepticism as I am not an expert, although I have a strong interest in 
the subject and have consulted with those who are. Several points seem 
important:
    1. Global warming is clearly under way, and, whether or not it is 
primarily caused by CO2 emissions, such emissions certainly don't do us 
any good and may well do us great harm.
    2. Nuclear energy has the dual virtue of causing no emissions and 
being a source not dependent on foreign sources of oil. Moreover, a 
standardization of plant design (as the French have done) can make this 
source of energy cheaper and even safer than it is today. Whether the 
public can ever be persuaded to see it that way is an open question.
    3. Coal is cheap and readily available world wide. Coal fired 
plants will be the obvious choice of much of the world's future 
electrical generation. These plants can be engineered to sequester the 
emitted CO2, which would then be compressed and stored underground. 
Unlike nuclear material, the inadvertent escape of stored CO2 would be 
a modest nuisance rather than a potential catastrophe. Such 
engineering, as I understand it, would add somewhere between ten and 
thirty percent to the cost of the plant. This should be able to be 
brought down fairly quickly. Government sponsored research and 
development in this area is an absolute must, as will be an incentive 
program to ultimately get old domestic plants converted and new ones 
designed to incorporate the technology.
    4. In the long run, the only viable, clean, and essentially 
limitless source of energy is solar, and the obvious and potentially 
ubiquitous application is electrical generation. The problem is cost. 
While much work, both government sponsored and private, has been done 
on cost reduction, a great deal more is necessary. Again, government 
sponsored research in this area is a must. An example is the Helios 
Project at the Lawrence Berkeley National Laboratory.
    5. The majority of petroleum consumed in this country and around 
the world is for transportation, primarily cars and trucks. Given the 
economic growth rates in Asia, the numbers of these will grow rapidly. 
The obvious alternative is electric powered vehicles, and the only 
impediment to their wide spread deployment is inadequate rechargeable 
battery systems. Much work has been done in this area, and reasonable 
progress has been made. I myself have made significant private 
investments in the field. Nothing else has a near term chance to 
substantially reduce the world's need for petroleum. In my opinion 
government R&D support for rechargeable batteries should be at the top 
of the list of energy priorities.
Education
    Even more important than either of the above is a technologically-
prepared workforce. At my own company, for example, fewer than half of 
our more than 60 PhD's were born in America, and the vast majority of 
technologically based companies are in the same boat. The leading edge 
of our economy is increasingly based on importing scientifically 
trained people and exporting scientifically based projects. This avenue 
is not available to our nation's military and intelligence services, 
whose present and future need for workers with degrees in math and 
science can only be filled with home grown product. It is absurd, and 
ultimately contradictory, that a country which aspires to maintain 
world economic leadership be so grossly deficient in producing the very 
workers who can make this possible.
    At the heart of the issue is the dwindling supply of well-prepared 
high school students prepared and inspired to go on to receive 
university training in these demanding fields. And that in turn is 
primarily due to the dwindling supply of public school teachers who are 
knowledgeable in math and science.
    The bleak story about math and science achievement among American 
students is well known, and a fact sheet outlining these issues is 
attached. Moreover, I am sure you are each acutely aware of the math 
and science teacher shortages and the consequent number of out-of-field 
teachers in our classrooms. The sad truth is we are not educating our 
children for the 21st century.
    It goes without saying that to teach a subject one must know it, 
and those who know math and science are increasingly lured away from 
possibly teaching in the class room by more lucrative positions in the 
very economy whose future we are hoping to ensure. The answer is 
simple--we need more and better teachers of math and science and to get 
them and keep them we will have to pay them more. Regrettably, teacher 
pay is not tied to market forces, therefore incentives from the federal 
government, first to attract more qualified individuals into math and 
science teaching, and then to keep them there seems the only 
practicable option.
    As a first step in this direction we created Math for America and 
the privately funded Newton Fellowship program, restricted to 
mathematics, which we hoped would serve as a pilot for a future federal 
program covering both math and science. Our goals were to improve 
student achievement in the short term and build life-long appreciation 
for the subject. We assumed, and research showed, that teacher content 
knowledge is essential, and that became the gating criterion for 
selection to our program. We use standardized testing to ensure that 
all of our Fellows have a deep understanding of math. Of course, we 
recognize that deep content knowledge, while necessary, is 
insufficient, so a second key component of the program is pedagogical 
training, mentoring and professional development to help our teachers 
grow as professionals. Through a cohort model, they receive support 
from each other and the program.
    With a prestigious Fellowship program and appropriate marketing we 
were certain that we could attract top candidates to teach math in New 
York City. In fact, sitting behind me here is Alan Cheng, one of our 
Newton Fellows. Alan has an engineering degree from Dartmouth and a 
master's in technology and policy from MIT. He has the content 
knowledge to teach math, knows how to relate math and science to ``the 
real world'' and is truly interested in shaping children's lives. He is 
a motivated, smart, talented young man. In New York City he could go to 
a financial, engineering or consulting firm and earn at least twice the 
salary of a public school teacher. People like Alan--the best and 
brightest--follow their hearts and go into teaching, but typically 
don't stay. The statistics are dramatic. Smart, talented math and 
science teachers leave the profession at nearly twice the rate of their 
peers. When asked why, they most often cite low salaries. We hope that 
Alan will stay and we have provided, as the third key component of our 
program, a financial incentive. A full scholarship to earn a master's 
degree in education and, over the succeeding four years of teaching, 
annual stipends, starting at $11,000 and ending at $20,000 are provided 
as a supplement to their regular salaries.
    I am confident that the MfA program in New York City will be a 
success, but one philanthropic effort in one city is clearly not 
enough. The approach we have taken in New York, seeking out individuals 
with high level skills, training them and paying them well to work in 
our schools, must become national policy for us to have any hope of 
long term success in the technology race of this new century.
    Before stepping down I would like to point out that there is now a 
bill before this House, and before the Senate as well, which is 
designed to affect the program we have in mind. It is called The Math 
Science Teaching Corps Act (MSTC), and was introduced in the House by 
my good new friend Jim Saxton and in the Senate by my good old friend 
Chuck Schumer. It is also co-sponsored by my latest friend, Ruben 
Hinojosa, a member of this Committee, whom I am pleased to hereby 
thank. MSTC also has the verbal support of the NEA and AFT, both of 
whom recognize the need and acknowledge the appropriateness and the 
timeliness of such a program.
Conclusion
    Science and technology are the drivers for the world's economic 
prosperity, and America must not only keep up but take the lead. To 
make this happen, our federal government, and particularly the 
Congress, has a vital role to play and the House Democratic Innovation 
Agenda offers a strong model to follow. Almost fifty years ago the NDEA 
and other congressionally sponsored programs provided a magnificent 
response to the Soviet challenge. This time the challenge is even 
bigger, and I am confident Congress will come through once more.
    Thank you.
                                 ______
                                 
    Chairman Mckeon [presiding]. Thank you. I apologize for 
being late.
    Mr. Miller?
    Mr. Miller. Thank you very much.
    Mr. Jurey, we met with Mr. Barrett when we were putting 
together our innovation agenda for the Democrats and we took 
his suggestion of stapling the green card to the diploma. We 
think it makes an awful lot of sense in terms of keeping 
talented people here. And, hopefully, at some point, in this 
larger debate, we will make a decision that we want an 
expedited means for these students to stay here when they get 
their degree.
    Mr. Simons, thank you very much for your testimony. There 
has been a lot of fits and starts about how we get highly 
qualified teachers into the classrooms, and there is obviously 
a lot of energy thinking about that. I have a very 
comprehensive bill that came out of Lou Gerstner's teaching 
commission proposal that has a long sustainable effort to try 
to improve the profession.
    I was interested when I met Alan this morning in the office 
that he plans a career in teaching. He is not suggesting that 
he is going to successfully complete your program and then 
maybe do this for 5 years and then go off and be an engineer or 
use his talents elsewhere. He didn't make that lifetime blood 
pledge but he said that was his intention.
    It is interesting to me that he thinks that the market will 
be able to offer him that opportunity to make this a career in 
education. What about the other candidates that you have talked 
with in this program?
    Mr. Simons. Well, you know, they are all very young, and so 
they are enthusiastic and I think most of them assume they are 
going to make a career in teaching. But after they have been at 
it a while, we will see. It is one thing to get folks like Alan 
in and to keep them in for 4 or 5 years through the various 
inducements.
    The bill that we are proposing has a second component where 
experienced teachers can also come into the corps if they 
demonstrate sufficient knowledge of subject and other good 
qualities and will also get stipends on top to reward them and 
to keep them in the classroom. And a boy like Alan, if he were 
an entry member of this MSTC Corps, after 5 years he could 
reapply. He would apply as an experienced teacher and if he was 
good enough, as I expect he would be, he would become a member 
for another 5 years. So there is a follow-on, at least we 
imagine a follow-on.
    But things can change and maybe the rest of the folks will 
wake up to understand that these folks need more pay and better 
conditions. And maybe by the time Alan's 5 years have gone by 
everyone will know that and the problem will be solved. I tend 
to doubt it, but it is possible.
    Mr. Miller. Well, I find it encouraging because it is a 
piece of evidence that suggests that if you really change the 
profession and you make it more professional, if you will, if 
you give teachers greater control, if they have a sense that 
they are going to have some say and some participation in 
creating a different workplace, that they see this as a longer-
term commitment. If they are going into a system where they are 
going to be regimented and not have those opportunities, it 
seems to lower their horizon about staying there. So it 
suggests that we have other changes that need to be made in 
that environment.
    Mr. Simons. Yes, and the better people we can attract into 
the job, the more likely those changes will be made, because 
you will have stronger voices arguing for those changes.
    Mr. Miller. Well, that is the critical mass that you were 
talking about, if you could get one in five people in this 
situation.
    Again, in the hearings we are now able to really look at 
the value added by highly qualified teachers and obviously a 
student that is able to spend 3 years in a row with a highly 
qualified teacher has a much different outcome than the 
student----
    Mr. Simons. No question.
    Mr. Miller [continuing]. That doesn't get that opportunity.
    Mr. Simons. There is no question.
    Mr. Miller. So that is very encouraging what your program 
is doing.
    I would just also make a comment that there is a joining 
here. I didn't know you all were going to be on the panel, but 
in our discussions with Mr. Barrett, the CEO of Intel, we were 
looking for the pull. If people were going to become--if we 
could create new innovators and they wanted to participate in 
that part of the economy and be out there, what was the pull?
    And he recommended, as you do, that we really have got to 
look and make a major investment in alternative energy 
resources, that that would be the next generation of drivers 
within the high-tech field if we really put our minds to it as 
a nation, that he saw that as a real opportunity to give people 
a place to land, if you will, after they acquired this set of 
skills, that that would be an expanding base for American 
employment.
    Mr. Simons. Well, given Mr. Jarrett's comment about the 
paucity of H1 visas and how dependent they are on H1 visas, one 
would think there are a few places to land for American boys 
and girls right now if they are qualified. Half the people we 
hire aren't H1 visas. We are a little smaller than Intel, I 
have to confess. But, nonetheless----
    Mr. Miller. About as profitable, though.
    Mr. Simons. Well, we are pretty profitable, I have to say 
that. But half of our technical employees come in with H1 
visas, at least half. So it is very hard to find well-qualified 
people. So there are jobs now that are going to--well, in any 
event.
    Mr. Miller. Well, I think what is clear from this panel of 
testimony, Mr. Chairman, that obviously we have to address a 
whole range of bottleneck within our education system, within 
our economy, within our immigration system, within our R&D 
policy to make this work and certainly to make it work in a 
timely fashion that many of you who are the experts in this 
area tell us we need to do. This isn't one where we can just do 
it at our own convenience and our own timeline, because there 
are other timelines out there that are very, very competitive 
with our standing in the world.
    Thank you so much for you testimony.
    And, Mr. Chairman, I think you said that their statements 
could be put in the record in their entirety. Thank you.
    Chairman Mckeon. No objection, so ordered.
    Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman.
    Let me start with a question for Mr. Jarrett. My background 
is higher education. I was a college administrator for almost 
30 years, and we had an uneven experience with adjunct faculty. 
Some were outstanding, others were just, sort of, phoning it 
in.
    And I guess my question is, do you see the push toward more 
adjunct faculty in high schools? Do you see that as, sort of, a 
temporary strategy while we develop, hopefully, a larger and 
better qualified cadre of full-time teachers or do you see this 
as part of a permanent solution?
    Mr. Jarrett. I think the experience will probably continue 
to be uneven. This is a new area, and people are going to have 
to feel their way along and see what works and what doesn't 
work. And we will see how big the market really is of people 
who really want to go into teaching as a second career, either 
for a period of time or permanently.
    But as you know, there are a lot of bureaucratic barriers, 
a lot of professional barriers that are there to prevent them 
currently from making this kind of step. I think that is what 
really needs to be addressed first.
    But how successful this will be long term, I think we are 
going to have to work our way through it to see how it--it 
seems like a good idea now.
    Mr. Simons. We have a little bit of evidence on this, 
because we advertise widely to get applicants for the MSA 
Program, and we had hoped that we would get a reasonable number 
of these folks as career changers. But I think it is less 
than--maybe it is of the order of 5 percent.
    The great, great majority of people who apply to come in to 
this program are people right out of college. We do get a few 
career changers. We had a gal from Morgan Stanley, I think, 
who, there for 20 years, got bored, and she has been terrific. 
But they are few and far between.
    Now, it is a New York City experiment. It may not be 
applicable, necessarily, around the country.
    Mr. Bishop. Let me ask Dr. Simons a question. No Child Left 
Behind is, sort of, the central effort on the part of the 
Federal Government to improve K through 12 education, and it 
requires that there be a highly qualified teacher in every 
classroom, although I think all of us would agree that we 
haven't gone as far as we could to make that possible.
    We are going to be reauthorizing No Child Left Behind in 
the next year or so. It has a significant emphasis on testing, 
lots of tutoring. And picking up on your comment that the 
central element in education, obviously, is outstanding 
teaching, would you be encouraging us as we reauthorize No 
Child Left Behind to swing the emphasis away from testing and 
away from measuring the performance of subgroups and invest 
more Federal resources in seeing to it that school districts 
can hire more qualified teachers?
    Mr. Simons. Well, I am not a good person to answer that 
question, because I haven't studied the value of some of these 
parts of the No Child Left Behind, in particular the 
measurements and the testing. I generally think that 
measurements are pretty good. If you are going to have a 
program, it is pretty nice to be able to measure how far you 
are getting.
    It is clear we need money to improve the knowledge ability 
of teachers in math and science. That is clear. Whether that 
money should come out of some other area, I can't really 
comment on. Sorry.
    Mr. Bishop. Thank you, Mr. Chairman. I yield back.
    Chairman Mckeon. Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman.
    And I thank the witnesses. I would like to make a couple of 
comments to elicit your reactions, but then I have a more 
directed but still general question for Mr. Jarrett.
    I would follow on what Mr. Miller has said as well as what 
Mr. Bishop has said and say that one of the things that has 
concerned me, as a product myself of the National Defense 
Education Act, is that we run the risk of repeating a 
fundamental mistake that we made then, which was to develop a 
generation of scientists and engineers, the likes of which the 
world has never seen, and left behind 80 percent of the 
population. I think it is critically important that we adopt 
the approach of science for all students, science for all 
Americans, and I think that can be done without compromising 
excellence.
    Furthermore, I think that we need not--and, of course, that 
is one of the reasons that I think that in No Child Left Behind 
science should be part of the assessment and should be part of 
determining adequate yearly progress. Otherwise, science 
becomes only for the future scientists, and I think that is 
dangerous for our society in this day and age.
    Furthermore, again, as a product myself of the NDEA, I 
think what we need is not just a new NDEA but we really need a 
national commitment to science. And part of that includes the 
kinds of things that followed the launch of Sputnik in addition 
to NDEA so that students did feel that they had an avenue to 
follow, that there was a reason to study science. And the best 
candidate for that these days is not a space race but an energy 
program, which, defined broadly, would include such things as 
smart transportation and so forth, I believe.
    The effort so far from the administration are, in many 
ways--the rhetoric is good, but I am a little concerned about 
the adjunct teacher program, as Mr. Bishop is. I have been a 
highly qualified scientist. I have also been a teacher. One 
does not imply the other. And I hope we are not heading in the 
direction of just plopping down scientists in the classroom and 
saying, ``Now you are highly qualified,'' because it won't work 
that way.
    I hope we recognize that these scientists that we bring in 
are in many cases novices in the classroom. They probably 
should be regarded as provisional, in some sense. And a great 
effort should be made to integrate them into the teaching 
profession. And although I am pleased to be a co-sponsor of the 
recent legislation, which allows for movement in this 
direction, I think what we did was just a drop in the bucket.
    Which leads me to my final point, and this is really a 
question for Mr. Jarrett. I have served with Craig Barrett on 
the Glenn commission. I commend him for his public service, 
which I think is also probably a real service to his 
stockholders. But you, speaking perhaps with him or for him, 
say that we need to be bold in our prescriptions, we need to 
stop tolerating mediocrity, we need to, yes, staple green cards 
to the Ph.D. diplomas.
    But what do you mean by being bold? I just hear lip service 
from all over this town to--there is a lot of talk about 
competitiveness, even in the State of the Union Address, but I 
don't see it in the numbers, in the budget that follows. I see 
no movement in the recommendations of the, ``Rising Above the 
Gathering Storm,'' again, which Craig Barrett assisted in, 
beyond lip service.
    So I am looking for these bold prescriptions with bold 
action to follow. Any comments on any of those things. I see my 
time is expired and I have rambled enough. Thank you.
    Mr. Jarrett. I guess if I can just respond a bit. One of 
the tendencies in government is, ``Let's go study it again,'' 
right. And the point that Craig Barrett has made several time 
is, this problem of teaching math and science effectively 
doesn't require yet another commission. There are a lot of good 
models out there, inside the United States and outside the 
United States, about how to do this effectively. We need to get 
on with it and not waste additional time studying, studying, 
studying before we go off and try some things. So that is one--
if that is bold, we will call it bold, but that is one of the 
things we need.
    I think we also need to make sure that in the area of 
measurement, that faced with the problem of kids who aren't 
measuring up, there has been a tendency out there to, ``OK, 
let's dumb the tests down or let's push out some time before we 
start measuring people so that more kids get a chance to pass 
that test.'' That is not going to solve our problem. I mean, we 
need to get on with it and learn what that measurement tell us 
and then deal with it and not dumb down the tests or push out 
the time before we start testing.
    Mr. Holt. Thank you.
    Mr. Chairman, with your permission, I would just insert a 
thanks to Dr. Simons for his effort to help the Relativistic 
Heavy Ion Collider move along.
    Mr. Jarrett. Mr. Chairman, I am going to have to excuse 
myself.
    Chairman Mckeon. Thank you very much for being here. Drive 
carefully, and I hope you get your flight.
    You know, I think we have all--I missed most of your 
testimony and I apologize for that. The competitive issue I 
know I have been hearing about for years. People have been 
telling me, ``You have got to go to China, you have got to go 
to India, you have got to do this and that.'' And we went to 
China last year and I think it was a very productive, we 
learned a lot, and we have all looked at China, Inc. and the 
world is flat and all of the stories.
    But I want to get your response to an article that was 
published in The Washington Post by Robert Samuelson entitled, 
``The Phone Science Gap.'' I just want to hear what your 
response is to this.
    He talked about the fact that American colleges and 
universities were graduating more students in computer science 
than ever before. He pointed out that graduate science and 
engineering enrollments were at an all-time high. He noted that 
per million in the United States graduate slightly more 
engineers with 4-year degrees than China and three times as 
many as India. And then the other figures where we talk about 
we graduate 40,000 engineers and they graduate 4 million, he 
says that is not apples to apples; it is different kinds of 
engineers.
    Just to play devil's advocate on this, because I have been 
pushing this hard, but what is your response to something like 
this? Is it real?
    Mr. Simons. Are you asking me?
    Chairman Mckeon. Both of you.
    Mr. Simons. Well, I didn't read Samuelson's article, so I 
can't comment on it. But I think the difficulty in hiring 
Americans to do the jobs that are at the leading edge of the 
economy is evidence enough that there is some kind of shortage. 
There is certainly a shortage of Americans. If we just say we 
are going to hire, as we did yesterday, ``OK, we are going to 
hire five more researchers. They are all going to have Ph.D.s, 
they are all going to be physicists or mathematicians or 
astronomers, the kind of guys we hire.'' Now, I know damn well 
if two of those are U.S. kids, it will be a surprise. So there 
we are.
    Now, so far we are saved by people immigrating. The H1 
Program could be expanded, that is great, but they are leaving 
countries which are growing at a great rate. I built a building 
in China on the campus of Chingwa University. I agreed to do 
that 5 years ago. I went over there, spent some time with their 
Institute for Theoretical Physics, a new institute. Chingwa is 
in Beijing. It is a very good university. A friend of mine, a 
Nobel prize winning scientist, is the head of that, Frank Yang.
    I like Frank, I like what he was trying to do there, and I 
said, ``Well, what do you need?'' He said, ``Well, what we 
would really like is we can't get visitors, we can't get 
visitors, we don't have accommodations for them. We can't put 
them at the fancy hotels for a semester.'' This is visiting 
professors and so on. It is too expensive to put them in a 
fancy hotel, and, frankly, the typical Chinese accommodations 
aren't satisfactory. It is too crude.
    So I said, ``Well, we will build some apartments.'' Oh, 
that is really what they wanted. OK. So we build a small 
apartment building. Half of it is done; it will have 15 
apartments. They came out beautiful. They opened it in October, 
and so I was there for the dedication. Now, 4 years have gone 
by and what I said was, I said, ``Well, this is great, but I 
will tell you, in 10 years I am going to come and ask you guys 
to build us an apartment so that we can get more Chinese 
visitors to America.'' Because they are making such progress 
that after awhile this flow of Chinese kids or Indian kids to 
America is going to slow down, because there will be plenty for 
them to do there. Those wages are going up.
    And so it may be that for the moment we are OK with 
imported kids and we are OK with exported jobs, because an 
awful lot of technical projects are now going, let's say, to 
India, software projects. They do a darn good job, they charge 
a fraction of the amount. So that is OK for now, but it is not 
going to last. Their wages are going to go up, their kids are 
going to stay home, and we will be left without that edge. So 
that is how I would respond to Mr. Samuelson.
    Mr. Jurey. Well, I would give you this take. I think the 
broader issue is that we are facing unprecedented global 
competition that we didn't anticipate 20 years ago. We really 
did create 3 billion new competitors for the world's markets 
and resources when we won the cold war.
    And if you begin to look at what is really happening, we 
can argue all we want about how many scientists who produced or 
how many engineers who produced, but the reality is that 20 
years ago we didn't have countries like India and China 
literally competing with us. We really were the primary 
economic engine for the world. And that has changed, that 
paradigm has shifted.
    And it means we are going to have to think, as you put the 
policy framework in place, about what that total paradigm shift 
really means to America's competitiveness beyond making sure 
that we have kids well-grounded in math and science. Because I 
do believe our primary competitive niche today is our ability 
to be innovative, to be bold, to be able to be at the leading 
edge of commercialization of technology.
    Now, the industrial revolution was literally built around 
the fact that we invented technologies that created the 
assembly process. And then the Internet has accelerated where 
we are going today. And yet we haven't thought a whole lot 
about what that means in the broader sense. And so we can 
create 60,000 engineers or 600,000 engineers, but they are 
still facing a very different level of global competition.
    When I was in El Paso, I was confronted with the fact that 
shortly after I took that chamber opening, I was going to lose 
11 percent of my entire jobs, because the garment industry was 
absolutely moving offshore. And I had picketers outside the 
chamber wanting to know what we were going to do about it in an 
era of NAFTA, and I finally invited them in and said, ``I don't 
know what to tell you when a company trying to remain 
competitive in a global economy can sew the same number of 
garments per hour and pay 50 cents to get them sewn and they 
can no longer afford to pay $12 an hour to sew them here.''
    And is the challenge is for you not to try to cling to that 
job but for you to try to retrain for a higher, better-paying 
job. And that was my first real thoughts, frankly, about how we 
are going to have to think globally, because the jobs are going 
to change that our grade school children are going to compete 
for by the time they become educated. And a lot of those jobs 
haven't been invented yet, but I am reasonably sure they are 
still going to be based on kids who need to be highly educated 
in math and science. And that starts very early.
    Educators predict whether a kid will make it by the 3rd or 
4th grade; they don't wait until high school. And when I got an 
education degree, they told me that at age 10 a kid had 90 
percent of what he was going to take into adulthood already 
firmly formed. And so when you start thinking about how to 
structure and incentivize, I think we have to take into account 
that we are going to be for a long time in a very different 
kind of global competition. Because China is using energy at an 
unprecedented rate.
    We have talked a little bit in this hearing about how the 
Science and Technology Initiative, going to the moon energized 
America. Energy is going to be critical. We are going to be 
competing for scarce global resources and energy, and it may be 
that that is one of the directions that we have to take. We 
need to become the world's leader in energy innovation. We need 
to become the world's leader in finding the new technologies, 
the new ways. Israel tried to solve a water problem and became 
one of the great exporters of water technology.
    There is no reason we can't try to solve an energy problem 
and reenergize America around science and math and the skills 
it takes. And you begin to attack air pollution, which is a 
health hazard, which adds to the cost of health care, which 
begins to spill in a lot of different ways.
    And I guess I am trying to get you to think a lot more 
broadly about America's competitiveness than simply whether we 
will incentivize more math and science teachers. I don't mean 
to minimalize that, I don't mean to take away from it; I only 
mean to attempt to really broaden the debate, to think about 
the global environment we are going to be competing in for a 
very long time and the real shifts that are taking place that 
aren't going to shift back.
    Mr. Miller. Mr. Chairman?
    Chairman Mckeon. Yes?
    Mr. Miller. Just if I might, it is interesting, with all of 
the people that we discussed our innovation agenda with, and I 
read the article in response to all of this, that there was 
just no evidence from companies, as Mr. Simons said, people 
were not able to find people sufficient in-country to do this 
work. We just met with Bill Gates the other night and he went 
all through this again.
    And I know there are people who say, ``Well, there are all 
these engineers that are unemployed and the rest of that and 
somehow you don't really need to make this effort.'' But, boy, 
you sure don't hear it within the community of those who are 
employing and looking for leading-edge people in these various 
fields.
    So I think we are on the right track, but the trend lines 
at the schools of engineering and the rest of it are all in the 
wrong direction at the moment for American students.
    Chairman Mckeon. You know, I have the same experiences, but 
I did talk to a couple of companies the last time I was home 
that said they were able to get people. So that is why I 
wanted--sometimes you feel like we are inundated with 
information here, and when it comes from different sources and 
it says different things, it is like we want to go in this 
direction but then we wonder is that really the right 
direction. That is why I wanted your response, and I appreciate 
Mr. Miller's response.
    I feel like we have been moving in the right direction, but 
I wanted to take advantage of your expertise while we have you 
here.
    I think that we still need to relook at all the different 
programs we have and try to gauge their effectiveness. 
Fortunately, throughout the country, people aren't waiting for 
us, because I agree with Mr. Holt, a lot of times in this town 
there is lots of talk. But as I go around visiting schools, I 
see lots of exciting things happening, and people are moving to 
try to solve these problems.
    They are not waiting for us to pass some major piece of 
legislation and then try to get it through the regulators and 
try to get it down to the end of the row and then have them try 
to interpret it and then all of a sudden they say, ``Oh, gee, 
now we can do something.'' They are not doing that. They are 
out trying to educate and train people. Some, however, are more 
creative and are moving quicker than others.
    We had a young man sitting right here a few years ago in 
one of our hearings, talking about just because you graduate 
with a teaching degree does not necessarily mean you are 
qualified to be a teacher, just as having a great science 
degree does not mean you are qualified to be a teacher.
    And he was a young black man that was teaching in this 
area, and he said they hired him, put him in the classroom so 
he could teach these 2nd and 3rd graders to read. After 2 
years, he was ready to quit, because he was not successful, he 
was not able to teach. Hopefully, some bright principal got 
hold of him, got him into the right teaching. Now he is really 
enjoying his vocation and he is successful teaching these kids 
how to read.
    I see teachers that are doing a fantastic job. I see some 
that are not doing so well. One of the reasons they are not is 
they haven't been taught. Another reason they are not is they 
are burned out or they are protected. There is no way they can 
lose their job and they are just tired of it.
    Now, this young man here, I hope--he is the one you were 
talking about that is going into teaching--I hope that he finds 
that he likes it. One of the concerns I have about training 
teachers is we run them through 3.5 years of university and 
then we put them in student teaching. Sometimes they find they 
don't like kids.
    [Laughter.]
    They have already invested 3.5 years, so they have to 
become teachers. Why don't we have them maybe visit a classroom 
when they are a freshman and they see what they are going to 
have to put up with and see if they want to do it.
    I am glad you said the NEA supports this proposal of 
adjunct, because when I was on the school board we tried a 
mentor teaching program and we were going to give a $2,000 
stipend to some of the better teachers to help mentor some of 
the other teachers. The union fought us on that, and we finally 
got it in, but it took a long time.
    And there is this trying to keep everybody at the same 
level, and why should just because he took his 4 years in 
science and I took my 4 years in English, why should that 
person be paid more to teach than I am? So there is a lot of 
this kind of stuff that we need to deal with.
    Mr. Simons. They seem to have gotten that at the NEA. I was 
quite surprised, as I went into this meeting with their 
executive director and the staff----
    Chairman Mckeon. I am very hopeful that they have----
    Mr. Simons [continuing]. And they warmed to it, and we are 
about to get a letter from them supporting what we are doing 
and so on.
    Chairman Mckeon. I was talking to Mr. Miller earlier--and 
this is not a hearing, now we have kind of evolved to a 
fireside chat, which is good--but I was talking to Mr. Miller 
earlier about some new union leadership that has also expressed 
these same kind of things. And I think everybody realizes, or 
not everybody, but people are coming to realize things are 
different, and we need to react differently.
    And it is not really going to affect you, but our children 
and our grandchildren are going to--if we don't wake up and if 
we don't meet the challenge, they are going to have a different 
lifestyle than we have been able to enjoy.
    Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman. There are two, I think, 
important comments I would like to make.
    One, as a co-sponsor of the amendment that is leading to 
these adjunct teachers, and someone who has had extensive 
discussions with established teachers as well as teachers 
organizations, I wouldn't say that they wholeheartedly embrace 
the idea of the adjunct teachers. What they embrace is the idea 
of bringing content expertise into the schools as long as we do 
it in a way that recognizes the need for training in pedagogy 
and recognizes the need to integrate these people into the 
teaching profession.
    Mr. Simons. I would just point out that our program in New 
York, the first thing the kids do is spend 1 year--and that is 
what Alan is doing now--in a pedagogy program----
    Mr. Holt. That is right. And it certainly can be done that 
way.
    Mr. Simons. Pardon me?
    Mr. Holt. It certainly can be done that way.
    Mr. Simons. It can. It can be done, yes. And then they go 
out and they know the math, they get the pedagogy and the 
reinforcement and they practice teaching and all the rest, and 
then they go out and they do great.
    Mr. Holt. The other comment I would very much like to make 
as sort of a coda to today's discussion and particularly since 
we have a representative of the Chamber of Commerce here, is we 
mustn't forget that in China, for example, 50 percent of the 
imports that come from China are not Chinese companies that are 
competing against us. They are from foreign-owned companies 
using the means of production in China to produce things and 
send them back to us. And so we have to understand that this is 
the result of conscious decisions by American companies to ship 
production to China.
    And we dare not let this discussion of the need to improve 
our science and math education and increase our competitiveness 
turn into an excuse for corporations not to invest in America, 
not to invest in American workers, to take the short-term, 
cheap approach of exporting jobs and means of production. That 
certainly has been the case, and it is all too easy to allow 
hand-wringing about our inability to find qualified workers 
here in the United States as an excuse not to invest in the 
United States. And we dare not let that happen.
    Mr. Simons. Can I comment on that?
    Mr. Holt. Absolutely. I was saying it, in part, for your 
benefit, so I would welcome a comment. Yes, Thank you.
    Mr. Jurey. Because I think that puts in context some of my 
earlier remarks. Not only are U.S. firms setting up production, 
distribution and sales in other countries, but foreign-owned 
firms are setting up production, distribution and marketing 
here in the United States. It really is a global market.
    And I will go back to my comment that most of the world's 
consumers in the future won't live in the United States. How 
will U.S. firms remain competitive if most of the people that 
are buying don't live here, if they aren't in those countries 
with production facilities, marketing facilities, distribution 
facilities? And how do we respond accordingly when an extremely 
confident corporate citizen, like Siemens, they are a European-
owned company, is also here in the United States manufacturing 
equipment for the U.S. Postal Service, as an example? It is 
working both ways.
    And it is why I said I don't think the debate should solely 
be around how many engineers we graduated versus how many 
engineers another country graduated. This whole debate needs to 
be taken in the context of what is happening in the global 
marketplace, and those shifts are permanent and they are going 
to continue, and it is not going to come back to the way it 
was.
    And so we really do have to think about how do we become 
both collaborators and competitors with those countries and 
those marketplaces? And it is going to take a lot of thoughtful 
discussion between the business community and those of you who 
are policymakers and those in the educational side of the 
business.
    Chairman Mckeon. And we could probably sit here all 
afternoon in thoughtful discussion. But I want to thank you for 
being here, and this will be an ongoing dialog, and I hope you 
will continue to participate with us.
    With no objection, this hearing is adjourned.
    [Whereupon, at 1:42 p.m., the committee was adjourned.]
    [Additional material submitted for the record:]

    Prepared Statement of Hon. Charlie Norwood, a Representative in 
                   Congress From the State of Georgia

    Mr. Chairman, I thank you for hosting today's hearing to explore 
the important issues facing the competitive nature of the American 
economy, and to examine the Administration's ``American Competitiveness 
Initiative.''
    The Administration's proposal responds to significant developments 
in the international economic arena that impact American families of 
all walks of life. After all, it is no secret that the United States' 
no longer enjoys preeminence in the field of innovation, and our 
competitors abroad are making great strides.
    India, China and other emerging powers to our east are surging 
ahead in high technology fields that are producing the jobs of the 
future. India alone produces over 350,000 engineers every year. China 
produces over 600,000.
    These folks can't compete with an MIT rocket scientist. However, 
they are young, hungry and filling jobs that American companies send 
abroad.
    In some cases American firms outsource to meet bottom line numbers 
and compete with international foes. In others they outsource to take 
advantage of the ready pool of available talent trained with basic 
knowledge of math, science and technical skills that are necessary for 
success in the field of information technology.
    At the same time, American youngsters are falling behind the rest 
of the developed world in learning and retaining these basic skills. 
15-year-old American students currently rank 24 out of the 29 
internationally recognized developed nations in math literacy and 
problem solving while their peers in Europe and Asia are surging ahead.
    Mr. Chairman, it is imperative for Congress and the Administration 
to respond to this challenge and help our children reverse the trend. 
This hearing is a good start, and I look forward to our witnesses' 
testimony on both panels to help shed light on the issue, detail reform 
proposals and walk Members' through the details.
    Thank you Mr. Chairman, I yield back.
                                 ______
                                 
    [Various articles submitted by Ms. McCollum of Minnesota 
follow:]

        [Article from the St. Paul Pioneer Press, March 9, 2006]

                MNSCU Puts Priority on Math and Science

                         By James H. McCormick

    The call for students to take more science and math classes has 
been sounded far and wide.
    A National Academy of Science panel documented trends that show 
this country losing its edge in scientific innovation. A Time magazine 
cover story, ``Is America flunking science?'', detailed how other 
countries surpass us in training scientists, research spending and 
scholarly journal articles. President Bush and leading Democrats 
promised new initiatives to reverse these trends.
    But now, a disturbing new poll suggests parents don't see the need. 
About 70 percent of high school parents in the poll conducted by Public 
Agenda, a national research group that tracks education trends, say 
their child gets the right amount of science and math.
    The evidence in Minnesota is clear, however, that high school 
students need a firmer grounding in these subjects. Mathematics made up 
more than half of the catch-up courses taken by students in the state's 
public higher education institutions, according to the latest college 
readiness study by the Minnesota State Colleges and Universities and 
the University of Minnesota. This weak showing in math among entering 
Minnesota college freshmen also means too few students major in math, 
science and engineering.
    Out of nearly 66,000 graduates from all Minnesota institutions of 
higher learning in 2003, only 2,500 majored in engineering, math and 
physical science. Evidence of that low number showed up in a recent 
report card by the Corporation for Enterprise Development, which ranked 
Minnesota 26th in the number of science and engineering graduate 
students.
    Competitiveness correlation. You may ask why science and math are 
so important. Let me be clear. We still need college graduates in 
communications, social sciences and, yes, the fine arts. A rich, 
vibrant and strong state demands citizens with those degrees, too.
    But put simply, mastery of math, science and engineering will in 
large part determine whether this state can compete. As the National 
Science Foundation leadership recently noted, ``Civilization is on the 
brink of a new industrial order. The big winners in the increasingly 
fierce global scramble for supremacy will not be those who simply make 
commodities faster and cheaper than the competition. They will be those 
who develop talent, techniques and tools so advanced that there is no 
competition.''
    Without an abundance of well-trained engineers and scientists, 
Minnesota cannot maintain a fertile environment for its businesses to 
become the 3Ms, Honeywells and Medtronics of the future. In short, 
what's at risk is our ability to maintain a high quality of life for 
the next generation.
    To produce more science, engineering and math majors, we must act 
now. In the Minnesota State Colleges and Universities system, we are 
addressing this challenge in three ways:
    <bullet> Upgrading outdated science labs.
    <bullet> Ramping up recruitment of students and teachers into 
science and math programs.
    <bullet> Increasing access for students--largely low-income and 
minorities--who traditionally have not been part of the higher 
education system in large numbers.
    Upgrading science labs. Since 1998, the Legislature has approved 
our requests to invest $296 million in updating science labs. If the 
2006 Legislature approves the $84 million we seek for more science lab 
upgrades, we will have made substantial progress at many of our 53 
campuses. To draw more students into science and math, we have 
established two Centers of Excellence focusing on engineering and 
manufacturing. By strengthening ties with K-12 educators, we aim to 
excite students about these challenging fields. In fact, the main 
mission of these centers, which involve 17 of our state universities 
and colleges, will be to produce a pool of talented and highly skilled 
engineers and manufacturing workers who think creatively and adapt 
rapidly.
    We also believe that Minnesota will not be able to meet this 
challenge without bringing substantially more citizens into the ranks 
of the college educated. Too many citizens still do not pursue formal 
education beyond high school. In 2004, only 26 percent of Minnesota's 
young adult students of color were enrolled in higher education. That's 
a lot of lost talent. The Minnesota State Colleges and Universities 
offer the best value and a logical steppingstone to pursuing 
baccalaureate or advanced degrees.
    So, the question that sits squarely before lawmakers, policymakers 
and the public is: How can we produce more engineers and scientists? 
The answer seems clear: By making a solid investment in public higher 
education, we can secure a bright future so our children and 
grandchildren stay in Minnesota and prosper.

    McCormick is chancellor of the Minnesota State Colleges and 
Universities System.
                                 ______
                                 

     [Article from the Minneapolis ``Star-Tribune,'' March 6, 2006]

  A Conversation; On Education in Minnesota; Competing With the World

                    By Lori Sturdevant, Staff Writer

    Forget that Minnesota sends a bigger share of its high school grads 
to college than all but two other states. Don't get excited about 
Minnesota's college-bound high school students topping the nation in 
ACT entrance exam scores. Stop boasting about being seventh in the 
nation in high school graduation rates. Don't compare Minnesota to the 
rest of the nation, say a growing number of the state's educators and 
CEOs, because American education isn't keeping pace with the world's 
leaders. If Minnesota is going to prosper in the global economy of 2025 
and 2050, it has to keep up with Norway, Singapore and China. And there 
is reason to worry that it is not. Among those who are worried are 
David Laird, president of the Minnesota Private College Council, Steven 
Rosenstone, dean of the College of Liberal Arts at the University of 
Minnesota, and Mark Chronister, partner at the Minneapolis office of 
the business accounting and consulting firm PricewaterhouseCoopers LLP.
    They met recently with editorial writer Lori Sturdevant to share 
their concern about the educational competition and their ideas for 
staying in the race. Here are themes and excerpts from their 
conversation:

    The leading indicators on educational competitiveness are in, and 
for America, they're not good.

    Rosenstone: The numbers that we frequently cite are lagging 
indicators. That we are a very educated population is a lagging 
indicator, not a leading indicator of our future. The leading 
indicators are 8th- and 12th-graders--how many are prepared to go on to 
college and graduate school, and how many are being left behind. That's 
where the alarm bells should be going off very loudly.
    Look at what's been happening to the number of science teachers we 
have, the preparation that schools are providing in K-12, the way in 
which the resources we've invested as a society in K-12 have dwindled, 
the way class sizes have grown.
    The preparation of students in math in this country and other 
countries is dramatically different, and for us, it's going in exactly 
the wrong direction. A couple of facts: Twenty-nine percent of the U.S. 
elementary grade students who took an international test in mathematics 
performed at a proficient level. American 12th-graders in 1999 were 
last among 20 nations who took a mathematics test. In 2003, U.S. 15-
year-olds ranked 24th among students in 29 nations tested in 
mathematics.
    This is about as real as it gets. But there isn't a Sputnik. There 
isn't a Pearl Harbor. There isn't a 9/11. It is the frog sitting in the 
water, and the water is getting warmer and warmer.
    Laird: Minnesota may be leading the nation in ACT scores and the 
share of people going to college. But that's leading a group that's 
going downhill. It's not recognizing who our real competition is.
    Laird (continued): Nations around the world are investing huge sums 
of money to ensure that they will have the most prepared students, in 
every field. Twenty or so nations have made huge strategic investments 
in higher education in the last 20 years, and that does not count what 
India and China are planning for the next 20. China is going to build 
800 new universities in the next 10 years. Eight hundred! They will 
each serve somewhere between 20,000 and 35,000 students.

    The education gap is about to become more evident.

    Chronister: Here's something that will exacerbate this problem. 
Business is looking at the biggest retirement cohort that it has ever 
seen. Where are the knowledge workers going to come from when the baby 
boomers retire?
    Laird: The cohort in our population now with the highest 
educational attainment is the one that is stepping into retirement. 
Nothing behind them so far is comparable. As it stands, we cannot 
replace those who are retiring.

    For Minnesota, education matters more than in some other states.

    Rosenstone: A fundamental difference in Minnesota now, compared 
with a century ago, is that the key industries in our state are not 
tied to natural resources, except for human capital. Taconite and 
agriculture are not the lifeblood of our economy the way they once 
were. The financial services industry can locate anywhere in the world. 
Cargill can go anywhere. General Mills is not tied to the river. 3M is 
not tied to St. Paul.
    Why do they want to be in Minnesota? It's the human capital--the 
educated workforce. That's why, in education, we can't just be hanging 
on. We have to be leading.

    Minnesota's white/nonwhite achievement gap has got to go.

    Rosenstone: The segment of the Minnesota population that's growing 
most rapidly has the lowest probability now of going on to college, and 
therefore the lowest probability of being prepared to fill the jobs 
that Minnesota needs if it is going to prosper in the future. Minnesota 
can't afford to leave so many kids behind.
    Chronister: We in business think that in this global environment, 
you have to have a diverse workforce, and you have to have an 
environment in which diverse people are comfortable. The more diverse 
our workforce is in Minnesota, the more successful our businesses will 
be.
    The people we're leaving behind now in this state are primarily 
minorities. By 2050, the U.S. Census Bureau says this country will be 
53 percent white, 47 percent minority. If we can't figure out how to 
educate the students we're leaving behind now, then by 2050, we could 
become a cold New Orleans.

    Minnesota has the wherewithal to change this picture. Here's how:

    Laird: Look at the experiences of Singapore and Norway. Both of 
those nations are close to our size. Both have been through the process 
of determining their strategic goals, and they have people working in 
yoke to get there. They are outperforming us at every level of 
education. The kids in Singapore typically study five languages, and 
take calculus in the 10th grade. There's no reason we can't do it, too.
    We need an ongoing assessment of our competition. Our competition 
isn't South Dakota and North Dakota. It's offshore. We are flying blind 
in that regard.
    Rosenstone: Imagine what would happen if college students, as part 
of their education, would engage with K-12 students as mentors. 
Businesses have hundreds of partnerships with K-12 now, but they are 
not coordinated in a way that's pulling together. Imagine if they were. 
Imagine if we could develop our own Teacher Corps of recent college 
graduates and retirees, reaching into K-12 in a way that keeps kids on 
track.
    Imagine if every college ensured the kind of access that we are 
trying to offer at the University of Minnesota, so that the message is 
crystal-clear to every fifth-grader in this state: If you are prepared 
for college or university, there will be a place for you. You will have 
access.
    Those are all things that are in our reach. We can make this a 
state project, if we have the will. This can be our moon shot.
    Chronister: Here's an analogy. Look at what happened when we 
started to say that we don't have enough women in college. Now we have 
student bodies that are 55 or 60 percent female. Why can't we do 
something similar here?

    Needed: A statewide summit meeting on increasing educational 
attainment. Soon.

    Chronsiter: We have a window of opportunity to address this. We 
need to move before the baby boomers retire.
    Rosenstone: The punch line here is a cry for a state summit on 
education. We need a statewide conversation that engages the leadership 
of every sector--business, education, government, philanthropy, 
everyone who has a stake in improving education. Together, we've got to 
take this on. This is the issue that will determine the future of this 
state.
Call to Invest in the Future
    Excerpt from a March 9 letter from two Minnesota CEOs, Cargill's 
Warren Staley and Medtronic's Arthur Collins, to Gov. Tim Pawlenty:
    ``The best opportunity our home state has of filling the shortfall 
of available college students lies among students who would be the 
first in their families to attend college. We hope you will act this 
session to increase need-based financial aid for students who will not 
be able to afford higher education without a direct investment in their 
futures.
    ``Over the history of our companies, through our corporate 
philanthropy, we have given many millions of dollars for both the 
improvement of academic excellence at public and private colleges and 
universities, and the improvement of access to these institutions. We 
make these commitments of dollars both in appreciation of what we have 
received and as an investment in our companies' own futures. We hope 
the State of Minnesota will also make an investment in our state's 
future educated workforce.''
While We Are Sleeping
    In 1991, the United States ranked second in college participation. 
In 2001, it was 15th. In 1975, the United States conferred 59 percent 
of the world's doctoral degrees. At the end of 2001, the share was 41 
percent and declining. The United States ranks 17th in the world in 
high school graduation rate, at 74 percent. In tests assessing basic 
knowledge and skills, U.S. students ranked 15th in reading, 19th in 
science, 24th in mathematics and 24th in problem solving.

    Source: Minnesota Private College Council.
                                 ______
                                 

   [Presentation to National Association of Independent College and 
             University State Executives, February 6, 2006]

                         While We Are Sleeping

  By David B. Laird, Jr., President, Minnesota Private College Council

    It is easy to be complacent about U.S. competitiveness and pre-
eminence in science and technology. We have led the world for decades, 
and we continue to do so in many research fields today. But the world 
is changing rapidly, and our advantages are no longer unique. Without a 
renewed effort to bolster the foundations of our competitiveness, we 
can expect to lose our privileged position. For the first time in 
generations, the nation's children could face poorer prospects than 
their parents and grandparents did. We owe our current prosperity, 
security, and good health to the investments of past generations, and 
we are obliged to renew those commitments in education, research, and 
innovation policies to ensure that the American people continue to 
benefit from the remarkable opportunities provided by the rapid 
development of the global economy and its not inconsiderable 
underpinning in science and technology.
Public Opinion on America's Innovation Future
    We're regularly reporting on studies that bemoan the state of 
America's innovation infrastructure, and call for major new investments 
in science, technology, and innovation. Most of these reports are 
produced by expert panels of scientists, researchers, and industry 
leaders, but these concerns are not limited to elite opinion-makers. A 
new poll shows that average Americans are also greatly concerned about 
the U.S.'s future competitive positions. The poll and a series of focus 
groups, let by Peter D. Hart Associates and the Winston Group, asked 
participants (opinion leaders and voters) to provide their views on 
America's ability to sustain its scientific and technological 
superiority through this decade and beyond. When asked to identify the 
world's economic leader in 20-30 years, 45 percent of voters identified 
China. Thirty-two percent selected the U.S. Interestingly, the survey 
saw a split in the intensity of concern about these competitive 
challenges. Thirty-three percent of opinion leaders cited improving 
innovation capacity as America's Number One future challenge. Only 18 
percent of voters shared this view. However, there was consensus around 
the critical importance of improving education. A majority of all 
groups believe this is the key to enhancing American competitiveness.
    To view the results of the Business Roundtable's survey on 
``Innovation and Competitiveness: Addressing the Talent Gap,'' visit 
http://www.businessroundtable.org/pdf/20060112Two-pager.pdf
    <bullet> Nations with major higher education initiatives in past 
decade: Finland, South Korea, the Netherlands, Japan, Canada, Belgium, 
China, India, Singapore, Thailand, Australia, Great Britain, Germany, 
Ireland, Hungary, Poland, and Czechoslovakia.
    <bullet> Nations with organized programs to attract talented 
foreign students: Belgium, Canada, Finland, India, Ireland, the 
Netherlands, Sweden, Australia, New Zealand, Singapore, Taiwan, Hong 
Kong, South Korea.
    <bullet> Nations with organized programs to attract established 
scientists and scholars: European Union, Singapore, South Korea, China, 
India, Australia, New Zealand.
    <bullet> In 1975 the U.S. ranked third in the world in production 
of degrees in natural science or engineering--in 2005 the U.S. ranked 
20th. In 2004 both China and India produced ten times more than in the 
U.S.
Recent Facts to Consider
            High School Graduation Rates
    The U.S. ranks 17th in the world in high school graduation rates 
(74 percent) compared to over 90 percent in Hungary, Japan, Germany, 
Poland, Slovak Republic. In recent PISA (International Student
            Assessment) tests assessing basic knowledge and skills, 
                    U.S. students ranked:
    <bullet> 24th in mathematics
    <bullet> 24th in problem solving skills
    <bullet> 15th in reading proficiency
    <bullet> 19th in science proficiency
            R & D
    Japan and Korea spend a larger portion of GDP than the U.S. From 
1995-2001 R & D spending in China, Korea and Taiwan increased four 
times more than the U.S. China plans to double its investment in the 
next decade.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In 1975, the U.S. conferred 59 percent of the world's total 
doctoral degrees--at the end of 2001 our share was 41 percent and 
declining.
            International Student Applications
    In the past three years international applications to U.S. graduate 
programs fell 28 percent, international applications for engineering 
study dropped 36 percent, and international enrollments in U. S. 
graduate programs have dropped the last two years--the first declines 
in three decades.
            Focus on China
    <bullet> China now has the largest higher education system in the 
world.
    <bullet> In the past six years, China has doubled participation in 
higher education and has plans to double again in the next two years.
    <bullet> There are now more people in China who speak English than 
citizens in the U.S.
    <bullet> As China collects income from U.S. debt, it will have a 
steady resource to invest in education as well as R & D.
            Another look at the U.S. future:
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
    In 1983, in the Nation at Risk, the authors concluded:
    Our Nation is at risk. Our once unchallenged preeminence in 
commerce, industry, science, and technological innovation is being 
overtaken by competitors throughout the world. This report is concerned 
with only one of the many causes and dimensions of the problem, but it 
is one that undergirds American prosperity, security, and civility. We 
report to the American people that while we can take justifiable pride 
in what our schools and colleges have historically accomplished and 
contributed to the United States and the well-being of its people, the 
educational foundations of our society are presently being eroded by a 
rising tide of mediocrity that threatens our very future as a Nation 
and a people. What was unimaginable a generation ago has begun to 
occur--others are matching and surpassing our educational attainments.
    Our neighbors and elected leaders are still asleep. It is time to 
wake them up. The rest of the organized world is not waiting for us to 
assess our challenges and opportunities. Our nation is not prepared for 
the future.

    In addition to cited and public sources, this presentation borrows 
from a speech to the American Association of University Women entitled, 
``Education and America in the 21st Century'' by Steven J. Rosenstone, 
Dean, College of Liberal Arts, University of Minnesota, November 21, 
2005.

    Source: Rising Above the Gathering Storm, National Academy of 
Sciences 2005
                                 ______
                                 

  Responses From Secretary Spellings to Questions Posed at the Hearing

From Representative Danny Davis:
    Q: I was pleased to learn that you share my concern that there are 
too few black male teachers involved in early childhood education. What 
specific remedies do you envision that could address this often 
overlooked problem that could be pursued by the Department of 
Education? Do you have any advice for legislators?
    Secretary Spellings: I believe this issue is best addressed by 
increasing overall educational opportunities for African-American 
students. No Child Left Behind has as one of its primary goals 
increasing the academic achievement of students who in the past were 
too often left behind by our education system, and African-American 
males have suffered perhaps more than any other group from what the 
President calls ``the soft bigotry of low expectations.'' If we are 
successful in closing achievement gaps through NCLB, more poor and 
minority students, including black males, will graduate from high 
school prepared for postsecondary education and a wide range of 
careers, including teaching at all levels.
    In addition, opening the pipeline to the teaching profession 
through initiatives such as our Transition to Teaching program, 
President Bush's proposed Adjunct Teacher Corps, and innovative 
programs such as Teach For America will help encourage more African-
American males to pursue teaching careers. Few things arc more 
inspiring to students than a great teacher, and we are working hard to 
put more great teachers in all classrooms.
From Representative Susan Davis:
    Q: This question deals with the breakdown in funding within the 
American Competitiveness Initiative (ACI). It seems that one advantage 
the U.S. has over India, China, and other nations is the vast network 
of research universities throughout the United States. Certainly, the 
State of California has invested in its universities. Can you explain 
how the ACI proposal invests in our public research institutions, such 
as the research facility I just described?
    Secretary Spellings: Over the next 10 years, the ACI would double 
investments in key physical science and engineering research agencies: 
the National Science Foundation (NSF), the Department of Energy's (DOE) 
Office of Science, and the Department of Commerce's National Institute 
of Standards and Technology labs. NSF and DOE supports university-based 
research in a variety of ways. For example, the increased funding 
proposed for NSF alone in fiscal year 2007 is expected to support as 
many as 500 more research grants and provide opportunities for 6,400 
additional scientists, students, post-doctoral fellows, and 
technicians. Over 10 years, this expanded support will have made a 
substantial contribution to maintaining the leadership of our public 
research institutions.
    Q: Additionally, how would this proposal build upon and expand on 
the advantages the U.S. already holds over other nations, such as our 
research university networks?
    Secretary Spellings: In addition to the doubling of research 
investment that I just described, which would provide substantial 
support to those university networks, the ACI would encourage 
additional private-sector investment by making permanent the Research 
and Experimentation tax credit; strengthening K-12 math and science 
education to expand the pipeline of future science, technology, 
engineering, and mathematics (S1EM) graduates; and supporting 
immigration reform to help attract and retain the best and brightest 
researchers from around the world.
    Q: Along these lines, much of the funding outlined in the proposal 
would go toward R&D tax incentives rather than direct federal funding 
for research--$1.3 billion for research compared to $4.6 billion for 
R&D tax incentives. Can you explain how this is a healthy balance of 
tax incentives and direct funding for research and what brought you to 
these numbers? Why is more directed toward tax incentives?
    Secretary Spellings: Private-sector research and development 
investment totals more than $200 billion annually, or about two-thirds 
of all U.S. research and development investment. We think that gives 
our $4.6 billion Research and Experimentation tax-credit proposal 
tremendous leverage in stimulating future research.
From Representative Hinojosa:
    Q: I am concerned that our federal policy and our budget have 
overlooked a large, important population. The base of my congressional 
district is South Texas--I-Iidalgo and Cameron Counties. In this area, 
half of the adults over the age of 25 do not have a high school 
credential. Many in my community are struggling to learn English, and 
there are long wait lists for English as a second language classes. It 
should come as no surprise that these two counties have the lowest 
wages in the nation.
    The President's budget does not propose to increase investments in 
this population--neither on the labor side nor on the education side. 
In fact, last year, the President proposed to slash adult education 
programs by two-thirds. The minimum wage has not been increased since 
1997. How can we be competitive if we write off such a large part of 
our adult populations?
    Secretary Spellings: I would begin by saying that we arc not 
proposing a cut in the FY 2007 budget for Adult Education. The 
President's 2007 request would continue funding for the program at the 
current level. In addition, the Department of Education, in partnership 
with the Department of Labor, helps address the needs of job seekers 
through One-Stop Career Centers, established through the Workforce 
Investment Act. These centers offer training referrals, career 
counseling, job listings, and other employment-related services. The 
Department of Labor also has implemented two initiatives designed to 
improve workers' education and training opportunities. One is the 
President's High-Growth Job Training Initiative, which has awarded more 
than $250 million to bring State and local workforce-development 
agencies together with industry and education entities to focus on 
training employees to work in high-growth fields, such as health care, 
biotechnology, and energy. The second is the Community-Based Job 
Training Initiative, which provides grants to community colleges to 
train workers for employment in high-growth industries. In addition, as 
part of the competitiveness initiative, the President has proposed 
enhancing the workforce investment system by providing Career 
Advancement Accounts that workers could use to obtain the education and 
training they need to succeed in the global economy. Career, 
Advancement Accounts are self-managed accounts that would provide up to 
$3,000 per year to enable current and future workers to gain the skills 
needed to successfully enter, navigate, and advance in the 21st century 
labor market, In sum, we are not in any sense writing off the 
population of adults who can benefit from adult education and job 
training programs.
    Q: What is your agency proposing to do differently to develop the 
talent and potential of this group of adults?
    Secretary Spellings: In addition to the Adult Education programs 
and the two Department of Labor initiatives I just described, we are 
working to establish strong performance accountability requirements for 
State and local programs that measure achievement on the basis of 
academic achievement and employment-related outcomes. These 
requirements have led to increases in measures of adult education 
success, including high school completion and entrance into and 
retention of employment, which reflect improved delivery of services at 
the State and local level. At the same time, funding for K-l2 programs 
focusing on teaching the basics of reading and mathematics, as well as 
programs specifically for the children of immigrants who are often 
limited English proficient, help ensure that a new generation of adults 
will not need remedial education after it has left the traditional 
school environment.
    Q: I applaud the administration's interest in improving high 
schools although I think that dismantling the programs that are 
working, such as GEAR UP, Upward Bound, Talent Search, and career and 
technical education is counter productive to your stated goals.
    In the Hispanic community, the low high school graduation rate has 
been a chronic problem and has held our community back from reaching 
its full potential. America will not be competitive with only half of 
our Hispanic students graduating from high school and only 20 percent 
of them ready for college. That is why I introduced the Graduation for 
All Act with a focus on adolescent literacy and making sure at-risk 
students have a real academic plan for graduation. I am looking forward 
to what we will learn from the Striving Readers program.
    Last week, I introduced the Partnerships for access to Laboratory 
Science Act--H.R. 5106. This legislation will partner high need school 
districts with colleges and universities, and the private sector to 
improve the teaching of science through the integration of hands-on 
learning into science education programs at high school laboratories as 
part of a comprehensive plan to improve the quality of science 
instruction and student learning outcomes. Would the Administration be 
supportive of this type of proposal?
    Secretary Spellings: We certainly support these kinds of efforts in 
general, I do want to point out that of the eight grants totaling $30 
million awarded this past year to support the implementation of 
Striving Readers Programs across the country, four were awarded to 
Hispanic-serving school districts, or school districts with at least 25 
percent Hispanic student enrollment (Chicago Public Schools, Newark 
Public Schools, San Diego Unified School District, and Springfield and 
Chicopee Public Schools). However, at a time when Federal dollars are 
scarce because of the need to focus on deficit reduction, we have to be 
careful about new initiatives that we may not be able to afford. At the 
same time, I believe that certain aspects of your proposal, with some 
modification, could be funded under the President's High School Reform 
proposal.
    Q: What are some other steps that we can take to improve math and 
science instruction in high school beyond the AP and lB programs?
    Secretary Spellings: In addition to the expansion of AP and lB 
offerings in our high schools, the President's American Competitiveness 
Initiative would fund an Adjunct Teacher Corps that would create 
opportunities for qualified professionals from outside the K-12 
educational system to teach secondary-school courses in the core 
academic subjects, with an emphasis on mathematics and the sciences. 
Also, we have already begun the work of the Academic Competitiveness 
Council (ACC) created by the Deficit Reduction Act that President Bush 
signed into law on February 8, 2006. The Council, which held its first 
meeting on March 6, is charged with identifying all federal programs 
that focus on math or science education, as well as the target 
populations served by those programs; assessing the effectiveness of 
these programs; and recommending ways to integrate and coordinate 
overlapping or duplicative activities. The ACI would support the work 
of the ACC by providing $5 million for the Evaluation of Mathematics 
and Science Programs designed to evaluate the effectiveness of Federal 
elementary and secondary mathematics and science programs.
    In addition, the President's High School Reform proposal would give 
States and school districts new tools and resources for improving the 
overall quality of high school education, including math and science 
education.
    Finally, the recently signed Higher Education Reconciliation Act 
included a longstanding Administration proposal to permanently increase 
the amount of loan forgiveness available from $5,000 to $17,500 for 
highly qualified math, science, or special education teachers working 
in eligible low-income schools. This provision should create a strong 
financial incentive for teachers to teach in high-need schools, which 
often face the largest shortages of highly qualified teachers in these 
important subject areas.
From Representative Hoff:
    Q: The U.S. must pay more attention to math and science education, 
as well as critical foreign languages, and their impact on global 
competitiveness. That's one of the main reasons I cosponsored the 
McMorris amendment to create an adjunct teacher corps to help focus 
more on these areas in our nation's schools. But I want to ensure that 
amendment does not create the unintended consequences of undercutting 
NCLB's requirement that a highly qualified teacher be in every 
classroom. What elements do you think need to be present in a final 
proposal to remedy that conflict?'
    Secretary Spellings: We do not believe that there is a conflict. To 
help meet the need for teachers with a solid background in the subject 
matter they are teaching, the President's budget includes $25 million 
for the Adjunct Teacher Corns. The program will provide competitive 
grants to partnerships of school districts and States to encourage up 
to 30,000 math and science professionals over eight years to serve as 
adjunct high school teachers.
    The Adjunct Teacher Corps initiative would complement other teacher 
programs in the Department, focusing on areas of need not addressed by 
those programs. The proposed program would invite professionals from 
outside of secondary education to teach in schools generally on a part-
time or temporary basis, bringing a wealth of knowledge and experience 
to provide real-world applications for some of the abstract concepts 
taught in classrooms, especially in mathematics and science. Other 
Department programs, including Transition-to-Teaching and Troops-to-
Teachers, help recruit and train a highly qualified, certified, 
permanent teaching force. In sum, while we fully support the highly 
qualified teacher requirements of NCLB, we believe that bringing 
scientists, engineers, mathematicians, and other STEM professionals 
into the classroom on an adjunct basis will enhance, not detract from, 
the national effort to ensure that all students arc taught by skilled 
and knowledgeable teachers.
    Q: How will the Department of Education implement the President's 
National Security Language Initiative?
    Secretary Spellings: Under the direction of the President, the 
Departments of Education, Defense, and State and the Office of the 
Director of National Intelligence will undertake a comprehensive 
national plan to expand foreign-language education beginning in early 
childhood and continuing throughout formal schooling and into the 
workforce. The National Security Language Initiative is designed to 
increase dramatically the number of Americans learning critical-need 
foreign languages such as Arabic, Chinese, Russian, and Farsi through 
new and expanded programs. The NSLI is built around three broad goals: 
(1) to address weaknesses in our teaching and learning of foreign 
languages, especially critical-need languages; (2) to expand the number 
of Americans mastering critical need languages, starting at a younger 
age; and (3) to increase the number of advanced-level speakers of 
foreign languages, with an emphasis on critical-need languages. Our 
2007 request includes $57 million for a combination of new and existing 
activities targeted to these goals.
    Q: The President's National Security Language Initiative addresses 
the long-standing problem of creating an articulated K -16 foreign 
language program pipeline, but finding highly qualified teachers for 
these programs remain, f-low will the Department of Education 
strengthen recruitment and retention programs for foreign language 
teachers? Are there any plans within the teacher training objectives of 
NSLI to add or make available training for immersion teachers at the 
elementary level?
    Secretary Spellings: The President's request for the NSLI would 
help recruit new foreign language teachers by providing $5 million for 
a Language Teacher Corps proposal designed to train college graduates 
with skills in critical foreign languages to enter the teaching force. 
The NSLI also includes a $3 million request for a Teacher-to-Teacher 
initiative that would support retention by providing intensive summer 
training sessions and online professional development for foreign 
language teachers.
    In addition, State and local entities may use funds they receive 
under a number of Department programs, including the Improving Teacher 
Quality State Grants program, the Transition to Teaching program, and 
the Teacher Incentive Fund, for recruitment and retention activities. 
For 2007, the Administration has requested $2.9 billion for the 
Improving Teacher Quality State Grants program, which would allow 
States to use their State-level funds for a variety of activities, 
including teacher recruitment and retention programs.
    Q: Since mathematics, science, and technology are at the root of 
innovation and NCLB has been testing only math and reading, how or will 
the 2007 science assessment be incorporated in AYP? Do you plan to seek 
changes during reauthorization of NCLB and if so how will it be 
weighted in AYP school assessment?
    Secretary Spelling: We believe that student results on science 
assessments should be included in AYP determinations. However, we are 
just beginning to discuss NCLB reauthorization within the Department 
and, thus, have not yet developed detailed proposals on that issue.
    Q: What steps are you taking to fully fund the ``No Child Left 
Behind'' Act, currently at a shortfall of approximately 55 billion 
dollars?
    Secretary Spellings: We have never agreed with the argument that 
massive funding increases are required to ``fully fund'' NCLB. The 
President and the Congress have provided very substantial overall 
increases for NCLB programs over the past five years, and we believe 
current funding levels are sufficient to leverage the changes the law 
was designed to encourage at the State and local levels.
    Q: Further, what actions are you taking to ensure that teachers are 
not ``teaching to the test,'' but rather teaching for sustained 
learning and critical thinking.
    Secretary Spellings: We don't necessarily see a conflict between an 
appropriate level of test preparation and sustained learning and 
critical thinking, so long as assessments are aligned with State 
standards and curricula, which is required under NCLB. In other words, 
``teaching to the test'' is often providing instruction designed to 
ensure that students master the material that is covered by State 
content standards, which is what is covered in State assessments. We 
believe that that type of instruction is entirely appropriate.
    Q: The recently passed budget reconciliation increased the interest 
rate on student loans and cut $14 billion from student loans over 5 
years, while the cost of higher education has steadily increased and 
will continue to increase. What are you doing through action, advocacy, 
and in collaboration with other agencies to help make higher education 
affordable or to assist students and families in paying for higher 
education or continuing education without sinking deeper into debt'?
    Secretary Spellings: In today's highly competitive global economy, 
it is vital that no American student be denied access to high-quality 
postsecondary education due to high costs. For this reason, in 
September 2005 1 created the Commission on the Future of Higher 
Education to examine how we as a nation can keep higher education 
affordable and accessible. The Commission, made up of experienced 
leaders from education, business, and government, is holding a series 
of meetings around the country and gathering data from respected 
experts on higher education. A final report with the commission's 
findings is expected by this August.
    In addition, the Higher Education Reconciliation Act (HERA) created 
Academic Competitiveness Grants, a new need-based program supported 
with mandatory funding that will award annual grants of up to $1,300 to 
high-achieving first- and second-year students who have completed a 
rigorous high school curriculum. The hERA also created National Science 
and Mathematics Access to Retain Ialent Grants, or SMART Grants, that 
provide up to $4,000 for third- and fourth-year students majoring in 
mathematics, science, technology, engineering, or critical foreign 
languages. We estimate these programs will provide more than $4.5 
billion in grant assistance over the next five years.
    Q: To remain competitive globally, our education system needs work. 
No Child Left Behind is a start to improvement, but more work needs to 
be done. For example, we expect students to learn the content of 40 
chapters of a science textbook in 180 six or seven-hour days, along 
with every other subject. This makes it difficult to truly understand 
the subject and not just memorize it. Are there any discussions in the 
Department of Education and with other agencies concerning extending 
the school day, extending the school year, re-aligning the curriculum 
and assessment to examine higher order thinking skills and 
interdisciplinary collaborations, or other such adaptations to the 
structure of the system to help students succeed?
    Secretary Spellings: The standards and assessment requirements of 
No Child Left Behind are, in fact, designed and intended to encourage 
mastery of challenging material and higher-order thinking skills. For 
example, the Department's regulations governing the State assessments 
required by NCLB specifically state that these assessments must include 
``measures that assess higher-order thinking skills and understanding 
of challenging content.'' However, decisions about how to structure the 
school day or year. as well as about the precise kind of teaching and 
learning required to meet challenging State standards, fall squarely 
within the realm of State and local control over education. We do give 
States, school districts, and schools considerable flexibility in the 
use of Federal formula grant funds to support the kinds of adaptations 
you describe, but we leave it up to State and local authorities to 
decide what adaptations are appropriate for their unique circumstances.
    Q: What will you do to ensure that the education pipeline is 
producing the quality and quantity of science and technology workers 
for the next 10-20 years, including extended education and skills 
training for science, technology, engineering and mathematics 
professionals?
    Secretary Spellings: This is precisely the focus of the President's 
American Competitiveness Initiative. In particular, the Math Now 
proposals for elementary and middle school students are critical for 
building the STEM pipeline over the coming decades. In my view, 
identifying and introducing stimulating math and science curricula and 
instruction in the early grades is the best way to encourage greater 
numbers of students to pursue advanced study and careers in STEM 
fields.
    Q: What role does the NSF play in your interagency plans to keep 
America competitive? There is concern that STEM education is being 
removed from the NSF, which can be challenging since the NSE has the 
researched based approaches to teaching science and mathematics whereas 
the Department of Education has the dissemination aspect of math and 
science education and the Department of Labor has workforce 
development.
    Secretary Spellings: To begin with, the ACI would double finding 
for NSF over the next 10 years, so we think that's a pretty strong 
signal of support for NSF. In addition, NSF will play a key role in our 
efforts to identify and evaluate effective math and science education 
programs through the Academic Competitiveness Council.
From Representative McCarthy:
    Q: The achievement gap from kindergarten through college and beyond 
is now well known. Too many children begin life disadvantaged. We have 
made progress in closing the gap, but not enough. Both research and our 
progress so far show that people can and must achieve at much higher 
levels. Global competition, while in the news, is not well understood. 
It is not just an issue of global out-sourcing to countries that will 
do the job cheaply. Other nations compete not only with lower costs but 
also higher quality. I saw this first hand when I visited China last 
year, along with Chairman McKeon. China has 1 .3 billion people. They 
could get it wrong most of the time and still have more people ready 
for the high skilled jobs of tomorrow than we will. We need to educate 
more people through high school and beyond. At current rates, experts 
estimate that by 2020 there won't be enough qualified American to fill 
14 million of the most skilled, highest paying jobs.
    Already, New York faces critical shortages in the major 
professions, including those that provide vital health and safety 
services, like nurses. If present trends continue, too few people will 
have the knowledge and skills our nation needs. This is unacceptable. 
If we act together, we can correct this problem now.
    In November 2005, the New York Board of Regents held an Education 
Summit, called ``A Call to Action.'' The summit was widely attended by 
650 leaders of education, business and community groups. The Summit's 
purpose was to help New York to develop strategies to compete globally. 
The last time the U.S government did such a summit was 16 years ago 
under the first President Bush. It included governors, and educators, 
but not businesses from what I understand.
    What do you think about holding a national Education Summit to 
address global competitiveness? The Summit would include educators, 
governors, businesses, labor and community groups.
    Secretary Spellings: The Department and the Administration have 
sponsored several education-related ``summits'' over the years-the 
First lady's 2002 summit on early childhood development and former 
Secretary Paige's 2003 summit on math education are two examples-but at 
this point we are not planning one for competitiveness. One reason is 
that typically we hold summits to draw attention to issues that are 
``under the radar'' of most people and otherwise might go unnoticed. I 
don't think that is the case with the competitiveness issue. The 
President, other Cabinet members, and I have been talking about it 
continuously for the past two years, and Congress helped move things 
along by commissioning the Rising Above the Gathering Storm report 
released last year by the National Academies. This year, the 
combination of the President's American Competitiveness Initiative and 
numerous Congressional hearings has really focused the public's 
attention on competitiveness. I think we are past the ``summit'' stage 
on competitiveness and now are moving quickly toward taking concrete 
action on the issue.
    Q: The New York Summit concluded that they must focus on three 
areas: early childhood education, redesigning the high school model, 
and higher education. Specifically, one of the recommendations that 
came out of the New York Summit was that the compulsory age to start 
school should be lowered from age 6 to age 5. Data revealed that 
getting kids started even just one year earlier made a difference. New 
York believes it will help to meet one of the other goals that came out 
of the summit, which is that every child will read by the second grade. 
What do you think of lowering the school age from 6 to 5?
    Secretary Spellings: I'm a firm believer in the value of early 
childhood education, and President Bush took the lead on reading in the 
early years with his Reading First and Early Reading First initiatives, 
which focus on reading well by the third grade. At the same time, 
resources are limited at all levels of government. so we have to be 
careful about new initiatives like lowering the age for compulsory 
education. For example, you said that the New York Summit also 
considered reforms at the high school and higher education levels. It 
would be great, of course, if New York could pursue initiatives in all 
three areas, but that may require some tough resource-allocation 
decisions. In the end, of course, it would be a State decision.
    Q: How about redesigning high school models?
    Secretary Spellings: The Department has already sponsored a series 
of summits on high school reform, beginning in 2003. The Congress 
should appropriate funds for the President's High School Reform 
initiative, which would give States and school districts new tools and 
resources to identify and address the needs of students at risk of 
dropping out of high school. This $1.5 billion proposal, which we have 
been promoting for the past two years, would make formula grants to 
States for intensive interventions to help struggling students. 
Grantees would use test scores of incoming high school students to 
identify those most at risk of not meeting State standards and dropping 
out, develop individualized performance plans to meet student needs, 
and implement specific interventions and strategies for improving 
student achievement in high school. Also, the proposal would require 
all States to develop and implement reading and mathematics assessments 
at two additional grades in high school so that data are more 
frequently available to track students' progress and to help shape 
strategies to meet students' particular needs.
    Q: A lot of times students do not know what opportunities arc out 
there for them as far as what they can do after high school. Although 
guidance counselors do a good job in providing students with 
information on that issue, I think students would benefit from more 
comprehensive instruction in the area. Do you think it would be a good 
idea to require instruction on career opportunities and awareness as 
part of the required curriculum in school?
    Secretary Spellings: Under the Administration's $1.5 billion High 
School Reform Initiative, local educational agencies will be able to 
include student counseling services as part of the comprehensive 
strategies they adopt to raise high school achievement and eliminate 
gaps in achievement among subgroups of students. While I do agree that 
counseling on career opportunities is important, the Department does 
not have authority to exercise any direction, supervision, or control 
over the curriculum, program of instruction, or administration of any 
school or school system.
    Q: Since No Child Left Behind is a major driving force behind 
whether the U.S. will be globally competitive, it seems to me to he 
important to get input from a broad spectrum of people on the issue. We 
only reauthorize once every 6 years, so we have to make sure and get it 
right which means listening to all sorts of views, even if we don't 
think we agree with them. I have found often when you sit and talk to 
someone you think you don't agree with, you find out you have more in 
common than you originally thought. What interest groups, businesses, 
think tanks have you, or do you plan to meet with to discuss 
reauthorization of NCLB?
    Secretary Spellings: As I mentioned earlier, we are just beginning 
to discuss NCLB reauthorization within the Department, and have not 
developed any concrete plans at this point in time. However, we have 
been very active since the very beginning of NCLB implementation in 
working with the widest range of public- and private-sector partners to 
achieve common goals. We receive input on NCLB all the time in a 
variety of ways, and I'm sure we will continue to do so as we consider 
possible changes during the reauthorization process.
    Q: There has been a lot of focus on the shortage of math and 
science teachers, and we are all trying to figure out how to increase 
the supply of such teachers. I am concerned that the undersupply of 
highly qualified teachers appears to be a problem that K- 12 is 
expected to address on its own, when we know that higher education and 
teacher prep programs have a big role to play in recruiting and 
preparing teachers to fill critical shortage needs. I want to know 
whether we have enough information to determine where the current 
supply of teachers is coming from, and whether we know which teacher 
preparation programs are producing the most math and science teachers 
and which ones are not. If we don't begin to collect this data, how 
will we know which programs are responding to the critical shortage 
needs and which ones arc not?
    Secretary Spellings: The Department does collect a lot of data on 
teachers and teacher preparation, including the reports that schools of 
education must submit under Title II of the Higher Education Act, and 
there is considerable research on this subject in the university sector 
as well. One thing we know is that shortages tend to he local or 
regional in nature, and not national. That's why our recent efforts 
have focused on creating incentives to attract qualified teachers to 
hard-to-fill positions. For example, the new Teacher Incentive Fund is 
designed to give States and school districts new tools to recruit 
qualified individuals to work in high-need areas.
    Q: What do you recommend we do to make sure that we focus not just 
on creating new programs, but to make sure we focus on evaluating 
results?
    Secretary Spellings: We work very hard to focus on results in 
everything we do, and this approach is built in to both NCLB and our 
entire, government-wide budgeting process. For example, the 
Administration has gone forward with a wide range of evaluation 
efforts, and, through efforts like the What Works Clearinghouse and the 
Promising Practices Initiative that I recently announced, has sought to 
provide more and better information to education practitioners on 
programs and approaches that are effective in teaching our children. As 
I mentioned earlier, the newly created Academic Competitiveness Council 
already is working to identify all federal programs that focus on math 
or science education, assess the effectiveness of these programs, and 
recommend ways to integrate and coordinate overlapping or duplicative 
activities. This work would be supported by a $5 million proposal in 
our 2007 budget for a government-wide Evaluation of Mathematics and 
Science Programs that would evaluate the effectiveness of Federal 
elementary and secondary mathematics and science programs.
    In addition, the Administration has developed and implemented the 
Program Assessment Rating Tool (PART), a mechanism that provides a 
common framework for measuring the effectiveness of programs 
government-wide, and has begun to incorporate the results of PART 
reviews in budget decisions. In sum, I completely agree with you that 
we need to evaluate the impact of the programs that we already have, 
not just focus on creating new programs. I would urge the Congress to 
consider thoroughly the PART findings and the evaluation results, and 
to provide sufficient funding for needed evaluations.
    Q: The President's American Competitiveness Initiative would commit 
$5.9 billion in FY2007, and more than $136 billion over IC years to 
increase investments in research and development, strengthen education, 
and encourage entrepreneurship and innovation. While this investment 
may be welcomed by many, I am concerned that Federal Programs like 
Title I and IDEA continue to he under funded. Given the President's 
proposed budget for FY2007, I want to be assured that these vital 
programs would not he further short-changed. How will you ensure that 
Title I and IDEA will not be adversely impacted given the Presidents 
proposal to reduce funding for education?
    Secretary Spellings: I think we need to keep in mind that both 
Title I and IDEA were never intended to supplant State and local 
financial support for education, but to leverage improvement for key 
populations. And our States and local communities remain strongly 
committed to education. Total national expenditures for elementary and 
secondary education are up $112 billion, or 25 percent, over the past 
five years, from $443 billion in 2001-2002 to $555 billion in 2005-
2006. Federal support has more than kept pace over the same period. 
Under the President's Budget, Title I funding would be up 45 percent 
since 2001, Special Education Grants to States up 69 percent, and 
overall NCLB funding up 40 percent.
    Q: No Child Left Behind has not been funded to the level of its 
actual expense. Thus, our districts are spending tremendous money for 
example, for substitutes needed to administer, train for and score the 
tests. I-low can we help districts meet such expenses?
    Secretary Spellings: We believe that funding provided by Congress 
and the President for NCLB programs is more than adequate to achieve 
the goals of those programs. As for the specific example you cited 
regarding test administration, States have received more than $1.9 
billion in formula grants for assessment development and administration 
over the past five years. Based on data from GAO and other resources, 
we believe that this amount fully covers States' expenses in meeting 
NCLB-related assessment requirements.
    Q: One goal of No Child Left Behind is to improve academic 
standards for our most needy students. Yet, many of our support 
teachers have lost valuable instructional time with their students in 
order to administer and score tests, the results of which will not be 
known until September. How can we address the problem of lost 
instructional time?
    Secretary Spellings: Administering tests has always been part of 
teaching. As for scoring tests, my understanding is that, under State 
assessment systems, this function is handled by private firms under 
contract, not by classroom teachers. But the bottom line is that we 
cannot determine if instruction is meeting students' needs without 
testing for results. I believe it is highly unlikely that the time used 
for test administration in most jurisdictions has subtracted 
significantly from the amount of instructional time available during a 
full school year.

                                 <all>

</pre></body></html>
